EXHIBIT 1

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

Argued October 5, 2018

Decided August 30, 2019
No. 16-1052

ALON REFINING KROTZ SPRINGS, INC.,
PETITIONER
v.
ENVIRONMENTAL PROTECTION AGENCY,
RESPONDENT
MONROE ENERGY, LLC, ET AL.,
INTERVENORS
Consolidated with 16-1055, 17-1255, 17-1259, 18-1021,
18-1024, 18-1025, 18-1029
On Petitions for Review of Agency Action of the
United States Environmental Protection Agency
Samara L. Kline argued the cause for petitioners. With her
on the briefs were Evan A. Young, Megan H. Berge, Lisa M.
Jaeger, Brittany M. Pemberton, Clara Poffenberger, Richard
S. Moskowitz, Robert J. Meyers, Thomas A. Lorenzen,
Elizabeth B. Dawson, Warren R. Neufeld, LeAnn M. Johnson,
and Jonathan G. Hardin. Albert M. Ferlo Jr. and Krista
Hughes entered appearances.

Page 1 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

2
Meghan E. Greenfield, Trial Attorney, U.S. Department of
Justice, argued the cause for respondent. With her on the brief
was Jeffrey H. Wood, Acting Assistant Attorney General.
Daniel R. Dertke, Attorney, entered an appearance.
Robert A. Long Jr. argued the cause for intervenors
American Petroleum Institute and Growth Energy. With him
on the brief were Kevin King, Seth P. Waxman, David M. Lehn,
Saurabh Sanghvi, and Claire Chung. Stacy R. Linden entered
an appearance.
Shannen W. Coffin and Linda C. Bailey were on the brief
for amici curiae NACS, et al. in support of respondent EPA.

Page 2 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

3
No. 17-1044
COFFEYVILLE RESOURCES REFINING & MARKETING, LLC AND
WYNNEWOOD REFINING COMPANY, LLC,
PETITIONERS
v.
ENVIRONMENTAL PROTECTION AGENCY,
RESPONDENT
ALON REFINING KROTZ SPRINGS, INC., ET AL.,
INTERVENORS
Consolidated with 17-1045, 17-1047, 17-1049, 17-1051,
17-1052
On Petitions for Review of Action of the
United States Environmental Protection Agency
Brian Killian argued the cause for petitioner The National
Biodiesel Board. With him on the briefs was Douglas A.
Hastings.
Samara L. Kline and Thomas Allen Lorenzen, argued the
causes for Obligated Party Petitioners. With them on the briefs
were Evan A. Young, Lisa M. Jaeger, Brittany M. Pemberton,
Clara Poffenberger, Richard S. Moskowtiz, Robert J. Meyers,
Elizabeth B. Dawson, David W. DeBruin, Thomas J. Perrelli,
Matthew E. Price, LeAnn M. Johnson, and Jonathan G.

Page 3 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

4
Hardin. David Y. Chung, Eric D. Miller, and Albert M. Ferlo
Jr. entered appearances.
Patrick R. Jacobi and Samara M. Spence, Attorneys, U.S.
Department of Justice, argued the causes for respondent. With
them on the brief was Jeffrey H. Wood, Acting Assistant
Attorney General.
Thomas Allen Lorenzen argued the cause for intervenors
American Fuel & Petrochemical Manufacturers and American
Petroleum Institute in support of respondent regarding
Biomass-Based Diesel Issues. With him on the brief were
Robert J. Meyers, Elizabeth B. Dawson, Richard S. Moskowitz,
Robert A. Long, Jr., and Kevin King. Stacy R. Linden entered
an appearance.
Robert A. Long, Jr., Kevin King, Bryan M. Killian,
Douglas A. Hastings, Seth P. Waxman, David M. Lehn,
Saurabh Sanghvi, and Claire H. Chung were on the brief for
intervenors Growth Energy, et al. in support of respondent.
Eric D. Miller entered an appearance.
Before: PILLARD and KATSAS, Circuit Judges, and
WILLIAMS, Senior Circuit Judge.
Opinion for the Court filed PER CURIAM.
Opinion concurring in part and concurring in the judgment
filed by Senior Circuit Judge WILLIAMS.
TABLE OF CONTENTS
I.

Introduction ..................................................................... 6

II.

Background ..................................................................... 7

Page 4 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

5
A. Legal Background ........................................................ 7
B. Procedural Background ............................................. 12
1.

2007, 2010, and 2017 Point of Obligation
Proceedings ............................................................ 12

2.

2017 Annual Volumetric Proceedings ................... 15

III.

Standard of Review .................................................... 17

IV.

2010 Point of Obligation Rule ................................... 17

A. Jurisdiction................................................................. 17
1.

Final Agency Action Under Section 7607(b)(1).... 19

2.

After-Arising
Grounds
Under
Section
7607(b)(1) .............................................................. 28

3.

Mandatory Reconsideration Under Section
7607(d)(7)(B) ......................................................... 29

B. Merits of Challenges to EPA’s Refusal to Revise
the 2010 Point of Obligation Rule ............................. 32
V.

2017 Annual Volumetric Rule ...................................... 41
A. Point of Obligation .................................................... 42
1.

Jurisdiction ............................................................. 42

2.

Merits ..................................................................... 43

B. Cellulosic Biofuel Projection..................................... 53
C. Cellulosic Waiver ...................................................... 58
VI.

2018 Volume for Biomass-Based Diesel ................... 62

A. NBB’s Standing ......................................................... 63
B. Merits of NBB’s Challenges ...................................... 65
VII.

Conclusion ................................................................. 70

Page 5 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

6
PER CURIAM:
I.

Introduction

The Clean Air Act requires EPA to publish “renewable
fuel standards,” ultimately expressed as “applicable
percentages,” each year to ensure that the total supply of
transportation fuel sold or imported into the United States
contains specified proportions of each of four categories of
renewable fuels. Congress intended the Renewable Fuel
Standards (RFS) program to “move the United States toward
greater energy independence and security” and “increase the
production of clean renewable fuels.”
See Energy
Independence and Security Act of 2007 (EISA), Pub. L. No.
110-140, preamble, 121 Stat. 1492 (2007) (codified at 42
U.S.C. § 7545(o)).
In these related cases, Alon Refining Krotz Springs,
together with other petroleum refineries and their trade
associations—the “Alon Petitioners”—seek review of EPA’s
decision not to revise its 2010 point of obligation regulation
requiring refineries and importers, but not blenders, to bear the
direct compliance obligation of ensuring that transportation
fuels sold or introduced into the U.S. market include the
requisite percentages of renewables. Coffeyville Resources
Refining & Marketing and another group of refineries and trade
associations—the “Coffeyville Petitioners”—challenge EPA’s
refusal to reassess the appropriateness of the point of obligation
in the context of its 2017 annual volumetric rule, which set the
2017 applicable percentages for all four categories of
renewable fuel and the 2018 applicable volume for one subset
of such fuel, biomass-based diesel. See 81 Fed. Reg. 89,746
(Dec. 12, 2016) (2017 Rule). The Coffeyville Petitioners also
contend that EPA arbitrarily set the 2017 percentage standards

Page 6 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

7
too high. The National Biodiesel Board (NBB)—a biomassbased diesel industry trade association—separately contends
that EPA set the 2018 applicable volume for biomass-based
diesel too low. Various trade associations representing
refineries and producers of renewable fuels have intervened in
support of EPA. For the reasons that follow, we deny each of
the petitions for review, many of which recycle arguments
raised and rejected in prior challenges.
II.

Background

A. Legal Background
Congress established the RFS program in 2005 as part of
the Energy Policy Act, Pub. L. No. 109-58, 119 Stat. 594
(2005) (as amended at 42 U.S.C. § 7545(o)). The statute
mandates the gradual introduction of four nested categories of
renewable fuels into the United States’ supply of gasoline,
diesel, and other transportation fuels.
See 42 U.S.C.
§ 7545(o)(2)(B). These categories include: (1) total renewable
fuel; (2) advanced biofuel; (3) cellulosic biofuel; and (4)
biomass-based diesel. Id. § 7545(o)(2)(A)(i), (B). The
umbrella category, total renewable fuel, covers the three other
categories plus any conventional renewable fuels, such as cornbased ethanol. See id. § 7545(o)(1)(F), (J), (2)(A)(i). The
advanced biofuel subset includes any renewable fuel (except
ethanol from cornstarch) that has at least 50% lower lifecycle
greenhouse gas emissions than fossil fuels.
Id.
§ 7545(o)(1)(B).
The statute further specifies two
nonexclusive subsets of advanced biofuels: cellulosic biofuel
(a renewable fuel derived from cellulose materials such as corn
stalks and husks) and biomass-based diesel (a diesel fuel
substitute made from feedstocks such as animal fats). Id.
§ 7545(o)(1)(B), (D), (E); EPA Coffeyville Br. 4–5. The

Page 7 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

8
following figure depicts the nested nature of the four fuel
categories.

Source: Coffeyville Br. 11.
Four tables in the statute set forth gradually increasing
annual “applicable volume” requirements for each category of
renewable fuel. See 42 U.S.C. § 7545(o)(2)(B)(i). The statute
sets applicable volumes for biomass-based diesel through
2012, id. § 7545(o)(2)(B)(i)(IV), and applicable volumes for
the
other
three
categories
through
2022,
id.
§ 7545(o)(2)(B)(i)(I)–(III). Under those tables, as the total
quantities of renewable fuel rise over time, the ratio of
advanced biofuels relative to conventional renewable fuel
gradually increases. Id. For compliance years (which match
calendar years) after those specified in the tables, the statute
requires EPA, in coordination with the Secretaries of Energy
and Agriculture, to set the annual applicable volumes based on

Page 8 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

9
a review of the implementation of the program plus an analysis
of six listed factors. Id. § 7545(o)(2)(B)(ii). For years not
specified in the table, EPA must publish the applicable volumes
fourteen months before the year in which they will apply—
volumes that, shortly before the start of the compliance year,
EPA translates into percentage standards. Id.
Various “waiver” provisions require or permit EPA to
lower the annual applicable volumes. Two are relevant for the
purposes of this case. First, under the “cellulosic waiver
provision,” EPA must make its own projection of the volume
of cellulosic biofuel that will be produced in the following year.
Id. § 7545(o)(7)(D)(i). If that projection is less than the
statutory figure, the agency must use its own projection as the
applicable volume of cellulosic biofuel. Id.; see Am. Petroleum
Inst. v. EPA, 706 F.3d 474, 477–80 (D.C. Cir. 2013) (API). The
same cellulosic waiver provision authorizes (but does not
require) EPA to also reduce the advanced biofuel and total
renewable biofuel volume requirements “by the same or a
lesser volume” as the cellulosic biofuel reduction, 42 U.S.C.
§ 7545(o)(7)(D)(i), and EPA has “broad discretion” regarding
whether and how to do that, Monroe Energy, LLC v. EPA, 750
F.3d 909, 915 (D.C. Cir. 2014). Separately, under the “general
waiver provision,” EPA may reduce any of the statutory
applicable volumes if it determines “that implementation . . .
would severely harm the economy or environment,” or “that
there is an inadequate domestic supply.”
42 U.S.C.
§ 7545(o)(7)(A); see Ams. for Clean Energy v. EPA, 864 F.3d
691, 707–13 (D.C. Cir. 2017) (ACE).
After EPA determines the waiver-adjusted applicable
volumes, it must translate those volumes into “renewable
volume obligation[s]” for each category of renewable fuel for
the upcoming compliance year. 42 U.S.C. § 7545(o)(3)(B)(i).
The volume obligation for each category of renewable fuel is
expressed as an “applicable percentage,” also known as a

Page 9 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

10
“percentage standard,” calculated by dividing the adjusted
applicable volume for that category of fuel by the total
anticipated volume of non-renewable transportation fuel that
will be introduced into commerce (which EPA derives based
on an estimate provided by the Energy Information
Administration) in the coming compliance year.
Id.
§ 7545(o)(3)(A), (B)(ii)(II); 40 C.F.R. § 80.1405(c). The
statute calls on EPA to publish the percentage standards not
later than November 30—a month before the start of the
compliance year. 42 U.S.C. § 7545(o)(3)(B)(i).
EPA must place the renewable volume obligations on
“refineries, blenders, and importers, as appropriate.” 42 U.S.C.
§ 7545(o)(3)(B)(ii)(I); see also id. § 7545(o)(2)(A) (requiring
EPA to promulgate implementing regulations, including
“compliance provisions applicable to refineries, blenders,
distributors, and importers, as appropriate,” designed to ensure
that transportation fuel sold or introduced into the United States
“contains at least” the required annual applicable volumes).
The entities that EPA designates to meet the volume
obligations are known as “obligated parties.” Monroe Energy,
750 F.3d at 912. Each obligated party must ensure that the
volume of non-renewable fuel it sells or introduces into U.S.
commerce is matched by selling or introducing a corresponding
volume of each category of renewable fuel at the level EPA’s
percentage standard requires for that category. See ACE, 864
F.3d at 699. The percentage standards are set in the
anticipation that, if each obligated party meets them and EPA’s
projection regarding the country’s total transportation fuel
supply bears out, the amount of each category of renewable
fuel introduced into the economy in the upcoming compliance
year will equal the applicable volumes for that year. Id.
Obligated parties bear no direct responsibility for any shortfalls
in the applicable volumes so long as they comply with the
percentage standards.

Page 10 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

11
EPA assigns a set of “renewable identification numbers”
(RINs) to each batch of renewable fuel that is produced or
imported for use in the United States. 40 C.F.R. § 80.1426; see
42 U.S.C. § 7545(o)(5); Monroe Energy, 750 F.3d at 913. The
number of RINs assigned to each batch corresponds to the
amount of ethanol-equivalent energy per gallon in that batch.
See 40 C.F.R. § 80.1415; Monroe Energy, 750 F.3d at 913.
RINs remain attached to the renewable fuel until that fuel is
purchased by an obligated party or blended into fossil fuels to
be used for transportation fuel. See ACE, 864 F.3d at 699
(citing 40 C.F.R. § 80.1429(b)(1)–(2)). At that point the RINs
become “separated,” meaning they are, in effect, a form of
compliance credit. Id. Obligated parties demonstrate their
compliance with their renewable fuel obligations by “retiring”
RINs in annual compliance demonstrations to EPA. 40 C.F.R.
§§ 80.1427(a), 80.1451(a)(1).
Because the four categories of renewable fuel are nested,
obligated parties can comply with their obligations for a type
of fuel by retiring any combination of RINs corresponding to
that category of fuels or any subset thereof. See 40 C.F.R.
§ 80.1427(a)(3)(i). For instance, retiring a cellulosic biofuel or
biomass-based diesel RIN counts not only toward the volume
obligation for that fuel, but also toward both the advanced
biofuel and total renewable fuel obligations. Thus, “if one
million gallons of cellulosic biofuel are blended into the fuel
supply, the statute allows those one million gallons to be
credited toward the advanced biofuel and total renewable fuel
obligations in addition to the cellulosic biofuel obligation.”
ACE, 864 F.3d at 698.
Obligated parties who have more RINs than they need may
sell or trade their excess, 40 C.F.R. § 80.1428(b), or they may
“bank” those RINs for use to meet up to 20 percent of their
obligations for the following compliance year, Monroe Energy,
750 F.3d at 913; see 40 C.F.R. § 80.1427(a)(1), (5); Regulation

Page 11 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

12
of Fuels and Fuel Additives: Changes to Renewable Fuel
Standard Program, 75 Fed. Reg. 14,670, 14,734–35 (Mar. 26,
2010). Obligated parties without enough RINs to meet their
compliance obligations may purchase RINs, use banked RINs
from the prior year, or carry a deficit forward to the following
year to be satisfied together with the following year’s
obligations. See ACE, 864 F.3d at 699–700; see also 42 U.S.C.
§ 7545(o)(5)(D); 40 C.F.R. § 80.1427(b).
B. Procedural Background
The procedural history of these cases follows two paths:
first, the proceedings relevant to the challenge that EPA
arbitrarily declined to initiate a rulemaking to modify the 2010
regulation designating refineries and importers, but not
blenders, as obligated parties; and second, the proceedings
challenging the 2017 Rule.
1.

2007, 2010, and 2017 Point of Obligation
Proceedings

In its 2007 regulations implementing the RFS program,
EPA designated refiners and importers, but not blenders, as the
“appropriate” parties to meet the renewable fuel obligation. 72
Fed. Reg. 23,900, 23,923–24 (May 1, 2007). At the time, those
designations were not challenged in court. EPA reaffirmed its
designations in a 2010 regulation now commonly known as the
“point of obligation rule.” 75 Fed. Reg. at 14,721–22 (codified
at 40 C.F.R. § 80.1406(a)(1)). During the 2010 rulemaking,
several refiners—including petitioner Valero Energy
Corporation—argued that failing to obligate blenders, who
combine renewable fuel with fossil fuels, would make the RFS
program unworkable. EPA concluded that the program was
functioning adequately and that the burdens and disruption
from changing the point of obligation would outweigh any

Page 12 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

13
benefits. See Summary and Analysis of Comments 3.9.2, Alon
J.A. 287–90. Although other aspects of the 2010 regulations
were challenged in court, see, e.g., Nat’l Chicken Council v.
EPA, 687 F.3d 393 (D.C. Cir. 2012); Nat’l Petrochemical &
Refiners Ass’n v. EPA, 630 F.3d 145 (D.C. Cir. 2010), the point
of obligation rule was not.
On December 14, 2015, EPA promulgated the volume
requirements for 2014, 2015, and 2016. Renewable Fuel
Standard Program, 80 Fed. Reg. 77,420 (Dec. 14, 2015). In so
doing, EPA exercised its general waiver authority to lower the
total renewable fuel volumes based on a finding of inadequate
domestic supply due to market factors “affecting the ability to
distribute, blend, dispense, and consume . . . renewable fuels”
at the levels required by statute. Id. at 77,435/2. Among those
factors was “the slower than expected development of the
cellulosic biofuel industry.” Id. at 77,422. The agency thought
an additional “real world constraint[]” was the “E10
blendwall”—the difficulty for most American vehicle engines
to run on blends containing more than 10% ethanol. Id. at
77,423. EPA explained that those factors made the statutory
requirements “impossible to achieve.” Id. at 77,422/2. This
Court later vacated the general waiver on the ground that EPA
had misinterpreted the statutory term “inadequate domestic
supply” to include demand-side constraints such as the E10
blendwall. See ACE, 864 F.3d at 704–13.
On February 12, 2016, sixty days after EPA promulgated
the volume requirements for 2014–16, the Alon Petitioners
petitioned this Court for review of the 2010 point of obligation
rule. These petitions contend that the rule was arbitrary and
capricious insofar as it failed to impose the obligation on
downstream blenders—the parties petitioners think are best
able to comply with it. The petitions assert jurisdiction under
the after-arising provision in 42 U.S.C. § 7607(b)(1), which

Page 13 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

14
permits otherwise-untimely challenges to a rule if the
challenges are “based solely on grounds arising after” the sixtyday deadline for seeking judicial review. The petitioners assert
that EPA’s exercise of its general waiver authority in the 2014–
16 volume regulations, and its acknowledgment of the RFS
program’s shortcomings as of that time, provided such an afterarising ground.
The Alon Petitioners simultaneously petitioned EPA to
revise the point of obligation rule. Some of their requests were
styled as petitions for a rulemaking. Others were styled as
petitions for mandatory reconsideration under 42 U.S.C.
§ 7607(d)(7)(B), which requires EPA to reconsider a rule if
centrally important objections were impracticable to raise
during the comment period or “arose after” that period “but
within the time specified for judicial review.” The petitions
cited the waiver in the 2014–16 volume regulations and EPA’s
acknowledgment of program difficulties as grounds supporting
mandatory reconsideration. This Court held in abeyance the
petitions for review of the point of obligation rule pending
resolution of the petitions to revise it.
On November 10, 2016, EPA published a proposed denial
of the petitions to revise the point of obligation rule. On
November 22, 2017, after reviewing more than 18,000
comments on the proposal, EPA denied the petitions. It
concluded that the statutory requirements for mandatory
reconsideration were not met, so it treated all the filings as
petitions for a rulemaking. Denial of Petitions for Rulemaking
to Change the RFS Point of Obligation, EPA-HQ-OAR-20160544-0525, at 7 (Nov. 22, 2017) (EPA Denial), Alon J.A. 61.
EPA then denied the petitions on the ground that “changing the
point of obligation would . . . likely result in a decrease in the
production, distribution, and use of [renewable] fuels” and
would “do nothing to incentivize the research, development,

Page 14 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

15
and commercialization of cellulosic biofuel technologies
critical for the growth of the RFS program in future years.”
EPA Denial at 8–9, Alon J.A. 62–63.
Within sixty days (in December 2017 and January 2018),
the Alon Petitioners sought judicial review of that denial,
which it cast as a final agency action under section 7607(b)(1).
The two sets of petitions—the February 2016 petitions for
review of the 2010 point of obligation rule and the 2017–18
petitions for review of EPA’s refusal to reconsider the rule—
were consolidated and are now before us.
2.

2017 Annual Volumetric Proceedings

EPA issued its 2017 annual volumetric rule on December
12, 2016. The 2017 Rule establishes: (1) the applicable volume
for biomass-based diesel for 2018, 81 Fed. Reg. at 89,751/2;
(2) the waiver-adjusted applicable volumes for cellulosic
biofuel, advanced biofuel, and total renewable fuel for 2017,
id. at 89,747 tbl. I-1; and (3) percentage standards for all four
fuel types for 2017, id. at 89,751, tbl. I.B.6-1.
EPA exercised its mandatory cellulosic waiver authority to
decrease the 2017 applicable volume for cellulosic biofuel by
more than 94 percent, dropping 5.189 billion gallons from the
statutory target of 5.5 billion gallons, to 311 million gallons.
Id. at 89,750/2; 42 U.S.C. § 7545(o)(2)(B)(i)(III). EPA then
had discretion under that same waiver authority to cut as much
as 5.189 billion gallons off the statutory volumes for advanced
biofuel and total renewable fuel.
See 42 U.S.C.
§ 7545(o)(7)(D)(i); 81 Fed. Reg. at 89,762 & tbl. IV.A-1. EPA
partially exercised that authority, reducing the 9-billion-gallon
statutory target for advanced biofuel by 4.72 billion gallons,
resulting in an adjusted applicable volume of 4.28 billion
gallons—a greater than 50% decrease. 81 Fed. Reg. at 89,750–
51; 42 U.S.C. § 7545(o)(2)(B)(i)(II). EPA reduced the total

Page 15 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

16
renewable fuel volume requirements by the same amount,
lowering the statutory target of 24 billion gallons to 19.28
billion gallons. 81 Fed. Reg. at 89,751/1; 42 U.S.C.
§ 7545(o)(2)(B)(i)(I). EPA considered but decided against also
using its general waiver authority to further lower the
applicable volume of total renewable fuel. 81 Fed. Reg. at
89,751/1.
Using the waiver-adjusted applicable volumes, EPA set
the 2017 percentage standards for each of the four renewable
fuel categories. See id. at 89,751, 89,799–801. Finally, EPA
set the biomass-based diesel applicable volume for 2018 at 2.1
billion gallons. Id. at 89,751/2. EPA received comments
urging it to reassess the point of obligation in the 2017 Rule,
but declined to address them on the grounds that the comments
were “beyond the scope” of the 2017 rulemaking. Response to
Comments at 542, Coffeyville J.A. 761.
After EPA published the 2017 Rule, various parties
petitioned for judicial review. The Coffeyville Petitioners
contend that EPA erred by refusing to reconsider which types
of parties would bear the direct compliance obligation under
the 2017 Rule. They also argue that EPA arbitrarily calculated
the 2017 production of cellulosic biofuel and arbitrarily
exercised its discretionary cellulosic waiver authority, resulting
in percentage standards that are too high. NBB argues that
EPA set the 2018 applicable volume for biomass-based diesel
too low by considering factors it should not have and omitting
or incorrectly assessing others. Two trade associations
representing refineries have intervened in defense of EPA’s
biomass-based diesel decision, and a coalition of trade
associations representing renewable fuel producers and
refineries have intervened to oppose the Coffeyville

Page 16 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

17
Petitioners’ claims.
succeeds.
III.

None of the petitioners’ challenges
Standard of Review

“This court applies the familiar, deferential standard
announced in Chevron, U.S.A., Inc. v. Natural Resources
Defense Council, Inc., to sustain any reasonable agency
interpretation of ambiguity in the Clean Air Act.” Nat’l Ass’n
for Surface Finishing v. EPA, 795 F.3d 1, 7 (D.C. Cir. 2015).
“We employ the deferential State Farm standard of review
when reviewing arguments based on allegedly arbitrary or
unreasoned agency action.” ACE, 864 F.3d at 726 (citing
Motor Vehicle Mfrs. Ass’n of U.S., Inc. v. State Farm Mut.
Auto. Ins. Co., 463 U.S. 29, 43 (1983)). Under that rubric,
EPA’s actions are “presumptively valid provided [they] meet[]
a minimum rationality standard.” Nat. Res. Def. Council, Inc.
v. EPA, 194 F.3d 130, 136 (D.C. Cir. 1999). We uphold EPA’s
actions so long as they are “reasonable and reasonably
explained.” Jackson v. Mabus, 808 F.3d 933, 936 (D.C. Cir.
2015).
IV.

2010 Point of Obligation Rule

We start with the Alon Petitioners and their challenges to
the 2010 point of obligation rule.
A. Jurisdiction
We begin, as we must, with our jurisdiction. In general
terms, the question presented involves our review of rules
promulgated under the Clean Air Act, or EPA’s failure to
amend them, after the initial window for seeking judicial

Page 17 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

18
review has passed. Various statutory provisions frame this
inquiry.
Section 7607(b)(1) of Title 42 provides for judicial review
of regulations promulgated by the Administrator of EPA under
the Clean Air Act. The first sentence of section 7607(b)(1)
vests this Court with exclusive jurisdiction to review
“nationally applicable regulations promulgated, or final action
taken, by the Administrator” under the Act. The fourth
sentence of section 7607(b)(1) specifies the time for seeking
judicial review. It imposes a sixty-day time limit, but provides
an exception for petitions based on grounds arising after the
limit: “Any petition for review under this subsection shall be
filed within sixty days from the date notice of such
promulgation, approval, or action appears in the Federal
Register, except that if such petition is based solely on grounds
arising after such sixtieth day, then any petition for review
under this subsection shall be filed within sixty days after such
grounds arise.”
Section 7607(d) of Title 42 sets forth provisions for
various rulemakings under the Clean Air Act, including for the
“promulgation or revision of any regulation” involving the RFS
program.
Id. § 7607(d)(1)(E).
Section 7607(d)(7)(B)
addresses various issues regarding exhaustion, agency
reconsideration, and judicial review. The first sentence of that
provision imposes a conventional exhaustion requirement,
limiting judicial review to objections “raised with reasonable
specificity during the period for public comment.” The second
sentence requires EPA to reconsider regulations in certain
narrow circumstances: “If the person raising an objection can
demonstrate to the Administrator that it was impracticable to
raise such objection within such time or if the grounds for such
objection arose after the period for public comment (but within
the time specified for judicial review) and if such objection is

Page 18 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

19
of central relevance to the outcome of the rule, the
Administrator shall convene a proceeding for reconsideration
of the rule and provide the same procedural rights as would
have been afforded had the information been available at the
time the rule was promulgated.” The third sentence of section
7607(d)(7)(B) makes any “refusal” to provide such mandatory
reconsideration judicially reviewable.
At various times in this litigation, the petitioners have
asserted three different jurisdictional theories. First, EPA’s
refusal to revise the point of obligation rule in 2017 was a final
action reviewable under the first sentence of section
7607(b)(1), regardless of the after-arising provision. Second,
EPA’s statements and actions in its 2014–16 volume regulation
constitute after-arising grounds permitting a challenge to the
point of obligation rule as promulgated in 2010. Third, these
same EPA statements and actions triggered a right to
mandatory reconsideration under section 7607(d)(7)(B), which
in turn makes the denial of reconsideration judicially
reviewable. As explained below, we conclude that the first
contention is correct, the second has been abandoned, and the
third lacks merit.
1. Final Agency Action Under Section 7607(b)(1)
In 2016, various refiners petitioned EPA for a rulemaking
to modify the point of obligation rule. The petitions urged that
the need for a modification became evident in 2015, when EPA
waived certain statutory volume requirements and concluded
that changing economic conditions had made the requirements
“impossible to achieve.” 2014–16 Rule, 80 Fed. Reg. at
77,422/2. In November 2017, EPA denied the rulemaking
petitions on the ground that any current problems with the RFS
program were manageable and that changing the point of
obligation at this juncture would be disruptive. EPA Denial at

Page 19 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

20
8–9, Alon J.A. 62–63. The refiners sought review of the denial
in December 2017 and January 2018. As petitioners in this
Court, they contend that the November 2017 denial constituted
final agency action reviewable under section 7607(b)(1). We
agree.
As noted above, the first sentence of section 7607(b)(1)
gives this Court exclusive jurisdiction to review any nationally
applicable “final action” taken by EPA under the Clean Air
Act. The parties agree that the denial of the rulemaking
petitions was nationally applicable, final, and taken under the
Clean Air Act. It was also agency “action” within the meaning
of the statute. That word “bears the same meaning in [section
7607(b)(1)] that it does under the Administrative Procedure
Act,” Whitman v. Am. Trucking Ass’ns, 531 U.S. 457, 478
(2001), which defines “agency” to include EPA, 5 U.S.C.
§ 551(1), and “agency action” to include “the whole or a part
of an agency rule, order, license, sanction, relief, or the
equivalent or denial thereof, or failure to act,” id. § 551(13)
(emphases added). So, EPA’s denial of the petitions for
rulemaking was a reviewable “action.”
The petitions for review were timely. As a general matter,
section 7607(b)(1) requires a petition for review to be filed
within sixty days of when “notice of such promulgation,
approval, or action appears in the Federal Register.” Here, the
“action” at issue—denial of the petitions for rulemaking—was
published in the Federal Register on November 22, 2017, and
the petitions for review of that action were filed within sixty
days of that date. Moreover, this conclusion does not depend
on the after-arising provision. To the contrary, because the
petitions for review were filed within sixty days of the “action”
under review, the exception for “grounds arising after such
sixtieth day” was not triggered.

Page 20 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

21
Our caselaw confirms this framing of the jurisdictional
issue. In Massachusetts v. EPA, 415 F.3d 50 (D.C. Cir. 2005),
this Court held that EPA’s denial of a petition to regulate
greenhouse gas emissions as air pollutants was itself “final
action” reviewable under section 7607(b)(1). See id. at 53–54
(opinion of Randolph, J.); id. at 61 (Sentelle, J., concurring in
the judgment). The Supreme Court reversed our judgment on
the merits, but agreed that we had jurisdiction. Massachusetts
v. EPA, 549 U.S. 497 (2007). In particular, the Court noted that
section 7607(b)(1) “expressly permits review” of EPA’s
“rejection of [a] rulemaking petition.” Id. at 520, 528; see also
id. at 517 (section 7607(b)(1) affords “the right to challenge
[this] agency action unlawfully withheld”). Likewise, in
Natural Resources Defense Council v. EPA, 824 F.2d 1146
(D.C. Cir. 1987) (en banc) (NRDC), we held that a 1985
decision to withdraw proposed amendments to certain 1976
regulations—which we described as a “decision not to amend”
the regulations—was “reviewable agency action” under
section 7607(b)(1). Id. at 1150 (quotation marks omitted). We
concluded that the petition for review at issue, which on its face
challenged the 1985 withdrawal decision, was not, in
substance, an untimely “‘back-door’ challenge to the 1976
regulations.” Id. On that point, we reasoned that the petitioners
claimed legal errors in the 1985 withdrawal and sought vacatur
only of that order. Likewise, in this case, the petitions for
review filed in 2017 and 2018 raise no back-door challenge to
the 2010 regulation: the petitions contend that EPA in 2017
arbitrarily refused to take account of changing economic
conditions, and they seek vacatur only of the 2017 order
denying a new rulemaking going forward.
Background principles of administrative law reinforce our
conclusion that the denial of a petition to modify a rule based
on changed circumstances is itself a reviewable order.
Ordinarily, the denial of a petition to amend or rescind a

Page 21 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

22
regulation is judicially reviewable. See, e.g., NLRB Union v.
FLRA, 834 F.2d 191, 195–96 (D.C. Cir. 1987). When the
petition to amend attacks defects in the regulation as originally
promulgated, and when the time limit for seeking review of the
regulation has passed, questions can arise about whether the
time limit is being improperly circumvented. In these
circumstances, we have held that the petitioner cannot raise
procedural challenges to the regulation, but can raise
substantive arguments that the regulation is unauthorized by or
conflicts with a statute. See id. at 196–97. But the
circumvention concern does not even arise when the petitioner
raises arguments about changed circumstances or new
information.
Those kinds of arguments—that recent
developments compel the amendment of an older regulation—
are always cognizable through review of the denial of a petition
to amend, though they trigger an “extremely limited” review
on the merits. Id. at 196. Our decision today harmonizes the
judicial-review provisions of the Clean Air Act with this
general background principle.
EPA recognizes the general rule that, under the NLRB
Union line of cases, the denial of a petition to amend a rule is a
reviewable order, which supports both challenges based on
recent developments and substantive challenges to the original
regulation. Nonetheless, EPA urges a different rule where the
applicable judicial-review provision contains a time limit for
seeking review and an exception for grounds arising after the
time limit, as in the Clean Air Act. In those circumstances,
according to EPA, a challenge to the denial of a petition to
amend is untimely—and the denial is thus entirely
unreviewable—unless the after-arising provision is satisfied.
EPA rests this conclusion on National Mining Ass’n v.
Department of Interior, 70 F.3d 1345 (D.C. Cir. 1995), and
American Road & Transportation Builders Ass’n v. EPA, 588

Page 22 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

23
F.3d 1109 (D.C. Cir. 2009) (ARTBA), but neither decision
supports its position.
National Mining involved judicial review under the
Surface Mining Control and Reclamation Act (SMCRA),
which requires petitions for review to be filed “within sixty
days” of the agency action at issue “or after such date if the
petition is based solely on grounds arising after the sixtieth
day.” See 70 F.3d at 1350. In 1986, parties petitioned the
Department of Interior to rescind a 1979 SMCRA regulation
on two grounds. First, the petitioners argued that the rule was
inconsistent with the statute—an argument attacking the
regulation itself and “available” when the regulation was
originally promulgated. See id. After the agency declined to
rescind the rule, the challengers sought judicial review. We
held that the after-arising provision made this first challenge
untimely, by explicitly requiring challenges to a regulation
either to be filed “within the statutory period” or to “meet the
after-arising test.” Id. at 1350–51. At the same time, however,
we held that the petitioners’ second challenge—to the agency’s
1986 decision refusing to “repeal” the regulation based on
changed circumstances—was timely and reviewable. Id. at
1352. To be sure, we described the latter challenge as resting
on “grounds that arose after the sixtieth day.” Id. But we failed
to explain what jurisdictional theory that observation
supported: a challenge to the 1979 regulation rendered timely
by the after-arising exception; or a challenge, in substance as
well as form, to the 1986 refusal to repeal, akin to the challenge
that we held reviewable in NRDC. Instead, we simply
concluded that, under the “limited scope of our review,” the
agency did not “act[] unreasonably in denying the petition for
rulemaking.” Id. at 1352–53. Thus, while National Mining
blessed jurisdiction to review agency refusals to amend
regulations based on changed factual circumstances, it did not

Page 23 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

24
ultimately address what we clarify today—the precise statutory
basis for that jurisdiction.
ARTBA applied the reasoning of National Mining to the
Clean Air Act, which also contains a time limit for judicial
review and an exception for after-arising grounds. ARTBA
involved a 2002 petition to amend 1997 regulations on the
ground that they allowed states “to adopt precisely the kinds of
regulations that the statute forbids.” 588 F.3d at 1110. As in
National Mining, the challenge was thus a substantive attack
on a regulation as originally promulgated. We held that, under
National Mining, EPA’s “denial of a revision-seeking petition
does not allow review of alleged substantive defects in the
original rule even under the deferential standards applicable to
review of such denials, outside the statutory limitations period
running from the rule[’s] original promulgation.” Id. at 1113
(emphasis added). In other words, National Mining “require[d]
us to treat ARTBA’s petition to EPA as a challenge to the
regulations it sought revised.” Id. at 1110. As a result,
dismissal was necessary unless the petition satisfied the
exception for after-arising grounds, which it did not. See id.
Neither decision controls here, where the 2017 and 2018
petitions for review challenge not the point of obligation
regulation as originally promulgated in 2010, but the failure to
amend the regulation in light of changed circumstances flagged
by EPA in 2015. EPA rejected that argument in 2017, and the
petitioners sought review of the rejection within sixty days. In
substance as well as form, the challenge was to the 2017 refusal
to amend, not to the underlying 2010 regulation. Under these
circumstances, there was no risk of circumventing the original
time limit. Therefore, there was also no reason to treat the 2010
promulgation and the 2017 refusal to amend as one-and-thesame agency action, despite binding APA definitions treating
them as separate.

Page 24 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

25
Precedent aside, EPA’s proposed approach—making the
after-arising provision the exclusive vehicle for challenging
refusals to amend regulations based on new information or
changed circumstances—creates various difficulties. For one
thing, there is a conceptual mismatch between that provision
and these kinds of challenges. Though the after-arising
exception and the opportunity to seek rule revision based on
post-rulemaking events may seem similar, the first allows an
intervening event to secure judicial review on the basis of
defects extant at the time of the rulemaking, whereas the
second allows review on the question whether intervening
events have fatally undermined the original justification for the
rule. The arrow of time runs forward, not backward, so it is at
best awkward—and at worst incoherent—to speak of a later
development rendering unlawful an earlier promulgation.
Economic developments in 2015 may have made it arbitrary
for EPA to adhere to the point of obligation rule in 2017, but
they cannot have retroactively made arbitrary its promulgation
in 2010.
Even worse, the Clean Air Act’s after-arising provision, if
used to judge the timeliness of challenges based on new
information, would be difficult to apply, capriciously narrow,
or both. To satisfy that provision, a petition for review must be
both (i) based “solely” on after-arising grounds and (ii) filed
“within sixty days after such grounds arise.” 42 U.S.C.
§ 7607(b)(1). Yet the case for changing an environmental
regulation will almost never manifest itself at one discrete
moment. Instead, it will accumulate progressively over time,
as scientific knowledge advances or economic conditions
change. And so, under EPA’s approach, the relevant filing
deadlines would become practically unknowable. When did
some environmental risk become serious and obvious enough
to compel a rulemaking to strengthen an existing regulation?
That will usually be a hard question, and it would be little short

Page 25 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

26
of miraculous if the answer turned out to be on a date certain
within sixty days of the filing of a petition for review, as
required to satisfy the after-arising provision.
In contrast, the approach we have sketched out produces
simple questions and discernible deadlines: ask when EPA
denied the rulemaking petition, then add sixty days. If
possible, we should avoid trying to fix arbitrarily precise
accrual dates for events that develop incrementally over time.
See Nat’l R.R. Passenger Corp. v. Morgan, 536 U.S. 101, 115–
21 (2002). And we should avoid jurisdictional tests that are
complex as opposed to straightforward. See, e.g., Hertz Corp.
v. Friend, 559 U.S. 77, 94 (2010). Treating the denial of a
petition to amend a rule based on changed circumstances as
reviewable agency action honors both principles, while
attempting to shoehorn such denials into the after-arising
provision does the opposite.
We acknowledge that, in Oljato Chapter of Navajo Tribe
v. Train, 515 F.2d 654 (D.C. Cir. 1975), we assumed that the
after-arising provision would govern review of orders denying
petitions to modify EPA rules based on changed circumstances.
But our only holdings were that such petitions must first be
presented to EPA, id. at 666, and then are reviewable directly
in the courts of appeals, id. at 657–65. Moreover, our
assumption was understandable in context; the petitioners had
missed the statutory deadline to file a petition for review (then
thirty days), see id. at 657, so they pressed alternative
jurisdictional theories (involving either district-court review or
the after-arising provision) that would avoid that deadline.
Furthermore, we expressly reserved the precise bounds of what
constituted a petition based solely on after-arising grounds. See
id. at 666–68. Finally, we stressed that review should generally
be available “when new information casts doubt upon the
validity of a [regulatory] standard.” Id. at 665. At the time, the

Page 26 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

27
after-arising provision contained no separate deadline
requiring a petition for review to be filed within sixty days of
the after-arising ground. See id. at 657 n.3. So the difference
between “direct review” of a regulation through the afterarising provision and review of a “refusal to revise” the
regulation appeared largely semantic. See id. at 666. But, two
years after Oljato was decided, Congress amended section
7607(b)(1) to include the separate filing deadline, see Pub. L.
No. 95-95 § 305(c)(3), 91 Stat. 685, 776 (1977), which, as
explained above, made the after-arising provision a singularly
poor vehicle for securing the review that Oljato assumed would
be readily available.
After Oljato, we held in Group Against Smog & Pollution
v. EPA, 665 F.2d 1284 (D.C. Cir. 1981), that the failure to
challenge a 1974 regulation within the original sixty-day
deadline did not bar “judicial review of the agency’s
subsequent refusal to revise the standard on the basis of new
information.” Id. at 1291. Quoting liberally from Oljato, we
suggested that such review would proceed through the afterarising provision. Id. at 1289. But we permitted review even
though the after-arising provision, as amended, could not have
applied. The case involved comments filed with EPA in April
1977, which we treated as a petition for a rulemaking. Id. at
1290 & n.47. On April 13, 1978, EPA declined to amend the
rule as requested. Id. at 1288. The ensuing petition for review
was filed on June 12, 1978—more than a year after the
technological changes discussed in the comments, but precisely
sixty days after the refusal to amend. See id. Because the
petition for review was not filed within sixty days of the
asserted after-arising grounds, the after-arising provision
plainly did not apply. So, review must have rested on the
theory that the refusal to amend was itself a reviewable action
triggering its own sixty-day filing window.

Page 27 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

28
The approach we follow here—treating denials of
rulemakings based on new facts as independently reviewable
decisions—does not reduce the after-arising provision to
surplusage. Our cases have recognized other circumstances
triggering the after-arising provision, including judicial
decisions that significantly “changed the legal landscape”
faced by petitioners, Honeywell Int’l, Inc. v. EPA, 705 F.3d
470, 473 (D.C. Cir. 2013), and “the occurrence of an event that
ripens a claim,” Coalition for Responsible Regulation v. EPA,
684 F.3d 102, 129 (D.C. Cir. 2012) (per curiam). In cases like
these—where, for example, an intervening statute, regulation,
or judicial decision extends old regulations to new parties—the
after-arising ground is easily dated, the relevant filing
deadlines are clear, and so the provision functions predictably.
Moreover, where the after-arising provision does apply, it
permits the petitioner to contend not only that changed
circumstances warrant amending an existing regulation but
also that the regulation was unlawful as originally
promulgated. See, e.g., Honeywell, 705 F.3d at 473.
For these reasons, we conclude that we have jurisdiction
to consider the petitioners’ argument that EPA arbitrarily
refused to amend the point of obligation rule based on the
changed circumstances cited by the petitioners.
2.

After-Arising Grounds Under Section 7607(b)(1)

The February 2016 petitions for review, filed before EPA
resolved any of the rulemaking petitions, rested on the
alternative jurisdictional theory that EPA’s publication of the
2014–16 volume requirements constituted an after-arising
ground within the meaning of section 7607(b)(1). Our
conclusion above does not moot this question, because if this
alternative theory were valid, then the petitioners could directly
attack the point of obligation rule as originally promulgated.

Page 28 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

29
Nonetheless, the petitioners have abandoned this theory of
jurisdiction. In their merits briefs, they never actually attack
the 2010 rule as originally promulgated; instead, they challenge
only the 2017 denial of their rulemaking petitions. Moreover,
in requesting relief, they do not ask us to set aside the 2010
rule, but only to “vacate the [2017] Denial[] and remand to
EPA” for a rulemaking to change the point of obligation rule
going forward. Alon Br. 58. And at oral argument, they
disclaimed any challenge to the 2010 rule itself and confirmed
that their only challenge was to EPA’s 2017 refusal to revise
the point of obligation rule. See Rec. of Oral Argument at
2:18:50–2:19:15.
3.

Mandatory Reconsideration Under Section
7607(d)(7)(B)

Finally, the petitioners assert jurisdiction under section
7607(d)(7)(B), on the ground that EPA erroneously denied
petitions for mandatory reconsideration of the point of
obligation rule. To review, section 7607(d)(7)(B) provides in
relevant part that only objections “raised . . . during the period
for public comment” may be “raised during judicial review.”
But if the objector “can demonstrate to the Administrator that
it was impracticable to raise such objection within such time or
if the grounds for such objection arose after the period for
public comment (but within the time specified for judicial
review) and if such objection is of central relevance to the
outcome of the rule,” then EPA must “convene a proceeding
for reconsideration of the rule,” and any refusal to do so is
judicially reviewable. Here, the petitioners assert that the
ground for their objections—EPA’s statements and actions in
its 2014–16 volume regulation—arose “after the period for
public comment” on the 2010 point of obligation rule, and that

Page 29 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

30
the objections are “of central relevance to the outcome of the
rule.”
The petitioners misapprehend the statutory text and
structure.
Section 7607(d)(7)(B) does not extend the
jurisdictional deadline to seek judicial review imposed in
section 7607(b)(1); instead, it specifies a non-jurisdictional
exhaustion requirement. See EPA v. EME Homer City
Generation, L.P., 572 U.S. 489, 512 (2014). Its first sentence
generally requires parties to raise objections “during the period
for public comment” in order to later present them in court. Its
second sentence allows a narrow exception when a centrally
important objection cannot feasibly be raised during the
comment period—either because “the grounds for such
objection arose after the period for public comment,” or
because commenting was otherwise “impracticable.” If an
objection fits within this exception, the consequences are
weighty: EPA must grant reconsideration and conduct a new,
full-dress, notice-and-comment rulemaking. And if EPA
denies reconsideration, the objector may seek judicial review.
This “limited exception” to the normal exhaustion
deadline, Util. Air Regulatory Grp. v. EPA, 744 F.3d 741, 746
(D.C. Cir. 2014), does not come with a free pass from the
subsequent deadline to seek judicial review. To the contrary,
the second sentence of section 7607(d)(7)(B) covers only
objections that arise after the close of the comment period, yet
within the time specified for judicial review. As noted above,
that time for judicial review—sixty days from the promulgation
of the final rule—is specified in section 7607(b)(1). Section
7607(d)(7)(B) does not enlarge that filing period, but merely
fills a narrow gap within it: allowing orderly exhaustion of
important objections that “first became known to the petitioner
after the comment period ended, but before the period for
petitioning for review expired.” Am. Petroleum Inst. v. Costle,

Page 30 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

31
665 F.2d 1176, 1192 (D.C. Cir. 1981). We recognize that, as a
textual matter, the statutory phrase “but within the time
specified for review” qualifies the requirement that the grounds
must have arisen “after the period for public comment,” but not
the alternative requirement that “it was impracticable” to raise
the objection “during the period for public comment.”
However, the petitioners do not invoke the impracticability
prong of section 7607(d)(7)(B). Moreover, we have construed
that prong to cover instances when the final rule was not a
logical outgrowth of the proposed rule, Clean Air Council v.
Pruitt, 862 F.3d 1, 10 (D.C. Cir. 2017) (per curiam), which
likewise involve problems during the period for public
comment on or petitioning for review of the regulation itself—
not problems that arise when circumstances change years or
decades later.
The petitioners argued in briefing that the “time specified
for judicial review” referenced in section 7607(d)(7)(B)
encompasses not only the initial sixty-day window after a
rule’s promulgation, but also the secondary sixty-day limit
from after-arising grounds in the fourth sentence of section
7607(b)(1). But as noted above, the petitioners abandoned at
oral argument any reliance on the latter after-arising provision.
Moreover, their theory would transform what we have
described as a “limited” gap-filling provision, Util. Air
Regulatory Grp., 744 F.3d at 746, into a perpetually looming
threat of mandatory notice-and-comment reconsideration.
Tellingly, the petitioners can cite no case employing section
7607(d)(7)(B)’s mandatory reconsideration procedure for
objections that arose after the close of the initial window for
judicial review. Their interpretation would “make a mockery
of Congress’[s] careful effort to force potential litigants to
bring challenges to a rule issued under this statute at the

Page 31 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

32
outset.” Am. Rd. & Transp. Builders Ass’n v. EPA, 705 F.3d
453, 458 (D.C. Cir. 2013) (quotation marks omitted).
Because the petitioners’ objections to the point of
obligation rule did not arise within the initial window for
judicial review of the 2010 point of obligation rule, but only
some five years later, EPA properly denied mandatory
reconsideration.
B. Merits of Challenges to EPA’s Refusal to Revise the
2010 Point of Obligation Rule
The Alon Petitioners offer an array of arguments to
challenge the denial. None, however, is persuasive.
We are reviewing EPA’s denial of a petition for
rulemaking to amend the agency’s point of obligation rule. See
supra Part IV.A.1. Accordingly, our review is “‘extremely
limited’ and ‘highly deferential.’” New York v. EPA, 921 F.3d
257, 261 (D.C. Cir. 2019) (quoting Massachusetts, 549 U.S. at
527–28). “To set aside the agency’s judgment, [we] must
conclude that EPA had not ‘adequately explained the facts and
policy concerns relied on’ or that those facts did not ‘have some
basis in the record.’” Id. (quoting WildEarth Guardians v.
EPA, 751 F.3d 649, 653 (D.C. Cir. 2014)). We have no basis
for such a conclusion. In denying the petition for rulemaking,
EPA considered the “information currently before” it and
determined “that the point of obligation is appropriately
placed,” wrestling with the petitioners’ claims to the contrary.
EPA Denial at 8, Alon J.A. 62. As is evident from our
discussion below, EPA did so with enough thoroughness and
reasonableness to satisfy our limited, deferential review.
We start with EPA’s reasoning, which petitioners say is
arbitrary and capricious. See 42 U.S.C. § 7607(d)(9)(A).

Page 32 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

33
At the root of petitioners’ claim is a single premise: that
the current point of obligation misaligns incentives by
requiring those who refine fossil fuel, but not those who blend
it, to meet the RFS program’s annual standards. In petitioners’
view, this misalignment forces refiners to purchase RINs to
satisfy their RFS obligations, jacking up their costs, while
giving windfall profits to blenders, who produce (but don’t
consume) RINs. From this cycle of “RINsanity,” petitioners
say, flow harms galore. Alon Reply Br. 25. Higher RIN prices
not only threaten the financial viability of refiners (putting our
economy and energy security in jeopardy), see, e.g., Alon Br.
46, but they incentivize RIN hoarding, which feeds market
volatility, and gives some market participants an unfair leg up,
see, e.g., id. at 40.
The problem with this argument, however, is that EPA
reasonably explained why, in its view, there is no misalignment
in the RFS program. According to EPA, refiners “recover the
cost of the RINs they purchase” by passing that cost along in
the form of “higher prices for the petroleum based fuels they
produce.” EPA Denial at 25, Alon J.A. 79. It grounded that
conclusion in studies and data in the record. EPA and the
authors of the pertinent studies took advantage of the fact that
there are pairs of petroleum products in which one variant is
subject to the RIN obligation (such variants being awkwardly
called “obligated fuels”), whereas its not-quite-identical twin is
not. For example, gasoline and diesel sold for use in the United
States are “obligated,” whereas the same fuels sold for export
are not. EPA Denial at 23, Alon J.A. 77. The same goes for
domestic diesel fuel, which is “obligated,” and jet fuel, which
is not. Christopher R. Knittel et al., The Pass-Through of RIN
Prices to Wholesale and Retail Fuels Under the Renewable
Fuel Standard 4 (July 2015) (Knittel), Alon J.A. 534.
Comparing these pairs, the agency found that as RIN prices
increased, a gap “open[ed] up between” the price for obligated

Page 33 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

34
and unobligated fuels, a gap rather precisely matching the
contemporaneous increase in RIN price—a strong indication
that refiners were “recoup[ing] the costs associated with RIN
prices.” EPA Denial at 23, Alon J.A. 77.
Further confirming the price relationship, Professor
Knittel and his colleagues found that 73% of a change in RIN
price was passed through in the form of higher petroleum prices
in the same day, 98% within two business days. Knittel 26,
Alon J.A. 536.
Reviewing the findings, EPA (accurately) reported that the
papers by Knittel and his colleagues, and by Argus Consulting
Services, “concluded that the RIN cost was generally included
in the sale prices of obligated fuels.” EPA Denial at 25, Alon
J.A. 79; see Knittel 26, Alon J.A. 536; Argus Consulting
Services, Do Obligated Parties Include RINs Costs in Product
Prices? 15 (Feb. 2017), Alon J.A. 564 (“There are very specific
correlating price data for diesel that indicate that refiners . . .
pass along the RINs cost . . . .”).
A similar analysis, EPA concluded, reveals that just as
(obligated) refiners do not pay excess costs, neither do blenders
(who are not obligated under the program) nor integrated
refiners (who perform their own in-house blending) reap
windfall profits. True, both earn RINs, without purchasing
them on the open market, by blending renewable fuel into
petroleum blendstock. And true, as well, both can sell those
RINs, enjoying whatever revenues market conditions and their
own efficiencies permit. But as EPA quite accurately
explained, this is only half the equation. In a competitive
market there’s no such thing as a free lunch, and blenders and
integrated refiners pay their tab just as others do; they just do
so indirectly. To offer finished fuel without attached RINs at a
competitive price, these entities must discount their blended

Page 34 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

35
fuel by roughly the value of the RINs that they detached and
kept for themselves. EPA Denial at 29, Alon J.A. 83. In other
words, they “sell the finished transportation fuel at a loss,” but
“maintain[] profitability through RIN sales.” Id. at 27–28, 29,
Alon J.A. 81–82, 83.
To be sure, in response to EPA’s proposed denial,
commenters criticized the studies relied on by the agency.
They contended, for example, that Professor Knittel and his
colleagues erred by removing certain spreads from the analysis,
by including others, and by pooling the results of various
comparisons. See EPA Denial at 25, Alon J.A. 79. But
petitioners have not raised these arguments here, and for that
reason we do not consider them. While petitioners do complain
that EPA relied on a “preliminary” analysis, see Alon Br. 54;
Alon Reply Br. 23, that objection—whatever its persuasive
force—says nothing about the other studies in the record (for
example, by Professor Knittel et al.).
Petitioners try, instead, to trace various refiner problems to
EPA’s refusal to obligate blenders. They suggest that the
alleged misplacement of the point of obligation causes
bankruptcies, see, e.g., Alon Br. 3, 47, and inflicts economic
hardship on small refineries, see, e.g., id. at 49, especially in
the form of inflicting wildly disproportionate RIN acquisition
costs on them, see, e.g., Alon Reply Br. 26. But some of these
events occurred after EPA issued its denial, see, e.g., Alon Br.
49 (“following the Denial”); Alon Reply Br. 26 (“just after the
Denial”), and are therefore not properly before us, see
Environmental Defense Fund, Inc. v. Costle, 657 F.2d 275, 284
(D.C. Cir. 1981). More importantly, the claims presuppose that
refiners cannot recover their RIN costs and that blenders reap
windfall profits—suppositions that, as discussed above, EPA
reasonably rejected.

Page 35 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

36
Petitioners respond by plucking snippets from the denial,
stringing them together with contrasting (bolded) conjunctions,
and asserting that EPA’s “discussion of RIN prices” is
“irreconcilably inconsistent.” Alon Br. 53. But we find no
inconsistency on EPA’s part.
Take one of petitioners’ examples:
. . . RIN prices had no “significant impact on retail
gasoline (E10) prices,” JA75;
although “RINs . . . provide a price signal to
consumers to help achieve . . . greater renewable fuel
production and use,” JA75.
Alon Br. 53 (second and third alterations in original) (quoting
EPA Denial at 21, Alon J.A. 75). At first blush, the two
comments, located on the very same page, seem inconsistent.
How could RIN prices have no “significant impact” on retail
prices, while, at the same time, provide “a price signal to
consumers”?
They can do so for the simple reason that the remarks refer
to different things, a detail omitted from petitioners’ brief. This
becomes apparent when the passage from which petitioners
plucked their quotes (bolded and underscored below) is viewed
in full:
External, non-EPA assessments similarly concluded
that increased RIN prices had not had a significant
impact on retail gasoline (E10) prices. When RIN
prices rise, the market price of the petroleum
blendstocks produced by refineries also rise to cover
the increased RIN costs, in much the same way as they
would rise in response to higher crude oil prices. The
effective price of renewable fuels (the price of the

Page 36 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

37
renewable fuel with attached RIN minus the RIN
price), however, decreases as RIN prices increase.
When renewable fuels are blended into petroleum
fuels these two price impacts generally offset one
another for fuel blends such as E10 with a renewable
content approximately equal to the required
renewable fuel percentage standard. Higher RIN
prices also generally result in higher prices for fuels
with lower renewable content (such as E0 or
petroleum diesel) and lower prices for fuels with
higher renewable content (such as E85 or B20). The
cost of the RIN therefore serves as a cross-subsidy,
reducing the price of renewable fuels and increasing
the price of petroleum based fuels in transportation
fuel blends, thus incentivizing increased blending of
renewable fuels into the transportation fuel pool. In
this way the RINs also help provide a price signal to
consumers to help achieve the Congressional goals
of greater renewable fuel production and use.
Fuels with higher renewable content are relatively
cheaper to consumers than they would be absent high
RIN prices, while fuels with lower renewable content
are relatively more expensive when RIN prices are
high.
EPA Denial at 20–21, Alon J.A. 74–75.
As we can see, the first statement (no significant price
impact) is referring to the price of E10—a blend of 90%
gasoline, 10% ethanol. As EPA explained, RINs work as a
“cross-subsidy,” effectively taxing the use of petroleum-based
fuels (e.g., gasoline) and subsidizing the use of renewables
(e.g., ethanol) in making a blended transportation fuel like E10.
EPA Denial at 21, Alon J.A. 75.

Page 37 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

38
Before we dig in further, let’s take a step back. We must
first recognize that EPA assumes that we are talking of a market
where the RFS program, in effect, mandates minimum levels
of renewables in marketed fuels, a mandate that necessarily
impacts fuel prices. EPA is not making a claim that the
mandatory inclusion of renewables in transportation fuel
renders a gallon of gasoline lawfully purchased at the pump
cheaper than it would have been absent the RFS program.
To see what this means, start on the subsidy side: Suppose
a blender can realize $2.25 on a gallon of ethanol with an
attached RIN. If the blender can detach and sell that RIN for
$0.05, then the net ethanol value is only $2.20—a $0.05
savings that in a competitive market should pass through to
consumers. Now take the tax side: Because refiners must
purchase RINs to satisfy the RFS obligations that arise from
selling gasoline to blenders, a blender’s value for a gallon of
gasoline may rise, due to the RFS program, from, say, $2.75 to
$2.76. See Dallas Burkholder, Office of Transportation & Air
Quality, EPA, A Preliminary Assessment of RIN Market
Dynamics, RIN Prices, and Their Effects 17, EPA-HQ-OAR2016-0544-0009 (May 14, 2015), Alon J.A. 337. As a result
of both price impacts, EPA described, blended fuels with a
higher percentage of renewable content (e.g., 85% ethanol) will
be cheaper than they would have been (absent the program),
whereas fuels with a lower percentage of renewable content
(e.g., pure gasoline) will be more costly than they would have
been (absent the program). EPA Denial at 21, Alon J.A. 75.
For E10, the “two price impacts generally offset one another,”
so (back to the first statement) any change in RIN price
generally has no “significant impact on” the E10 price. Id.
But that’s just E10. There is an effect (of differing
magnitude) on, say, E85 or E0. And that is where the second
statement (“provide a price signal”) comes in: the signal arises

Page 38 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

39
from a comparison of relative prices across the spectrum of
transportation fuels. Again, as EPA explains, “[f]uels with
higher renewable content are relatively cheaper to consumers
than they would be absent high RIN prices, while fuels with
lower renewable content are relatively more expensive when
RIN prices are high.” Id. The two statements are consistent.
Continuing the search for inconsistency, petitioners direct
our attention to “EPA’s past pronouncements.” Alon Br. 50.
In them, they see an irrational “about-face”—with EPA saying,
at first, that “low RIN prices [were] a sign that the [RFS
program] was working,” but claiming, now, “that high RIN
prices are . . . desirable.” Id. at 51–52. Again, that’s not quite
right. All EPA originally said was that when it first adopted
the point of obligation, it did so based, in part, on its
“expectation at that time that there would be an excess of RINs
at low cost.” Regulation of Fuels and Fuel Additives: Changes
to Renewable Fuel Standard Program, 74 Fed. Reg. 24,904,
24,963/2 (May 26, 2009) (proposed rule); see also Alon Br. 50
(citing EPA Denial at 13, Alon J.A. 67 (citing, in turn, 74 Fed.
Reg. at 24,963)). EPA did not suggest that low RIN prices were
a sign of market health—nor that high prices were a cause for
alarm.
In any case, EPA addressed petitioners’ concern over high
RIN prices head on; the agency explicitly determined, on the
current record, that “higher RIN prices” are not “indicative of
a dysfunctional RIN market.” EPA Denial at 19, Alon J.A. 73.
Rather, EPA explained, these prices accurately reflect the
increasing cost associated with “getting ever-greater volumes
of renewable fuel into the transportation fuel pool—the explicit
goal [of] the RFS program.” Id. Put more bluntly, the increases
in RIN prices are a completely understandable effect of the
program’s ever-increasing pressure to expand renewable
volumes. Pushing out along the supply curve takes the raw

Page 39 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

40
market price of the RIN-eligible fuel steadily into higher
realms—except to the extent that production innovations or
economies may tend to lower costs. So far as appears, it has
nothing to do with EPA’s allocation of the obligation.
What about EPA’s concern, petitioners ask, that including
blenders in the point of obligation would expand the number of
obligated parties and, as a result, ratchet up the program’s
complexity? Isn’t that hard to square with EPA’s claim, made
years earlier, that “essentially all downstream blenders . . . are
[already] regulated parties”? Alon Br. 42 (quoting 75 Fed.
Reg. at 14,722/2). Again, not at all. Although the participation
of all (or nearly all) blenders in the RIN market subjects them
to RFS registration, recordkeeping, and reporting
requirements, “the majority of these downstream [regulated]
parties are . . . currently not obligated parties.” EPA Denial at
69, Alon J.A. 123 (emphasis added). As EPA explained, there
“is a significant distinction between being a ‘regulated party’
and being an ‘obligated party.’” Id. “Obligated parties must
meet all of [the requirements faced by regulated parties] and
also calculate an annual renewable volume obligation, acquire
the appropriate number of RINs in the market, practic[e] due
diligence to ensure [the RINs’] validity, file annual compliance
reports demonstrating compliance, and maintain records to that
effect.” Id. at 69 n.205, Alon J.A. 123 (emphasis added); see,
e.g., 40 C.F.R. §§ 80.1427(a), 80.1450(a), 80.1451(a),
80.1454(a). It was not unreasonable for EPA to conclude that
imposing these burdens on additional entities would add to the
program’s complexity (and therefore be undesirable absent an
adequate offsetting benefit).
Nor was it unreasonable to find that going down this
route—overhauling a foundational element of the program—
would create “uncertainty in the fuels marketplace.” EPA
Denial at 2, Alon J.A. 56. As EPA said, “all parties regulated

Page 40 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

41
in the RFS program have made significant investments and
decisions about their participation in the program and their
position in the market on the basis of the existing regulations,
including the definition of obligated parties.” EPA Denial at
79, Alon J.A. 133. In these circumstances, it isn’t hard to
imagine how changing course could throw players off their
game. Of course, as petitioners note, uncertainty may have
“plagued the RFS Program for years.” Alon Br. 37. But true
or not, EPA needn’t pile on; the cure for uncertainty isn’t
spawning more uncertainty.
Taking a step back, petitioners launch a closing broadside
against the entire process. They assert that EPA “disregarded
this Court’s remand” in ACE, 864 F.3d at 737, and arbitrarily
credited some comments over others. Alon Br. 31–32, 55–56.
But the ACE remand required, at most, that the agency “address
the point of obligation issue.” 864 F.3d at 737. And, as
detailed throughout this opinion, the agency has done so
reasonably, analyzing the data and explaining its decision.
Nothing more was required.
* * *
We have considered the Alon Petitioners’ other arguments
and have found them to be either without merit or, in the case
of the argument relying on 42 U.S.C. § 7545(o)(5)(A), see
Alon Br. 34, insufficiently developed, see, e.g., Masias v. EPA,
906 F.3d 1069, 1077 (D.C. Cir. 2018). For the foregoing
reasons, the petitions for review are denied.
V.

2017 Annual Volumetric Rule

We turn now to the Coffeyville Petitioners’ challenges.

Page 41 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

42
A. Point of Obligation
We first consider the Coffeyville Petitioners’ challenge to
EPA’s decision in the 2017 Rule not to reassess which
categories of industry players are “obligated parties” under the
renewable fuel program. As the Coffeyville Petitioners read it,
the statutory provision requiring EPA to set annual renewable
fuel percentage standards also imposes on EPA a
nondiscretionary duty to reconsider—every year—which types
of entities are obligated to demonstrate to EPA compliance
with the percentage standards. See 42 U.S.C. § 7545(o)(3)(B).
They claim EPA shirked that duty when it treated the issue as
beyond the scope of its 2017 annual rulemaking. EPA counters
that it identified the obligated parties in 2007 pursuant to
Congress’s mandate to set “compliance provisions” for the new
renewable fuel program, id. § 7545(o)(2), reaffirmed that
decision in 2010, and that nothing in the mandate to calculate
the annual percentage standards requires it to reconsider the
point of obligation each year. EPA also asserts that it
appropriately addressed the Coffeyville Petitioners’ complaints
that it obligated the wrong parties in a separate proceeding from
its annual volumetric rulemaking.
1. Jurisdiction
EPA and a coalition of Respondent-Intervenors
representing the renewable fuel and refinery industries assert
that we lack jurisdiction because the Coffeyville Petitioners
effectively challenge the compliance rule that has been on the
books for a decade or so, see 40 C.F.R. § 80.1406(a)(1), and
did not petition within 60 days of its publication or within 60
days of any valid “grounds arising” thereafter. See 42 U.S.C.
§ 7607(b)(1); Med. Waste Inst. v. EPA, 645 F.3d 420, 427
(D.C. Cir. 2011). But petitioners are not challenging EPA’s
decision to adopt the rule in 2007 or retain it in 2010. Rather,

Page 42 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

43
they contend that the provision calling on EPA to set annual
volumes of biofuels “applicable to refineries, blenders, and
importers, as appropriate,” requires EPA to reassess each year
whether the point of obligation set when the agency established
the program is still “appropriate,” or if EPA should re-assign it
and restructure the RIN market and other compliance
infrastructure going forward.
See 42 U.S.C.
§ 7545(o)(3)(B)(ii)(I). That challenge was timely filed within
60 days of the promulgation of the annual fuel standards. See
supra Part IV.A.1.
2.

Merits

This dispute turns on the roles of two provisions of the
statute directing the EPA to establish and run a Renewable Fuel
Program, 42 U.S.C. § 7545(o)—paragraphs (2) and (3).
Paragraph (2) directs EPA to “promulgate regulations”
setting up a program to “ensure that transportation fuel sold or
introduced into commerce in the United States . . . contains at
least the applicable volume[s] of renewable fuel,” as specified
in subparagraph (2)(B). Id. § 7545(o)(2)(A)(i). Among the
parameters Congress required EPA to include were
“compliance provisions applicable to refineries, blenders,
distributors, and importers, as appropriate,” to ensure that the
requirements of paragraph (2), including the applicable volume
requirements specified in subparagraph (2)(B), are met. Id.
§ 7545(o)(2)(A)(iii)(I), (B). There is no question that EPA has
authority to set those parameters, including the point of
obligation, and to adjust them if a change is needed.
Paragraph (3), in turn, requires EPA to determine and
publish annual renewable fuel obligations designed to
“ensure[] that” the applicable volumes specified in paragraph
(2) are met. Id. § 7545(o)(3)(B)(i). Those renewable fuel
obligations must:

Page 43 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

44
(I)
(II)
(III)

be applicable to refineries, blenders, and
importers, as appropriate;
be expressed in terms of a volume percentage
of transportation fuel sold or introduced into
commerce in the United States; and
. . . consist of a single applicable percentage
that applies to all categories of persons
specified in subclause (I).

Id. § 7545(o)(3)(B)(ii)(I)–(III).
The parties’ dispute centers on the meaning of “as
appropriate” in subclause (3)(B)(ii)(I). The Coffeyville
Petitioners contend that the phrase unambiguously requires
EPA annually to reconsider which parties it is “appropriate” to
obligate to meet the renewable fuel obligations. EPA responds
that the statute is, at most, ambiguous as to whether Congress
expected EPA annually to revisit the obligated-parties
designation, or whether the agency may generally rely on the
“appropriate[ness]” finding it made pursuant to its paragraph
(2) authority. We begin by asking “whether Congress has
directly spoken to the precise question at issue,” and conclude
that it has not. Chevron, 467 U.S. at 842.
EPA reads “as appropriate” in paragraph (3) to mean that
the agency has “discretion” to decide whether, when, and how
to reassess which of three types of industry actors—refineries,
blenders, and importers—should continue to bear the point of
obligation, as originally designated in the compliance
provisions. See EPA Denial, Coffeyville J.A. 779–80. At oral
argument, the agency conceded that its exercise of this
discretion is reviewable, so that the exclusion of the point of
obligation issue from an annual rulemaking could, under other
circumstances, constitute an abuse of discretion. Rec. of Oral
Arg. 1:22:22–1:24:00; 1:37:45–1:40:11.

Page 44 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

45
The Coffeyville Petitioners object that the phase
“applicable . . . as appropriate” means applicable as
contemporaneously determined to be appropriate in the annual
volumetric rulemakings. Coffeyville Br. 30–33; see also Conc.
Op. 4–5, 7. But paragraph (3) does not specify when or in what
context EPA must make its appropriateness determination, nor
does the phrase “as appropriate” itself specify a particular
temporal dimension—as between, for example, parties
appropriately designated in the past (as EPA interprets it) and
parties now appropriately selected (as Coffeyville insists). The
term “appropriate” “naturally and traditionally includes
consideration of all the relevant factors,” Michigan v. EPA,
135 S. Ct. 2699, 2707 (2015) (quoting White Stallion Energy
Center, LLC v. EPA, 748 F.3d 1222, 1266 (D.C. Cir. 2014)
(Kavanaugh, J., concurring in part and dissenting in part)), but
it does not dictate when that consideration must be made. In
other words, the requirement that the point of obligation be
“appropriate” is at most grounds for assessing whether the
agency adequately explained its policy choices regarding the
appropriateness determination, not for imposing our own gloss
on that broad term as a matter of law. See Kisor v. Wilkie, 139
S. Ct. 2400, 2448–49 (2019) (Kavanaugh, J., concurring in the
judgment) (“[S]ome cases involve regulations that employ
broad and open-ended terms like ‘reasonable,’ ‘appropriate,’
‘feasible,’ or ‘practicable.’ Those kinds of terms afford
agencies broad policy discretion, and courts allow an agency to
reasonably exercise its discretion to choose among the options
allowed by the text of the rule. But that is more State Farm
than Auer” or Chevron (emphasis added)). Here, as explained
below, EPA reasonably exercised its discretion, and explained
its decision, to address the point of obligation issue in a
separate proceeding from its annual volumetric rulemaking.
The fact that paragraphs (2) and (3) both include the phrase
“as appropriate” does not make the Coffeyville Petitioners’ the

Page 45 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

46
only permissible interpretation. Even if, as our colleague
contends, Conc. Op. 7, the two phrases bear the exact same
meaning, but see Coffeyville Br. 30–31 (arguing that
paragraphs (2) and (3) are “worded differently” and have
“different contexts”), paragraph (3) simply does not dictate
when or in what context EPA must make the appropriateness
determination. It is the surrounding context, not the phrases
themselves, that suggests when EPA might make that choice.
Unable to point to any express textual requirement that
EPA annually reconsider the point of obligation, the
Coffeyville Petitioners contend that, had Congress intended to
allow EPA in annual volumetric rulemakings to rest on its
paragraph (2) appropriateness determination, subclause
(3)(B)(ii)(I) could have more simply cross-referenced
paragraph (2). But replacing subclause (3)(B)(ii)(I) with a
simpler cross-reference would not have achieved quite the
same effect. While refineries, blenders, importers, and
distributors may all be subject to compliance provisions under
paragraph (2), paragraph (3)’s applicability provision points to
a more limited universe of potential obligated parties—to
refineries, blenders, and importers, but not distributors. That
supports EPA’s understanding of subclause (3)(B)(ii)(I) as a
cross-reference that also clarifies a limit on EPA’s options in
setting the point of obligation. See 72 Fed. Reg. at 23,923/2
(preamble for compliance rule referencing paragraph (3)’s
applicability provision).
We are unpersuaded by the suggestion that such limitation
was so clear even without subclause (3)(B)(ii)(I) that EPA’s
reading of that applicability provision renders it superfluous.
The suggestion is that, because distributors do not “introduce”
fuel into commerce, they could not be obligated parties in any
event, with or without the applicability provision. Our
colleague posits that blenders—but not distributors—can in
fact “introduce” transportation fuel into commerce by blending

Page 46 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

47
gasoline and diesel fuel with other fuels that have not already
been introduced by someone else. Conc. Op. 11. But that
argument rests on a complicated series of inferences from spare
statutory text, as well as post-enactment regulations that do not
necessarily show what the statute must have meant. For
example, our colleague reasonably infers that the national
“volume[] of transportation fuel,” 42 U.S.C. § 7545(o)(3)(A),
must be counted at the first moment each gallon of fuel enters
commerce, in order to avoid double-counting. But, the statute
nowhere states the point directly. Still less clearly does the
statute state our colleague’s corollary—necessary to the
surplusage argument—that the point of obligation must also be
placed, if at all, at the first moment a gallon of fuel enters
commerce. That corollary is less obvious, because the
statutory link between the point of obligation and entry into
commerce is not ironclad: All parties agree that not every
gallon of transportation fuel must be subject to the point of
obligation upon entry into commerce. The statute plainly
allows EPA to obligate an “appropriate” subset of the three
categories of parties. And obligating blenders would involve
double counting unless the transportation fuel they use to create
blends were not already counted upon its importation or sale to
them. Under the circumstances, it is reasonable to read
subclause (3)(B)(ii)(I) as clarifying what is at best a nonobvious inference that distributors cannot be subjected to the
point of obligation.
So subclause (3)(B)(ii)(I) as EPA reads it is not a
superfluity, but makes clear that EPA may have permissibly
placed the point of obligation on refineries, blenders, and
importers, but not distributors. For the same reason, subclause
(3)(B)(ii)(III), which requires that the annual standards apply
“to all categories of persons specified in subclause (I),” id.
§ 7545(o)(3)(B)(ii)(III), does not contain what our colleague
views as an unnecessary double cross-reference to paragraph

Page 47 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

48
(2), because it, too, is operative in not just cross-referencing,
but also clarifying a limit on the three permissible targets of its
“single applicable percentage.”
The thrust of the Coffeyville Petitioners’ retort—that if
Congress had wanted to confer discretion or provide a limiting
cross-reference to paragraph (2), it would have said so more
plainly—applies with greater force against their own reading.
Had Congress intended EPA to consider on an annual basis
whether to redo the point of obligation designation—a
designation that no-one disputes is a necessary cornerstone of
the paragraph (2) compliance provisions—it knew how to
impose such a requirement. The Clean Air Act’s provisions on
ambient air quality, for instance, require EPA to “complete a
thorough review” of the air quality standards “at five-year
intervals” and “promulgate such new standards as may be
appropriate.”
Id. § 7409(d)(1).
The Act’s provisions
controlling hazardous air pollutants emitted from major and
area sources require EPA to “review, and revise as necessary”
the applicable emission standards “no less often than every 8
years.” Id. § 7412(d)(6). Paragraph (3) of the RFS program,
in contrast, does not tell EPA to “complete a thorough review,”
or “review, and revise as necessary” its point of obligation
decision—or anything even close.
To be sure, EPA’s reading is not ineluctable. We do not
doubt that Congress could have more directly provided that the
renewable fuel obligations do not apply to distributors. See
Conc. Op. 8. But, for the reasons discussed, we are
unconvinced that paragraph (3) plainly requires EPA to
consider adjusting the point of obligation each year. See
Valero Energy Corp. v. EPA, No. 7:17-cv-00004-O, 2017 WL
8780888, at *4 (N.D. Tex. Nov. 28, 2017) (holding that “there
is no clear statutory mandate . . . obligating [EPA] to evaluate
or adjust . . . what entities are ‘appropriate[ly]’ forced to
comply with” the annual renewable fuel obligations

Page 48 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

49
(alterations
in
original)
(quoting
42
U.S.C.
§ 7545(o)(3)(B)(ii)(I))). Accordingly, we conclude that the
meaning of “as appropriate” in paragraph (3) is ambiguous and
turn now to whether EPA’s construction is “based on a
permissible construction of the statute.” Chevron, 467 U.S. at
843.
The difficulty of squaring the Coffeyville Petitioners’
reading of “as appropriate” with the structure and purpose of
the statute convinces us of the reasonableness of EPA’s
interpretation. As a structural matter, the RFS program
contains not only “annual” volumetric determinations, Conc.
Op. 1, but also a slew of compliance provisions that are not
annually re-determined. As a practical matter, the point of
obligation is the foundational “compliance provision” of the
entire renewable fuels program; EPA could not “ensure” that
applicable volumes of renewable fuels are introduced into the
nation’s transportation fuel supply without designating the
parties responsible for carrying the renewable fuel standards
into operation. Id. § 7545(o)(2)(A)(i). To that end, in writing
the compliance provisions, EPA placed the renewable fuel
obligation on the entities at the head of the United States supply
chain for nonrenewable fuels—domestic refiners, and
importers of fuel refined elsewhere. See 72 Fed. Reg. at
23,923–24. After additional consideration, EPA in 2010
adhered to that decision. See 75 Fed. Reg. at 14,721–22
(codified at 40 C.F.R. § 80.1406(a)(1)); see also Monroe
Energy, 750 F.3d at 912. No one challenged EPA’s decision
in 2007 or 2010, and EPA declined to revisit the issue in
response to comments in the 2017 annual rulemaking urging it
to shift the 2017 point of obligation to blenders. See Response
to Comments at 542, Coffeyville J.A. 761.
The focus of the annual rulemakings, in contrast, is to
translate the applicable volumes—as specified in paragraph
(2), or set according to the process there described—into

Page 49 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

50
percentage requirements for each renewable fuel. 42 U.S.C.
§ 7545(o)(3)(B)(ii). It would be strange indeed if Congress
required EPA, as it went about its annual quantitative standardsetting duties, also to rethink a choice so basic to the RFS
program’s architecture. This implausibility is illuminated by
the fact that Congress required EPA to facilitate statutory
compliance through a credit trading program, which of
necessity requires some year-to-year stability.
See id.
§ 7545(o)(5). EPA responded by setting up the RIN system,
with flexibility anchored to a fixed baseline—the point of
obligation. The compliance system is flexible in that RINs may
be retired in compliance demonstrations not only in the
compliance year during which they were generated, but also
throughout the ensuing compliance year, 40 C.F.R.
§ 80.1427(a)(6), and obligated parties may carry over excess
RINs or RIN deficits from year to year, id. § 80.1427(a)(1),
(5)–(6); see Monroe Energy, 750 F.3d at 913.
Annual changes to the point of obligation could cause
“disparities in RIN-holdings,” leaving formerly obligated
parties with “significantly more RINs, including carryover
RINs, than they desire or can use” and newly obligated parties
with “lower balances than they would desire to protect
themselves against shortfalls in RIN availability or RIN price
volatility.” EPA Denial at 78, Coffeyville J.A. 850. “[A]
change to the point of obligation could also cause volatility in
the [RIN] market,” inhibiting the “ability [of] parties that
possess excess carryover RINs to recover the cost of the RINs
they hold by selling them to other parties.” Id. It is not
plausible that Congress meant EPA to consider uprooting the
baseline of the RFS program every year. The real stretch is that
Congress would have imposed such an onerous and potentially
disruptive duty merely by use of the phrase “as appropriate.”
The Coffeyville Petitioners’ reading is not made any more
plausible by highlighting the likelihood that, on annual

Page 50 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

51
consideration of the point of obligation, EPA would only need
to consider recent information, and likely would stay its course.
Even if the point of obligation in fact rarely changed, the mere
“reconsider[ation]” of the framework would “likely cause
delays to the investments necessary to expand the supply of
renewable fuels in the United States.” See EPA Denial at 2,
Coffeyville J.A. 774. EPA reasoned that “fuel[] industry
participants [would] withhold significant investment decisions
until the EPA’s final decision and the fallout from the decision
are known.” Id. at 81–82, Coffeyville J.A. 853–54. Insisting
that the issue be on the regulatory agenda every year would sow
“significant market uncertainty and potential turmoil” into the
RFS program without offsetting benefit. Id.
Furthermore, any requirement that an agency repeatedly
go through a regulatory process on an issue that promises to
draw a regular parade of criticism from interest groups with
ample resources is itself burdensome. See AT&T Corp. v. FCC,
220 F.3d 607, 630–31 (D.C. Cir. 2000). This issue is no
exception. As discussed above, EPA in 2016 and 2017
considered and decided against reopening its point of
obligation rule. In so doing, it received upwards of 18,000
comments and published an exhaustive, 85-page decision. See
EPA Denial at 1–85, Coffeyville J.A. 771–857. “Given the
time pressure associated with its annual standards rulemaking,”
EPA believes it would not be feasible or worthwhile to
undertake such reconsideration annually. Id. at 7 n.10,
Coffeyville J.A. 779. Indeed, as EPA acknowledged at oral
argument, the agency “has been late on [its annual rules]
before,” even “when [it hasn’t] taken up the point of
obligation.” Rec. of Oral Arg. 1:25:44–52. “[A]dd[ing] on
the” duty to reassess the point of obligation annually, EPA tells
us, “would be a significant burden.” Id. at 1:25:55–1:26:05.
Our colleague doubts that EPA’s year-to-year burden would be
appreciable, but we see no ground to question EPA’s judgment

Page 51 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

52
to the contrary. It seems unlikely that Congress wrote the
applicability provision in order to heap that annual duty onto
EPA’s plate. It seems even less likely given the absence of
reason to think that yearly second-guessing of program
fundamentals makes sense, or that, when and if the need for a
program restructuring arises, EPA would fail to act. Indeed,
the statute elsewhere explicitly requires EPA to conduct
“periodic reviews of . . . the feasibility of achieving compliance
with the [applicable volume] requirements.” 42 U.S.C. §
7545(o)(11). That provision has not been briefed, but would
appear to require EPA to reconsider the point of obligation if it
concluded that its placement was obstructing compliance.
Finally, EPA’s approach coheres with basic principles of
administrative law. In general, the choice between various
procedural channels lies within the “informed discretion of the
administrative agency.” SEC v. Chenery Corp., 332 U.S. 194,
203 (1947). That discretion properly includes judgments about
the scope of rulemakings and when to relegate ancillary issues
to separate proceedings: “Agencies, like legislatures, do not
generally resolve massive problems in one fell regulatory
swoop.” Massachusetts, 549 U.S. at 524; see, e.g., Grp.
Against Smog & Pollution, 665 F.2d at 1292 (“. . . EPA cannot
soundly be charged with arbitrariness merely because it chose
a separate rulemaking proceeding as the process for proposing
a revised standard in lieu of an undertaking to do so in the
narrower context of the opacity standard proceedings as
petitioners requested.”). Once the agency has resolved an issue
in a separate proceeding, it may defend against related criticism
by “simply refer[ing]” to the other proceeding, so long as the
“reasoning remains applicable and adequately refutes the
challenge.” Bechtel v. FCC, 10 F.3d 875, 878 (D.C. Cir. 1993).
EPA reasonably reads “as appropriate,” in paragraph (3)(B), to
leave undisturbed these background norms of broad but
reviewable procedural discretion.

Page 52 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

53
Our holding today does not give EPA the limitless and
unreviewable discretion feared by our colleague. As we have
said, EPA’s determination as to whether it is “appropriate” to
reconsider the point of obligation in the context of an annual
volumetric rulemaking is reviewable for abuse of discretion.
EPA did not abuse its discretion in refusing to do so here.
Indeed, it considered whether to change the point of obligation
rule in a separate, contemporaneous proceeding that yielded a
final order that we also have reviewed and found to be
adequately justified. See supra Part IV.B. We do not address
whether it would be an abuse of discretion for EPA to refuse to
reconsider the point of obligation—in an annual volumetric
rulemaking or otherwise—in extreme circumstances akin to
those posited by our colleague’s hypothetical about the
continuing study of an abolished tort. See Conc. Op. 5.
In sum, we hold that EPA permissibly rejected the claim
that paragraph (3) requires the agency annually to reassess the
point of obligation in the renewable fuel program. Because
EPA has no duty to reconsider the appropriateness of its point
of obligation regulation as part of its yearly determination of
volumetric requirements, it was not arbitrary for EPA to treat
comments complaining that it obligated the wrong parties as
appropriately assessed in a separate proceeding, and beyond
the scope of proceedings for the 2017 volumetric rulemaking.
For these reasons, we deny the Coffeyville Petitioners’ petition.
B. Cellulosic Biofuel Projection
The Coffeyville Petitioners lob a variety of challenges at
EPA’s cellulosic biofuel projection for 2017. Many of these
petitioners, however, raised many of the same arguments
before. See ACE, 864 F.3d at 727–29 (addressing challenges
to EPA’s 2014–16 projection). We rejected those arguments
once—and do so again.

Page 53 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

54
First, the Coffeyville Petitioners contend that “EPA’s
[m]ethodology” for projecting cellulosic biofuel production is
invalid because it “[c]hronically [o]verestimates [a]ctual
[p]roduction.” Coffeyville Br. 40. But that argument—that
EPA has “repeatedly . . . overshot the mark,” id. at 41—doesn’t
apply to the methodology EPA actually used here, as we found
in ACE, 864 F.3d at 727–28. As we explained when petitioners
deployed this same argument in challenging the 2014–16
projection, “the majority of EPA’s prior overestimations”
utilized a different methodology—one that we rejected in API,
706 F.3d at 478–81, and that the EPA accordingly abandoned.
ACE, 864 F.3d at 727. The new methodology—the one EPA
used here—has been applied only twice before. At the time
EPA made its final evaluation for 2017, that methodology had
(as detailed in the table below) undershot for 2015 and overshot
for 2016. See Assessment of the Accuracy of Cellulosic
Biofuel Production Projections in 2015 and 2016, EPA-HQOAR-2016-0004-3687, at 1–4 (Dec. 12, 2016), Coffeyville
J.A. 515–18. This is hardly a pattern of chronic overestimation.
RFS
Compliance
Year

EPA
Estimate
(millions of
RINs)

Actual
Production
(millions of
RINs)

EPA
Error **

Record
Citation

Q1
2015

Q3
Q4

2016

[No Data in the Record]

Q2

Q1
Q2
Q3
Q4

35.00

53.36

- 34.4%

J.A. 515

230.00

198.39*

+ 15.9%

J.A.
516–17

Page 54 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

55
* At the time of EPA’s assessment, the agency had actual RIN
production data for only the first nine months of 2016 (123.99 million
gallons). To calculate actual production for the year, EPA extrapolated the
likely RIN generation for the last three months of the year based on the
historical relation (a multiple of 1.8) between the average quarterly
generation in the first three quarters and that of the last quarter, yielding a
figure of 74.39 million RINs for the last quarter. See Coffeyville J.A. 516–
17.
** The EPA error has been calculated as the difference between the
EPA estimate and actual production, divided by the actual production.

Second, the Coffeyville Petitioners claim that EPA failed
to generate a projection “based on” the cellulosic biofuel
estimate provided by the Energy Information Administration
(EIA), as required by statute. 42 U.S.C. § 7545(o)(7)(D)(i).
That is so, they say, because 96% of EPA’s projected volume
was biogas, a type of cellulosic biofuel that EIA did not include
in its estimate. See Coffeyville Br. 43–44. The problem for
petitioners, however, is that this closely parallels an argument
we rejected in ACE: “[W]e do not agree that EPA failed to
generate projections ‘based on’ the [EIA’s] estimates,” even
though those “estimates did not contain figures for [biogas]
production—production that accounts for the vast majority of
cellulosic biofuel” (“around 90 percent”). ACE, 864 F.3d at
724, 729. Here, as there, EPA showed sufficient “respect” for
EIA’s estimates. Id. at 729. When limited to fuels actually
analyzed by EIA, EPA’s estimates were “very similar” to
EIA’s, id.; see 2017 Rule, 81 Fed. Reg. at 89,758/1, a fact that
the Coffeyville Petitioners do not contest.
Congress demanded no more. Nothing in the statute
required EPA to, as the Coffeyville Petitioners insist, “work[]
with the EIA to develop information” about biogas.
Coffeyville Br. 44. “[T]he Administrator of the Energy
Information Administration shall provide . . . an estimate,” 42
U.S.C. § 7545(o)(3)(A), and EPA shall “respect” it, API, 706

Page 55 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

56
F.3d at 478. That’s it. In showing such respect, EPA, of
course, must “understand how EIA derived” its estimate.
Coffeyville Reply Br. 24. But, contrary to the Coffeyville
Petitioners’ contention, EPA did just that. The agency
identified the types of cellulosic biofuels that EIA considered
and then, to test the integrity of its projection, conducted an
apples-to-apples comparison, “limiting the scope of [its]
projection to the companies assessed by EIA.” See 2017 Rule,
81 Fed. Reg. at 89,757–58. Nothing more was required.
Third, the Coffeyville Petitioners object that EPA relied on
“information from the [biogas] industry”—an industry “with a
direct financial interest in the outcome of the rule.” Coffeyville
Br. 45. The Petitioners characterize this as “reliance on
undisclosed information.” Id. But EPA did disclose the
information from the biogas industry—and that the information
came from that industry; it just did so in the aggregate. See
October 2016 Assessment of Cellulosic Biofuel Production
from Biogas (2017), EPA-HQ-OAR-2016-0004-3711, at 2–6
(Dec. 12, 2016), Coffeyville J.A. 536–40. All the agency
withheld was company-specific information, claiming that it
had to withhold such data as confidential business information,
see id. at 7, Coffeyville J.A. 541; see also 40 C.F.R. § 2.211(b),
a claim that petitioners never even attempt to rebut, see Masias
v. EPA, 906 F.3d 1069, 1077 (D.C. Cir. 2018) (“It is not enough
merely to mention a possible argument in the most skeletal
way, leaving the court to do counsel’s work . . . .” (quoting
Schneider v. Kissinger, 412 F.3d 190, 200 n.1 (D.C. Cir.
2005))).
As for the implication of bias, we have previously upheld
EPA’s reliance on “biofuel producers’ own forecasts.” ACE,
864 F.3d at 728; see also API, 706 F.3d at 478 (recognizing
that producers are an “almost inevitable source of
information”). Here, as in ACE, EPA did not “blindly adopt[]

Page 56 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

57
the facilities’ own forecasts”; it “performed its own
investigation.” 864 F.3d at 728; see October 2016 Assessment
of Cellulosic Biofuel Production from Biogas, supra, at 4,
Coffeyville J.A. 538 (“To verify the reasonableness of these
projections, EPA compared the projected volume from each
registered facility to the registered capacity of that facility.”).
Petitioners point to no unreasonable step by EPA in its efforts
to address “the uncertainty and unreliability identified by the
[Coffeyville] Petitioners.” ACE, 864 F.3d at 728.
Fourth, the Coffeyville Petitioners protest EPA’s reliance
on “facilities’ actual production in prior years” as a floor for
projecting future cellulosic biofuel production. Coffeyville Br.
46. This was error, they say, because some companies might
cease production. Perhaps so. But, as we said in ACE,
although unforeseen issues “could prevent a producer from
meeting” its prior year’s production, it was “reasonable” for
EPA to expect, as a general matter, “that a company’s output
would grow year-over-year as the company gained
experience.” 864 F.3d at 728. This seems especially true in an
industry with the government’s wind surging at its back. And
even were EPA’s assumption not true for each company, any
one facility’s shortfall, EPA explained, could be “off-set” by
new facilities coming online or existing facilities exceeding the
high end of their projected production range. See Renewable
Fuel Standard Program—Standards for 2017 and BiomassBased Diesel Volume for 2018: Response to Comments, EPAHQ-OAR-2016-0004-3753, at 444 (Dec. 12, 2016),
Coffeyville J.A. 707. This explanation fulfills EPA’s “duty to
articulate a ‘reasonable and reasonably explained’ approach to
setting the low end of the production ranges.” ACE, 864 F.3d
at 729 (quoting Comtys. for a Better Env’t v. EPA, 748 F.3d
333, 335 (D.C. Cir. 2014)).

Page 57 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

58
Fifth, the Coffeyville Petitioners complain that EPA
should have based its cellulosic biofuel projections on “actual”
prior production. Coffeyville Br. 47. But this backward
looking approach would have, in EPA’s view, “ignore[d] the
potential for facilities . . . to increase their fuel production
rates” and would have been “inappropriately conservative” in
light of the “year-over-year increases” that EPA had observed
“in recent years.” 2017 Rule, 81 Fed. Reg. at 89,761/1. We
cannot say that in rejecting such an approach EPA violated “its
duty to take a ‘neutral aim at accuracy.’” ACE, 864 F.3d at 727
(quoting API, 706 F.3d at 476).
For these reasons, we reject the Coffeyville Petitioners’
challenges to EPA’s cellulosic biofuel projection for 2017. See
ACE, 864 F.3d at 729.
C. Cellulosic Waiver
The Coffeyville Petitioners also challenge EPA’s decision
to use less than all of its discretionary cellulosic waiver
authority to lower the 2017 requirements for advanced biofuel
and total renewable fuel. Having reduced the 2017 cellulosic
biofuel requirement by 5.189 billion gallons, EPA had
authority to reduce the advanced biofuel and total renewable
fuel requirements “by the same or a lesser volume.” 42 U.S.C.
§ 7545(o)(7)(D)(i). To decide by how much to reduce these
statutory requirements, EPA first determines what reduction in
the advanced biofuel requirement will yield a “reasonably
attainable” volume, and it then mechanically applies an
equivalent reduction to the total renewable fuel volume. 2017
Rule, 81 Fed. Reg. at 89,752–53. Petitioners do not directly
challenge this methodology. Instead, they argue that EPA
applied it arbitrarily in deciding to waive only 4.719 billion
gallons of the advanced biofuel volume for 2017, rather than
the maximum available waiver of 5.189 billion gallons. We

Page 58 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

59
again reject some of their arguments as foreclosed by precedent
and others on their own terms.
First, the Coffeyville Petitioners argue that EPA sought to
justify its 2017 advanced biofuel volume in part by making an
impermissible comparison to the statutory volume set by
Congress for 2022. In response to a comment expressing
concerns about utilization of non-cellulosic advanced biofuels
(which could be food-based) and possible adverse effects on
food availability, EPA noted that its “reasonably attainable”
non-cellulosic advanced biofuel volume for 2017
(approximately 4 billion gallons) was “somewhat higher than
the level envisioned in the statute for 2017” (3.5 billion), “but
well below the level of such fuels Congress expected would be
used by 2022” (5 billion). Response to Comments at 214,
Coffeyville J.A. 689. According to petitioners, “by comparing
2017 volumes with 2022 statutory targets, EPA departed from
Congress’s intent.” Coffeyville Br. 50.
However, nothing in the statute forbids EPA from taking
account of future statutory volumes in this way. Although
Congress specified presumptively applicable volumes for
certain years, it also provided waiver authority to depart from
those volumes. Indeed, the discretionary waiver provision
necessarily empowers EPA to depart upward from the statutory
level of non-cellulosic advanced biofuel for a given year:
reducing the advanced biofuel volume by less than the
reduction in cellulosic biofuel, as section 7545(o)(7)(D)(i)
permits, is mathematically equivalent to increasing the volume
of non-cellulosic advanced biofuels, to “partially backfill for
missing cellulosic biofuel.” 2017 Rule, 81 Fed. Reg. at
89,763/1. As we have noted, the cellulosic waiver provision
“grants EPA ‘broad discretion’ to consider a variety of factors”
in exercising this authority to depart from the presumptive
statutory volumes. ACE, 864 F.3d at 733 (quoting Monroe

Page 59 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

60
Energy, 750 F.3d at 915). In this case, while deflecting a
comment about food availability, EPA observed that its noncellulosic advanced biofuel volume for 2017—while higher
than the statutory volume envisioned for that year—was lower
than the presumptive statutory volume for the near future. And
it then reasonably concluded that this “somewhat higher
interim volume reflect[ed] [its] assessment that it is appropriate
to allow non-cellulosic advanced biofuels to partially backfill
for missing cellulosic volumes in light of the associated
[greenhouse gas] and energy security benefits.” Response to
Comments at 214, Coffeyville J.A. 689.
Second, the Coffeyville Petitioners argue that EPA failed
to explain its estimate of reasonably attainable 2017 imports of
sugarcane ethanol, a type of non-cellulosic advanced biofuel.
Sugarcane ethanol imports have varied greatly from year to
year, reaching a high of 681 million gallons in 2006 but falling
to 64 million gallons in 2014 and 89 million gallons in 2015.
See 2017 Rule, 81 Fed. Reg. at 89,764. At the time of the 2017
Rule, EPA expected only 76 million gallons to be imported in
2016, but it nonetheless adhered to its proposed estimate of 200
million gallons for 2017—an estimate originally based on
EPA’s judgment that circumstances in 2017 were “not . . .
significantly different” from circumstances in 2016, for which
EPA had also projected 200 million gallons. Id. at 89,763/3.
EPA acknowledged the “recent low import levels,” but also
cited “the difficulty in precisely identifying the reasons” for the
historical “high variability,” given “uncertainty” as to market
factors including “ongoing growth in gasoline demand in
Brazil, and competing world demand for sugar.” Id. at 89,764–
65. The agency accordingly reaffirmed that 200 million
gallons “reflects a reasonable intermediate point between the
lower levels imported recently and the considerably higher
levels that have been achieved in earlier years.” Id. at 89,765/2.

Page 60 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

61
There is some force to petitioners’ objection to EPA’s
adherence to an estimate well over double the actual imports in
the three preceding years. However, our review is “particularly
deferential in matters implicating predictive judgments.”
Music Choice v. Copyright Royalty Bd., 774 F.3d 1000, 1015
(D.C. Cir. 2014) (quoting Rural Cellular Ass’n v. FCC, 588
F.3d 1095, 1105 (D.C. Cir. 2009)). We accordingly upheld
EPA’s identical 2016 sugarcane ethanol estimate as
“reasonable and reasonably explained” in ACE, 864 F.3d at 736
(quotation marks omitted). In that case, we held that EPA
reasonably “concluded that ‘a somewhat lower level of imports
will occur than the historic average’ of 300 million,” based on
a similar analysis of market factors. Id. (quoting 2014–16
Rule, 80 Fed. Reg. at 77,478/2). Here, we cannot say that one
more year of low imports made it arbitrary for EPA to adhere
to that same projection for 2017.
Third, the Coffeyville Petitioners object to EPA’s analysis
of supply and demand for regular gasoline (E0) and gasoline
with added ethanol (E15 and E85). However, this analysis
played no role in EPA’s exercise of its discretionary cellulosic
waiver authority under section 7545(o)(7)(D)(i). As noted
above, EPA’s exercise of that authority rested entirely on its
determination of reasonably attainable advanced biofuel
volumes. See 2017 Rule, 81 Fed. Reg. at 89,773–74. The
disputed analysis of E0, E15, and E85 supported EPA’s
separate decision not to invoke its “general waiver” authority,
under section 7545(o)(7)(A)(ii), based on “inadequate
domestic supply.” See generally ACE, 864 F.3d at 705–13.
But in their opening brief, petitioners failed to challenge EPA’s
decision not to invoke that separate waiver provision for 2017.
Although their reply brief gestures at this point, “an argument
first made in a reply brief is forfeited.” Bartko v. SEC, 845
F.3d 1217, 1225 n.7 (D.C. Cir. 2017).

Page 61 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

62
Finally, the Coffeyville Petitioners take issue with EPA’s
response to various comments. We have considered these
arguments and find them to be without merit.
For these reasons, we reject the Coffeyville Petitioners’
challenges to EPA’s exercise of its discretionary cellulosic
waiver authority to reduce advanced biofuel and total
renewable fuel volumes for 2017.
VI.

2018 Volume for Biomass-Based Diesel

Since 2012, EPA, acting in coordination with the
Secretaries of Energy and Agriculture, has calculated the
annual applicable volume (also known as the “volume
requirement”) for biomass-based diesel based on a holistic,
backward- and forward-looking consideration of relevant
factors. In particular, it has set the volume requirement “based
on a review of the implementation of the program during
calendar years specified in the tables, and an analysis of” six
statutorily enumerated factors: (1) “the impact of the
production and use of renewable fuels on the environment”; (2)
“the impact of renewable fuels on the energy security of the
United States”; (3) “the expected annual rate of future
commercial production of renewable fuels, including advanced
biofuels in each category (cellulosic biofuel and biomass-based
diesel)”; (4) “the impact of renewable fuels on the
infrastructure of the United States”; (5) “the impact of the use
of renewable fuels on the cost to consumers of transportation
fuel and on the cost to transport goods”; and (6) “the impact of
the use of renewable fuels on other factors, including job
creation, the price and supply of agricultural commodities,
rural economic development, and food prices.” 42 U.S.C.
§ 7545(o)(2)(B)(ii)(I)–(VI).
EPA set the 2018 applicable volume for biomass-based
diesel at 2.1 billion gallons, up from 2.0 billion gallons in 2017,

Page 62 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

63
and 1.1 billion gallons above a statutory minimum that
Congress set to plateau at 1 billion gallons as of 2012. 2017
Rule, 81 Fed. Reg. at 89,798/1; see 42 U.S.C.
§ 7545(o)(2)(B)(i)(IV), (v). NBB had asked EPA to set the
biomass-based diesel volume at 2.5 billion gallons, and now
challenges the volume EPA set as arbitrary and capricious and
contrary to the Clean Air Act.
A. NBB’s Standing
Before considering the merits of NBB’s claims, we must
satisfy ourselves that NBB has standing to assert them.
Respondent-Intervenors, the American Fuel & Petrochemical
Manufacturers and the American Petroleum Institute, contend
that NBB lacks standing because, they say, it has not shown
that the 2017 Rule inflicted a cognizable injury on any of its
members.
NBB has associational standing here for the same reasons
we held it did in National Biodiesel Board v. EPA, 843 F.3d
1010, 1015 (D.C. Cir. 2016) (NBB v. EPA), where EPA’s
actions “incentivize[d] . . . compet[ition] with [NBB’s
members’] domestic production.” Here, too, NBB’s members
“compete with” the other industry players EPA’s rule is
designed to affect. Id. at 1016. Recall that biomass-based
diesel is a nested subset of advanced and total renewable fuels,
such that NBB’s members get (1) a market for compelled
buyers of the specified volume of biomass-based diesel, for
which they are the exclusive suppliers, plus (2) a market for
compelled buyers of advanced and other renewable fuels
alongside a broad array of competing suppliers. See supra at
6–8, 11. The 2017 Rule preamble explains that biomass-based
diesel “compet[es] for research and development dollars with
other types of advanced biofuels,” and that, “[b]y establishing
[the biomass-based diesel] volume requirement[] at [a] level[]

Page 63 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

64
lower than . . . the expected production of [biomass-based
diesel],” EPA was “creating the potential for some competition
between [biomass-based diesel] and other advanced biofuels to
satisfy the advanced biofuel” applicable volume and providing
“incentives for the continued development of” those
competitors’ fuels. 81 Fed. Reg. at 89,797; see also EPA
Coffeyville Br. 24 (“Above 2.1 billion gallons, biomass-based
diesel will have to compete with other types of advanced
biofuel.”). Such competition will likely “temper to some extent
[biomass-based diesel] prices.” Final Statutory Factors
Assessment for the 2018 Biomass Based Diesel (BBD)
Applicable Volume, EPA-HQ-OAR-2016-0004-3708, at 10
(Dec. 12, 2016) (Supplemental Assessment), Coffeyville J.A.
533. That is a cognizable injury to NBB’s members. See NBB
v. EPA, 843 F.3d at 1015–16; see also Delta Constr. Co. v.
EPA, 783 F.3d 1291, 1299 (D.C. Cir. 2015) (per curiam).
Though NBB failed to identify any of its members—
ordinarily a prerequisite for organizations alleging
associational standing, see Summers v. Earth Island Inst., 555
U.S. 488, 497–98 (2009)—that omission is not fatal here
because NBB’s members comprise “the entire biomass-based
diesel category of the Renewable Fuel Standard[s]” and
represent no other interests. Coffeyville J.A. 134. Consistent
with “the real purpose of the [standing] inquiry—that is, for the
court to be satisfied that the requisite injury really has occurred
or will occur in the future to members of the organization[],”
Pub. Citizen v. FTC, 869 F.2d 1541, 1552 (D.C. Cir. 1989),
there is no need to identify injured members when “all the
members of the organization are affected by the challenged
activity,” Summers, 555 U.S. at 499 (citing NAACP v. Ala. ex
rel. Patterson, 357 U.S. 449, 459 (1958)). Because EPA’s rule
subjects the biomass-based diesel industry to increased
competition, with anticipated pricing effects, NBB “meet[s] the

Page 64 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

65
constitutional prerequisites of injury, causation,
redressability.” NBB v. EPA, 843 F.3d at 1015.

and

B. Merits of NBB’s Challenges
NBB advances two challenges to the applicable volume
EPA set for biomass-based diesel: First, that EPA erred in
considering the interaction of biomass-based diesel with the
yet-to-be established 2018 advanced biofuel applicable
volume, and second, that EPA’s consideration of the six
statutory factors was arbitrary and capricious and contrary to
law. We reject both claims.
First, EPA reasonably chose a 2018 biomass-based diesel
applicable volume that would “maintain[] support for growth
in [biomass-based diesel] volumes” while also encouraging the
“development of other advanced biofuels.” 2017 Rule, 81 Fed.
Reg. at 89,798/1. Congress directed EPA to consider the
lessons learned from its retrospective “review” of the program,
apply them in its prospective “analysis of” the six statutory
factors, and set a biomass-based diesel volume that will apply
fourteen months in the future.
See 42 U.S.C.
§ 7545(o)(2)(B)(ii).
EPA’s approach is consistent with the structure and
purposes of the statute. Congress set a minimum applicable
volume for biomass-based diesel of one billion gallons for each
year from 2012 forward, id. § 7545(o)(2)(B)(i)(IV), (v), while
specifying statutory minimum volumes for the advanced
biofuel category containing biomass-based diesel that grow
year by year to 21 billion gallons by 2022, id.
§ 7545(o)(2)(B)(i)(II), (iii). EPA reasonably concluded that,
by nesting biomass-based diesel together with cellulosic (and
other unspecified) biofuels within the advanced biofuel
category, and specifically charting a higher, steeper, and longer
initial growth curve for advanced biofuel, Congress anticipated

Page 65 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

66
that production of other types of advanced biofuels could step
up to help meet the advanced biofuel volume requirement. See
2017 Rule, 81 Fed. Reg. at 89,797/1. EPA also reasonably
concluded that increasing fuel diversity serves one of
Congress’s primary goals in establishing the Renewable Fuel
Standards program:
improving the nation’s “energy
independence and security.” See Pub. L. No. 110-140,
preamble; see also 2017 Rule, 81 Fed. Reg. at 89,798/3. EPA
also reasonably anticipated that enhanced competition in the
advanced biofuels market would help “temper to some extent
[biomass-based diesel] prices,” Supplemental Assessment 10,
Coffeyville J.A. 533, thereby ameliorating Congress’s concern
that, with a too-high target volume, the “price of biomass-based
diesel fuel” would “increase significantly,” 42 U.S.C.
§ 7545(o)(7)(E)(ii).
And fuel diversity may produce
environmental benefits insofar as certain advanced biofuels,
such as ethanol from food waste, will “likely have significantly
lower impacts on wetlands, ecosystems, and wildlife habitats”
than would greater reliance on biomass-based diesel.
Supplemental Assessment 6, Coffeyville J.A. 529.
NBB’s arguments to the contrary turn on reading the
statutory directive that EPA “review . . . the implementation of
the program during calendar years specified in the tables,” id.
§ 7545(o)(2)(B)(ii), to confine EPA’s consideration to
biomass-based diesel’s statutory volumes and actual
performance, and to prevent EPA from considering other fuel
categories or future years. In particular, NBB takes issue with
EPA’s consideration of the not-yet-finalized 2018 advanced
biofuel applicable volume, which NBB contends led EPA to
set the biomass-based diesel volume too low.
NBB’s objections are not supported by the text or purpose
of the statute. Assuming NBB is right that EPA’s “review of
the implementation of the program” consists of a retrospective

Page 66 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

67
assessment, the agency must also conduct “an analysis of” six
statutory factors. Id. § 7545(o)(2)(B)(ii). And those factors
plainly require a prospective assessment—an assessment that
would likely miss “important aspects of the problem,” State
Farm, 463 U.S. at 43, if it ignored the interaction, now and in
the future, of the requirements for all the categories of
renewable fuels. See, e.g., 42 U.S.C. § 7545(o)(2)(B)(ii)(I)
(requiring an “analysis of” the “impact of the production and
use of renewable fuels on,” among other things, “the
environment”). Though EPA set the biomass-based diesel
requirement lower than NBB wished, Congress did not intend
to incentivize growth of biomass-based diesel “at all costs.”
ACE, 864 F.3d at 714 (quoting Am. Express Co. v. Italian
Colors Rest., 570 U.S. 228, 234 (2013)).
NBB objects that setting the 2018 biomass-based diesel
applicable volume below expected production might lead to a
depressed advanced biofuel volume for 2018. But the agency
specifically anticipated “that the 2018 advanced biofuel
requirement will be larger than the 2017 advanced biofuel
volume requirement.” 2017 Rule, 81 Fed. Reg. at 89,798/1.
EPA has never set the biomass-based diesel applicable volume
at the “maximum potential production” level, id. at 89,799/3,
yet the “growing supply of” biomass-based diesel has
consistently “allowed EPA to establish higher advanced
biofuel” applicable volumes, id. at 89,797/3. EPA opted for
“allowing room within the advanced biofuel volume
requirement for the participation of non-[biomass-based diesel]
advanced fuels” as a reasonable way “to encourage the
development and production of a variety of advanced biofuels
over the long term without reducing the incentive for [biomassbased diesel] beyond the [biomass-based diesel applicable
volume] in 2018.” Id. at 89,797–98.

Page 67 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

68
Second, in setting the 2018 biomass-based diesel
applicable volume, EPA reasonably compared the advantages
and disadvantages of biomass-based diesel to those of other
fuels. NBB contends that the statute confines EPA to assessing
advantages of biomass-based diesel over petroleum, not
considering other renewable fuels, and that the agency failed to
“meaningfully” consider the six factors. NBB Br. 9–10. Both
arguments miss the mark.
NBB suggests that, because the statute “was intended to
‘increase the production of clean renewable fuels’ as a
substitute for petroleum fuel,” id. at 21 (quoting Pub. L. No.
110-140, preamble), the only relevant comparison is to
petroleum, not to other categories of renewable fuel. But NBB
identifies nothing in section 7545(o)(2)(B)(ii) or any other
section that requires EPA to assess the performance of a
particular renewable solely by reference to petroleum fuel. Its
analysis would require us to read the term “renewable fuels”
used throughout section 7545(o)(2)(B)(ii) to refer to the single
renewable fuel being analyzed, even though the statutory
definition of “renewable fuel” includes all types of renewables.
See 42 U.S.C. § 7545(o)(1)(J). And if EPA could compare the
benefits of each specific fuel only to petroleum, it might be
unable to set rational applicable volumes for each specified
category of renewable fuel after 2022, when the statute no
longer sets any specific volumes. See id. § 7545(o)(2)(B)(iii)–
(v). EPA could easily conclude, for example, that each
renewable fuel had a lower “impact . . . on the environment”
than petroleum fuel, see id. § 7545(o)(2)(B)(ii)(I), but, no
matter their differing merits in serving the statute’s goals, the
agency would be barred from making relative judgments
among renewable fuel categories.
NBB also argues that EPA failed to give meaningful
consideration to the six statutory factors, and instead “pre-

Page 68 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

69
determined the outcome,” NBB Br. 20, but the record shows
otherwise. EPA considered in detail how setting the biomassbased diesel applicable volume at a level higher or lower than
2.1 billion gallons would affect the six statutory factors. See
2017 Rule, 81 Fed. Reg. at 89,798–99. EPA further elaborated
its analysis of the factors in an 11-page supplemental
memorandum evaluating effects of its proposed biomass-based
diesel volume on renewable fuel production rates, the
environment, and the economy. See Supplemental Assessment
1–11, Coffeyville J.A. 524–34. EPA concluded that, over the
long term, “[a] variety of different types of advanced biofuels,
rather than a single type such as [biomass-based diesel], would
positively impact energy security . . . and increase the
likelihood of the development of lower cost advanced biofuels
that meet the same [greenhouse gas] reduction threshold as
[biomass-based diesel].”
Supplemental Assessment 3,
Coffeyville J.A. 526. EPA thus concluded that the statutory
factors supported its biomass-based diesel applicable volume.
See 2017 Rule, 81 Fed. Reg. at 89,798/3.
At bottom, NBB’s objections rest on a policy
disagreement: NBB urges that, instead of setting a level that
would support continued investment in the biomass-based
diesel industry while also encouraging producers of other types
of advanced biofuel to compete to satisfy the 2018 advanced
biofuel applicable volume at lower cost, EPA should have
reserved to biomass-based diesel alone a volume nearer to that
industry’s maximum production potential.
But NBB’s
proposed “simple solution”—that EPA should have “set[] a
meaningful [biomass-based diesel] volume” while planning to
“increas[e] the 2018 advanced-biofuel volume to provide room
for the production of other advanced biofuels when it set that
volume a year later,” NBB Br. 23—describes what EPA
actually did. A mere disagreement with the particular
calibration of a line drawn in the exercise of an agency’s

Page 69 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

70
reasonable judgment is no basis to invalidate a rule. Therefore,
we deny NBB’s petition.
VII.

Conclusion

For these reasons, the petitions for review are denied.
So ordered.

Page 70 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

WILLIAMS, Senior Circuit Judge, concurring in part and
concurring in the judgment:
The Clean Air Act’s Renewable Fuel Program operates on
an annual cycle. It provides annual credits, authorizes annual
waivers, and calls for annual reviews, see, e.g., 42 U.S.C.
§ 7545(o)(5), (7), (10)—all to implement Congress’s annual
goals, see id. § 7545(o)(2)(B).
Each year, as part of this annual affair, the Environmental
Protection Agency embarks on an elaborate rulemaking. Id.
§ 7545(o)(3)(B). In doing so, it receives an annual estimate of
the total volume of fuel to be sold to inform it in setting the
annual “renewable fuel obligation,” id. § 7545(o)(B)(i), which
“shall . . . be applicable to refineries, blenders, and importers,
as appropriate,” id. § 7545(o)(3)(B)(ii)(I). So EPA is to specify
appropriateness among those three categories.
But
“appropriate” as of when?
Coffeyville Petitioners say appropriate as of the annual
rulemaking.
But EPA says appropriate as of the last time EPA happened
to consider the issue, no matter how many years earlier that
was. The initial determination sticks for “all years,” EPA says,
“unless and until” EPA chooses, in its “discretion,” to
“undertake [an] annual reevaluation[].” Denial of Petitions for
Rulemaking to Change the RFS Point of Obligation, EPA-HQOAR-2016-0544-0525, at 7 (Mar. 13, 2018) (“EPA Denial”),
J.A. 779; see also EPA Br. 66 (claiming “discretion” to decide
“whether, how, and when” it will “reconsider its initial
designation”). Even when affected parties point to a series of
market “disparities” that they say have developed and render
the earlier determination “not appropriate,” and point to
§ 7545(o)(3)(B)(ii)(I) as entitling them to a fresh
determination, see, e.g., Valero Energy Corporation

Page 71 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

2
Comments, EPA-HQ-OAR-2016-0004-1746, at 1, 14 (July 11,
2016), J.A. 138, 151, EPA claims that that section does nothing
of the sort, see EPA Denial at 8, J.A. 780 (asserting full
“discretion” to decide “when” and “under what circumstances”
it will consider the issue). In Part V.A of the court’s opinion,
my colleagues accept EPA’s theory. I, however, disagree. So
while I otherwise join the court’s opinion in full, I cannot joint
Part V.A—though I do, in the end, concur in the judgment.
* * *
At the risk of oversimplifying, we can boil this annual
process down to three steps.
First, the annual goal. Congress sets annual (steadily
increasing) goals for the volume of renewable transportation
fuel to be sold or introduced into commerce in the United
States, with special targets for some subsets of renewable fuel.
42 U.S.C. § 7545(o)(2)(B)(i).
Next, the annual estimate. The Energy Information
Administration projects the total volume of transportation fuel
that will be sold into commerce in a given year (as well as
volumes of biomass-based diesel and cellulosic biofuel). 42
U.S.C. § 7545(o)(3)(A); see, e.g., Letter from Adam Sieminski,
Administrator, U.S. Energy Information Administration, to
Gina McCarthy, Administrator, U.S. Environmental Protection
Agency, EPA-HQ-OAR-2016-0004-3646 (Oct. 19, 2016), J.A.
494.
Finally, the annual obligation. This is set by EPA during
the agency’s annual rulemaking. And it is expressed in terms
of a single percentage of transportation fuel sold into commerce
(the “renewable fuel obligation”) by any obligated party
(regardless of category). 42 U.S.C. § 7545(o)(3)(B)(ii); see,
e.g., Renewable Fuel Standard Program: Standards for 2017

Page 72 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

3
and Biomass-Based Diesel Volume for 2018, 81 Fed. Reg.
89,746, 89,751/3 (Dec. 12, 2016) (“2017 Rule”). The basic
idea is this: If EPA knows (i) the annual goal for the volume of
renewable fuel introduced into commerce (see step one above),
and (ii) the annual estimate for the total volume of fuel to be
introduced into commerce (see step two above), then EPA—
after filling in any gaps in the goals left by Congress, see 42
U.S.C. § 7545(o)(2)(B)(ii), and making any necessary
adjustments to the estimates provided by the Energy
Information Administration, see id. § 7545(o)(3)(A)—can set
the minimum percentage of renewable fuel that must be
introduced into commerce by “obligated parties.” If everything
works out well, Congress’s annual goal should, more or less,
be met.
But who are these “obligated parties”? Under the Act,
EPA must tell us. The first among the three “Required
elements” of the annual determination is that it “be applicable
to refineries, blenders, and importers, as appropriate.” 42
U.S.C. § 7545(o)(3)(B)(ii)(I) (emphasis added).
Even though EPA “determine[s] and publish[es]” the
annual obligation anew “[e]ach [] calendar year[],” 42 U.S.C.
§ 7545(o)(3)(B)(i), since 2010 it hasn’t considered what parties
are “appropriate” to obligate. Regulation of Rules and Fuel
Additives, 75 Fed. Reg. 14,670, 14,722 (Mar. 26, 2010); see
also Regulation of Fuels and Fuel Additives, 72 Fed. Reg.
23,900, 23,923/2 (May 1, 2007). Rather, year in and year out,
the agency has simply “indicated,” “in passing,” that the
renewable fuel obligation “would apply to ‘. . . producers and
importers,’” “consistent with [its] preexisting” determination.
EPA Br. 69–70 (quoting 2017 Rule, 81 Fed. Reg. at 89,746/2).
That’s it. In my view, however, the language of the statute
requires more. EPA’s contrary reading seems to me to go
unreasonably “beyond the meaning that the statute can bear.”
U.S. Postal Serv. v. Postal Regulatory Comm’n, 886 F.3d 1253,

Page 73 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

4
1255 (D.C. Cir. 2018) (quoting MCI Telecomm. Corp. v. AT&T
Co., 512 U.S. 218, 229 (1994)).
* * *
The key provision says, “[n]ot later than November 30 of
each [] calendar year[],” EPA “shall determine and publish in
the Federal Register . . . the renewable fuel obligation.” 42
U.S.C. § 7545(o)(3)(B)(i).
The first of the “Required
elements” of that annual obligation is that it shall “be applicable
to refineries, blenders, and importers, as appropriate.” Id.
§ 7545(o)(3)(B)(ii)(I).
This much tells us a few things. First, Congress required
EPA to set the renewable fuel obligation annually. That feature
of the requirement pretty clearly indicates a congressional
expectation of possible year-to-year variation in all the
mandatory elements—not merely in the percentage chosen
(which is addressed in subclauses (II) and (III)). Second, one
explicitly required element of this annual determination is a
selection among “refineries, blenders and importers,” a
selection that must be “appropriate.” Taken together, the Act
seems inevitably to require EPA to apply (at least) some
thought to the issue of what market sectors should be
obligated—thought that the agency must apply each time it sets
the annual obligation. After all, the term “appropriate”
“naturally and traditionally includes consideration of all the
relevant factors,” not just a recitation that some time ago the
agency considered the factors that it then thought relevant.
Michigan v. EPA, 135 S. Ct. 2699, 2707 (2015) (emphasis
added) (quoting White Stallion Energy Center, LLC v. EPA,
748 F.3d 1222, 1266 (D.C. Cir. 2014) (Kavanaugh, J.,
concurring in part and dissenting in part)). The agency, in other
words, must “exercise its discretion to choose among the
options” that Congress has given it, Maj. op. 45 (quoting Kisor

Page 74 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

5
v. Wilkie, 139 S. Ct. 2400, 2449 (2019) (Kavanaugh, J.,
concurring in the judgment)), not “explain[]” why, in the
agency’s opinion, it’s “appropriate” not to choose among the
options that Congress has given it, id.; see Response to
Comments, EPA-HQ-OAR-2016-0004-3753, at 542 (Dec. 12,
2016), J.A. 761 (declaring the point-of-obligation “issue”
“beyond the scope of this rulemaking”).
Suppose a law school charter—adopted at the school’s
founding in 1920—calls on the dean to annually set a “tort
credits obligation,” consisting of a minimum number of credit
hours students must devote to certain tort subjects; the dean is
to make the obligation “applicable to negligence, defamation,
battery, and alienation of affections, as appropriate.” The first
dean, in 1921, sets the obligation at three credit hours per
subject—and applies it to all the subjects. For the 2020–21
academic year, the tenth dean likewise duly requires students
to devote at least three credits hours to those same subjects—
including alienation of affections. Students understandably
protest, since that tort is now a bygone relic. See Fitch v.
Valentine, 2005-CA-01800-SCT (¶¶ 79–81) (Miss. 2007)
(Dickinson, J., concurring), 959 So. 2d 1012, 1036 (noting 31
states have “completely abolished” it). But the dean adamantly
refuses even to consider their entreaties, “explain[ing]” (Maj.
op. 45) they’re “beyond the scope” (J.A. 761) of topics relevant
to the annual credit determination, which, after all, is perfectly
“consistent with [a] preexisting” 1921 determination that that
application was “appropriate” (EPA Br. 70). EPA’s reasoning
(on the procedural point—whether or not the phrase
“applicable . . . as appropriate” requires it to consider the issue)
is, in essence, as startling as the dean’s. Never mind whether,
as a substantive matter, studying the tort—or exempting
blenders—is actually “appropriate.” Cf. Maj. op. 52. EPA tells
us it need not even address the point—ever again.

Page 75 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

6
EPA’s response does more to hurt than to help its cause.
The agency points us to similarities between the provision
we’ve been
discussing,
§ 7545(o)(3)(B)(ii)(I),
and
§ 7545(o)(2)(A)(iii)(I), which I’ll call the “compliance
provision.” The two echo each other, see Oral Arg. Tr. 70:19–
25, both using the “applicable . . . as appropriate” formulation.
Annual determination, 42 U.S.C. § 7545(o)(3)(B)(i), (ii)(I):
[E]ach . . . calendar year[] . . . , the Administrator of the
Environmental Protection Agency shall determine and
publish in the Federal Register . . . the renewable fuel
obligation . . . . The renewable fuel obligation . . . shall . . .
be applicable to refineries, blenders, and importers, as
appropriate.
Compliance provision, 42 U.S.C. § 7545(o)(2)(A)(i), (iii)(I):
Not later than [August 8, 2006], the Administrator shall
promulgate regulations . . . . [T]he regulations . . . shall
contain compliance provisions applicable to refineries,
blenders, distributors, and importers, as appropriate . . . .
As EPA reads the two, the agency may define the point of
obligation once—while announcing the compliance provisions
at the outset of the program. See EPA Br. 66. Congress’s
command to make the annual renewable fuel obligation
“applicable . . as appropriate” is simply, in the agency’s view,
a cross-reference back to the “applicable . . . as appropriate”
determination made by EPA at the outset in its adoption of
compliance regulations. See, e.g., id. at 69–70; Oral Arg. Tr.
70:19–71:15, 72:13–24, 73:16–74:13.
The agency’s reading, however, seems utterly implausible.
When Congress uses “identical words” in “different parts of the
same statute,” we normally infer that those words carry “the
same meaning.” Henson v. Santander Consumer USA Inc., 137

Page 76 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

7
S. Ct. 1718, 1723 (2017) (quoting IBP, Inc. v. Alvarez, 546 U.S.
21, 34 (2005)). So if “applicable . . . as appropriate,” in the
context of setting the compliance regulations, means (as
everyone agrees it means) that EPA is to contemporaneously
assess the appropriateness of its decision, then the same phrase,
in the context of setting the annual renewable fuel obligation,
must mean the same thing: EPA is to make a contemporaneous
assessment of appropriateness—rather than, as the agency
implausibly claims, treat a decision made long ago as
dispositive for the present.
The majority responds—somewhat bafflingly—that
nothing in the phrase “applicable . . . as appropriate” indicates
“when or in what context EPA must make the appropriateness
determination.” Maj. op. 46 (emphasis added). But that can’t
be right. Imagine a daycare advertises that it will dress kids for
recess, “as appropriate.” Would any reasonable speaker of
English really harbor any doubt as to whether there existed a
“particular temporal” connection between the selection made
and the selection’s appropriateness? Id. at 45. Surely parents
would be surprised to learn that the school’s clothing selection
for a snowy, December day was not “appropriate” in light of
the then-pounding blizzard, but, rather, was “appropriate” in
light of the sunshine from six months earlier, when the daycare
first opened.
In fact, had Congress wanted EPA to readopt a prior
determination, without any contemporaneous analysis as to
appropriateness, “it could easily have chosen clearer language”
to do just that. NLRB v. SW General, Inc., 137 S. Ct. 929, 939
(2017). Related provisions of the same statute provide
examples of such straightforward wording. An obvious
possibility would be to replace “applicable to refineries,
blenders, and importers, as appropriate,” with “applicable to
Obligated Parties (as defined by the Administrator under 42
U.S.C. § 7545(o)(2)),” thus using the pattern adopted in

Page 77 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

8
§ 7545(h)(1), (k)(3)(B)(i). Another obvious way of expressing
what EPA says Congress meant would have been to modify
“refineries, blenders, and importers” with the phrase, “in
conformity with the compliance provisions established by the
Administrator,” thus paralleling the approach of § 7545(b)(2).
Both formulations, relying on a past participle, easily invite the
construction that EPA prefers—allowing the administrator to
rely on a decision made at some unspecified time in the past.
“The fact that [Congress] did not adopt [any of these] readily
available and apparent alternative[s] strongly supports rejecting
[EPA’s] reading.” Knight v. Commissioner, 552 U.S. 181, 188
(2008).
Further, rather than using such easy alternatives, Congress
chose language that, as read by EPA, makes a mess of virtually
all of § 7545(o)(3)(B)(ii). Again, subclause (I) requires the
“renewable fuel obligation” to “be applicable to refineries,
blenders, and importers, as appropriate.”
42 U.S.C.
§ 7545(o)(3)(B)(ii)(I). If Congress had envisioned EPA
“identif[ying] the ‘appropriate’ obligated parties” in its exercise
of the compliance provision (§ 7545(o)(2)(A)(iii)(I)), rather
than of this clause, as EPA says it did, see EPA Br. 7, then
subclause (I) would be doing no work at all—contrary to the
“principle of statutory construction that we must ‘give effect, if
possible, to every clause and word of a statute,’” Williams v.
Taylor, 529 U.S. 362, 404 (2000) (quoting United States v.
Menasche, 348 U.S. 528, 538–39 (1955)).
EPA and the majority respond that subclause (I) is needed
to “clarify[]” that distributors—who can be subjected to the
compliance provisions—“cannot be” subjected to the
renewable fuel obligation. Oral Arg. Tr. 75:9–12 (emphasis
added); see also Maj. op. 47.
Compare 42 U.S.C.
§ 7545(o)(2)(A)(iii)(I) (providing that the compliance
provisions shall be “applicable to refineries, blenders,
distributors, and importers, as appropriate” (emphasis added)),

Page 78 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

9
with id. § 7545(o)(3)(B)(ii)(I) (providing that the renewable
fuel obligation shall be “applicable to refineries, blenders, and
importers, as appropriate”). But the need for clarity could be
attributed to “most superfluous language.” SW General, 137 S.
Ct. at 941. And if clarity were actually Congress’s goal, if all
Congress wanted to do in subclause (I) was exclude
“distributors” from the universe of potential obligated parties,
Maj. op. 47, it chose an exceedingly odd way of getting there:
inserting into an annual exercise the task of indicating what
entities are “appropriate” targets for the renewable fuel
obligation. Wouldn’t it have been more straightforward to just
reference EPA’s prior determination, and then directly state—
for the purpose of clarity—that the renewable fuel obligation
may not apply to “distributors”?
In any case, it’s hard to see what distributor-based
obscurity EPA sees a need for subclause (I) to correct. Because
the renewable fuel obligation concerns only fuel that is “sold or
introduced into commerce in the United States,” 42 U.S.C.
§ 7545(o)(2)(A)(i), (o)(3)(B)(ii)(II) (emphasis added), the
obligation applies, for any gallon of fuel, only once—i.e., when
the fuel enters the American economy upstream, not when
distributors transport the same fuel downstream.
Once the sale or introduction “into” commerce is
complete—once a given unit of fuel is already flowing through
American commerce—that same unit of fuel cannot be sold or
introduced “into” American commerce again; it’s already there.
While one, for example, might say that a fuel line, which carries
fuel from a car’s tank to its engine, carries fuel “in” the car, no
one would say that it carries fuel “into” the car. So too, while
one might say that a distributor, which transports fuel from the
economy’s refineries to its retailers, see 40 C.F.R. § 80.2(l);
EPA Denial at 9, J.A. 781, transports fuel “in” the economy, no
one would say that it transports (or sells or introduces) fuel
“into” the economy; again, the fuel is already in the relevant

Page 79 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

10
process. Congress itself recognizes the distinction, referring to
fuel that is “sold or introduced into commerce,” 42 U.S.C.
§ 7545(o)(2)(A)(i), (o)(3)(B)(ii)(II) (emphasis added), and fuel
that is “sold or distributed in . . . commerce,” id. § 7545(u)(4)
(emphasis added). Because distributors do only the latter—
they move fuel “in,” not “into,” commerce—there is nothing
for subclause (I) to clarify. These downstream intermediaries
can never fall within the universe of potentially obligated
parties.
My colleagues don’t claim to disagree; at most, they
declare it “non-obvious” that “distributors cannot be subjected
to the point of obligation.” Maj. op. 47. But what’s “nonobvious” about it, even if we put the plain meaning of “into
commerce in the United States” aside? That phrase appears
throughout the statute—and can’t possibly include
downstream, distributor transactions. Take the statutory
provision concerning the Energy Information Administration,
which says that the agency must provide EPA with an estimate
of the “volume[] of transportation fuel . . . projected to be sold
or introduced into commerce in the United States.” 42 U.S.C.
§ 7545(o)(3)(A). Does Congress really expect that estimate—
and the regulatory burdens “based on” that estimate, id.
§ 7545(o)(3)(B)(i), (o)(7)(D)(i)—to radically fluctuate based
on the frequency of transactions among the distributors that
happen to line the distribution network? So if every distributor
starts selling to another distributor, or several of them, the
calculated volume of fuel “sold or introduced into commerce in
the United States” would balloon overnight? I doubt it.
EPA, it seems, shares my skepticism. The agency itself
describes the renewable fuel obligation, not in terms of
downstream intermediaries, like distributors, but in terms of the
initial, upstream players—those “responsible for introducing
[fuel] into the domestic gasoline pool.” 72 Fed. Reg. at
23,904/1 (emphasis added). Indeed, when defining the

Page 80 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

11
renewable fuel obligation, EPA speaks not of sales that happen
to occur, distributor-to-distributor, along the supply chain, but
only of initial injections into U.S. commerce as a consequence
of the upstream “produc[tion]” or “import[ation]” of
transportation fuel. 40 C.F.R. § 80.1407(a), (b).
What about blenders, asks the majority? Aren’t they
potentially obligated parties, even though they, like
distributors, handle fuels that have already been “introduce[d]”
into U.S. commerce by other upstream entities, like refineries?
Maj. op. 46–47. Yes, of course, they are. But that’s because
blenders—unlike distributors—are the ones who initially sell
or introduce various types of finished transportation fuel “into
commerce in the United States.” E15, for instance, a blend of
85% gasoline, 15% ethanol, generally enters “into” American
commerce at the hands of a blender—the entity that actually
blends the various components. Just ask EPA, which
references the “ethanol blenders that introduce E15 into
commerce.” 76 Fed. Reg. 44,406, 44,410/3 (July 25, 2011). A
distributor, in contrast—and by definition, whether that’s a
“post-enactment regulat[ory]” definition, Maj. op. 47, or a preenactment dictionary definition—never introduces anything
“into” commerce. It only distributes (i.e., “transports” or
“deliver[s]”) finished transportation fuel, such as E15, from one
point to another. See 40 C.F.R. § 80.2(l); Webster’s Third New
International Dictionary 660 (1961) (defining “distribute”). So
subclause (I), as EPA reads it, is, in fact, a superfluity, because
the agency could not place the point of obligation on
distributors whether that clause existed or not.
The muddle generated by EPA’s reading doesn’t end there.
Consider the effect on subclause (III). That provision provides
that the “renewable fuel obligation . . . shall . . . consist of a
single applicable percentage that applies to all categories of
persons specified in subclause (I).”
42 U.S.C.
§ 7545(o)(3)(B)(ii)(III). But if EPA is right, and the point of

Page 81 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

12
obligation is determined, not under subclause (I), but under the
compliance provision, why does Congress take such a
circuitous route to get there—a reference in subclause (III) to
subclause (I), which, in turn, in EPA’s reasoning (but without
linguistic underpinning), refers back to the compliance
provision? Couldn’t Congress in subclause (III) have just
alluded to decisions made by EPA under the compliance
provision directly? Cf., e.g., 42 U.S.C. § 7545(o)(4)(A). EPA
doesn’t say.
Instead, the agency puts essentially all its eggs in the
compliance provision basket. EPA argues, first and foremost,
that its power to promulgate compliance provisions is broad
and includes the power to set the point of obligation. And
“nothing,” it says, requires it to “reconsider” that
determination. See, e.g., EPA Br. 67–68. My colleagues offer
a similar thought, claiming that Congress knew how to call for
a “redo” if that is what it really wanted. Maj. op. 48. Both
arguments, however, miss the point. When Congress mandates
an annual “determin[ation]” in 42 § 7545(o)(3)(B)(ii), there is
nothing to be redone or reviewed. The determination must
happen anew each year, and the specific instruction to apply
that determination “to refineries, blenders, and importers, as
appropriate,” controls, id. § 7545(o)(3)(B)(ii)(I); any general
authorization to promulgate compliance provisions (including,
I’ll assume, license to not “reconsider” them) must yield to that
specific instruction. See SW General, 137 S. Ct. at 941 (“[I]t is
a commonplace of statutory construction that the specific
governs the general.” (alteration in original) (quoting RadLAX
Gateway Hotel, LLC v. Amalgamated Bank, 566 U.S. 639, 645
(2012)).
“[B]asic principles of administrative law,” unfortunately
for the majority, only further erode EPA’s position. Maj. op.
52. We “generally ‘presume[] that Congress expects it statutes
to be read in conformity with the[] [Supreme] Court’s

Page 82 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

13
precedents.’” Porter v. Nussle, 534 U.S. 516, 528 (2002)
(second alteration in original) (quoting United States v. Wells,
519 U.S. 482, 495 (1997)). And those precedents make clear
that an agency, when exercising its congressionally delegated
authority, must “consider [every] important aspect of the
problem.” Motor Vehicle Mfrs. Ass’n of U.S. v. State Farm
Mutual Ins. Co., 463 U.S. 29, 43 (1983). Failure to do so
“would be arbitrary and capricious.” Id. With that background
in mind, it “would be strange indeed” if Congress really
expected EPA, year in and year out, to set the renewable fuel
standards for the entire economy, yet allowed the agency—sub
silentio—to do so without considering ever again whether a
“foundational” element of the regulatory program was
“appropriate.” Maj. op. 49.
Retreating from the statutory language, EPA claims that
reading the Act to require it to appropriately identify the point
of obligation each year would be inconsistent with Congress’s
“purpose.” Specifically, the agency says, it would “reduce the
regulatory certainty required for private parties to plan for
growth.” EPA Br. 72. But EPA’s fears are vastly overblown.
Its concern about upsetting investment-backed expectations is
a reason to not change the point of obligation; it is not a reason
to not consider doing so. The same goes for my colleagues’
concerns about the credit trading program, see Maj. op. 50,
even if that program really does require (as my colleagues seem
to assume it does) rock solid stability in the point of
obligation—a dubious proposition, given that credits are held
individual-entity-by-individual-entity, so that shrinkage or
swelling of the number of covered entities has no impact on the
needed computations.
EPA’s duty is to “articulate a
satisfactory explanation for its action,” State Farm, 463 U.S. at
43—an explanation that must consider the industry’s
(including the credit traders’) reliance on a prior determination,
see, e.g., FCC v. Fox Television Stations, Inc., 556 U.S. 502,
515 (2009) (explaining that it “would be arbitrary and

Page 83 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

14
capricious to ignore” the fact that a “prior policy has
engendered serious reliance interests”); Nat’l Cable &
Telecomms. Ass’n v. FCC, 567 F.3d 659, 670 (D.C. Cir. 2009)
(similar). In fact, given the substantial reliance interests at
stake, along with the agency’s prior findings, it seems likely
that (in the absence of significantly changed circumstances or
a compelling new analysis) EPA would be able to make rather
short work of the annual analysis. In most years, the prior
analyses and the reliance interests would probably dictate the
conclusion.
In any event, especially when the alleged downside of
petitioners’ claim is so chimerical, our “role is not to ‘correct’
the [statutory] text so that it better serves [Congress’s]
purposes.” Va. Dep’t of Medical Assistance Servs. v. U.S.
Dep’t of Health & Human Servs., 678 F.3d 918, 926 (D.C. Cir.
2012) (some internal quotation marks omitted) (quoting Engine
Manufacturers Ass’n v. EPA, 88 F.3d 1075, 1089 (D.C. Cir.
1996)). That is a job for Congress.
For these reasons, I respectfully disagree with the panel’s
conclusion, which grants EPA essentially unfettered discretion
as to when—or even if—it will consider the appropriateness of
the point of obligation.
Indeed, the panel, it seems to me, arrived at its conclusion
only by extending to EPA the type of “reflexive” deference that
the Supreme Court has recently criticized. Kisor, 139 S. Ct. at
2415 (quoting Pereira v. Sessions, 138 S. Ct. 2105, 2120 (2018)
(Kennedy, J., concurring)). The Court has made clear that
before we may declare a statute genuinely ambiguous—and,
thus, before we, an Article III court, may surrender to an
executive agency’s (often self-serving) declaration of what the
law means—we must exhaust all the “traditional tools” of
statutory construction. Kisor, 139 S. Ct. at 2415 (quoting
Chevron U.S.A. Inc. v. Natural Resources Defense Council,

Page 84 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

15
Inc., 467 U.S. 837, 843 n.9 (1984)). Then and only then—
“when that legal toolkit is empty”—may we “wave the
ambiguity flag.” Id.
The majority, however, in apparent haste to bow to EPA’s
admittedly self-serving declaration of what the law means, see
Maj. op. 51 (describing the “burden[s]” that EPA would rather
avoid), doesn’t actually use any of the tools of statutory
construction in an attempt to discern Congress’s meaning. For
example, besides acknowledging that EPA’s reading of the
phrase “applicable . . . as appropriate” “is not ineluctable,” Maj.
op. 48, the majority has almost nothing to say about that
phrase’s ordinary meaning. Although the majority declares it
“ambiguous,” id. at 49, my colleagues do not offer a single
example of the phrase being used in the way EPA desires—
where the duty to make a selection, “as appropriate,”
(somehow) permits the decisionmaker wholly to ignore the
contemporaneous context of his selection. But see supra pp. 5,
7 (offering examples where EPA’s interpretation makes no
sense).
The majority’s treatment of the presumption of
consistent usage isn’t much better. It says that there are
multiple “permissible” ways to ascribe the same meaning to the
same words, but doesn’t offer any, see Maj. op. 46—all the
while overlooking an obvious interpretation that satisfies the
presumption (i.e., EPA must consider the factors that are
relevant at the time of its decision), see supra pp. 6–7. Finally,
the majority writes off the canon against surplusage without
actually finding that the language at issue isn’t superfluous.
The majority avers that a finding of superfluity “rests on a
complicated series of inferences,” Maj. op. 47, but that’s not
unusual, or reason to shy away from wading through the
muddle. Complex regulatory schemes “can sometimes make
the eyes glaze over. But hard interpretive conundrums, even
relating to complex rules, can often be solved.” Kisor, 139 S.
Ct. at 2415. To solve such conundrums, however, we must
embrace the canons of interpretation as the useful tools that

Page 85 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

16
they are for discerning Congress’s meaning, not as pests to be
dodged and swatted away in our rush to deference. Here, when
those tools are properly applied, we can discern Congress’s
meaning—which “is the law and must be given effect.”
Chevron, 467 U.S. at 843 n.9.
Nonetheless, I concur in the judgment. As we explain
today with regard to claims brought by the Alon Petitioners,
EPA adequately explained, at around the time it set the annual
obligation for 2017, why it was not “appropriate” (in light of
the facts as they then existed) to change the point of obligation.
See Maj. op., Part IV.B. Although that explanation arose in the
context of a petition for rulemaking—and was thus subject to a
more deferential form of arbitrary and capricious review—I
would hold here (for the same reasons that we give in Part IV.B
of the majority opinion) that EPA’s reasoning was sufficient
even under the deference level that demands more of the
agency.
The difference in our standard of review between an appeal
from
the
agency’s
annual
determination
under
§ 7545(o)(3)(B)(i), (ii)(I), on the one hand, and an agency’s
conventional duty to entertain a petition for a rulemaking to
revise an existing regulation, on the other, is in practice fairly
slight. Under both understandings, the agency is bound to give
suitable weight to reliance interests, and indeed to the general
advantage of regulators’ not rocking too many boats. A party
challenging the status quo faces some sort of burden in either
context—to point to new facts, or to new discoveries of facts,
or to previously unnoticed flaws in the agency’s analysis, etc.
There is, to be sure, a subtle difference in the deference level,
but deference levels themselves build in a good deal of
subjectivity. I nonetheless write separately because I see
Congress as having imposed a specific, if modest, duty, on the
agency, and having thereby provided an explicit avenue for
review. That explicitness seems to me designed to, and likely

Page 86 of 87

USCA Case #17-1044

Document #1804338

Filed: 08/30/2019

17
to, concentrate the mind of the administrator—a congressional
choice that we should honor.

Page 87 of 87

EXHIBIT 2

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

Argued February 20, 2019

Decided September 6, 2019

No. 17-1258
AMERICAN FUEL & PETROCHEMICAL MANUFACTURERS,
PETITIONER
v.
ENVIRONMENTAL PROTECTION AGENCY,
RESPONDENT
SMALL RETAILERS COALITION, ET AL.,
INTERVENORS
Consolidated with 18-1027, 18-1040, 18-1041
On Petitions for Review of an Action of the
United States Environmental Protection Agency
Thomas A. Lorenzen and Samara L. Kline argued the
causes for Obligated Petitioners. Suzanne Murray argued the
cause for petitioner-intervenor Small Retailers Coalition. With
them on the briefs were Julie R. Domike, Michael J. Scanlon,
Richard S. Moskowitz, Robert J. Meyers, Elizabeth B. Dawson,
Megan H. Berge, Lisa M. Jaeger, Brittany M. Pemberton, and
Clara Poffenberger. Evan A. Young entered an appearance.

Page 1 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

2
Bryan M. Killian argued the cause for petitioner National
Biodiesel Board. With him on the briefs was Douglas A.
Hastings.
Devorah Ancel argued the cause for Environmental
Petitioners. With her on the briefs was Eric Huber.
Benjamin R. Carlisle, Attorney, and Michael R. Eitel,
Senior Trial Attorney, U.S. Department of Justice, argued the
causes for respondent. With them on the brief were Jeffrey H.
Wood, Acting Assistant Attorney General, Jonathan D.
Brightbill, Deputy Assistant Attorney General, and David P.W.
Orlin, Attorney, U.S. Environmental Protection Agency.
Thomas Allen Lorenzen argued the cause for intervenors
in support of respondent responding to National Biodiesel
Board. With him on the brief were Robert A. Long Jr., Kevin
King, Stacy Linden, Richard S. Moskowitz, Robert J. Meyers,
and Elizabeth B. Dawson. David Y. Chung and John P. Wagner
entered appearances.
Seth P. Waxman, David M. Lehn, Saurabh Sanghvi, Claire
H. Chung, Robert A. Long, Jr., Kevin King, Matthew W.
Morrison, Bryan M. Stockton, Bryan M. Killian, and Douglas
A. Hastings were on the brief for intervenors Growth Energy,
et al. in support of respondent.
Matthew W. Morrison, Bryan M. Stockman, Seth P.
Waxman, David M. Lehn, Saurabh Sanghvi, Claire H. Chung,
Bryan M. Killian, and Douglas A. Hastings were on the brief
for intervenors Renewable Fuels Association, et al. in support
of respondent.
Before: HENDERSON, TATEL, and GRIFFITH, Circuit
Judges.

Page 2 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

3
Opinion for the Court filed PER CURIAM.
PER CURIAM: The Clean Air Act’s Renewable Fuel
Program mandates that certain amounts of renewable fuel must
be introduced into the U.S. fuel supply each year. In late 2017,
the EPA promulgated its final 2018 Rule, which, as in previous
years, established overall targets for the fuel market and
imposed individual compliance obligations on fuel refineries
and importers. These consolidated cases concern various
challenges to the 2018 Rule. Several petitioners maintain it is
too strict, others allege it is too lax, and still others argue that
the EPA failed to follow proper procedures in its promulgation.
We conclude that all these challenges lack merit, except for
one: that the EPA violated its obligations under the Endangered
Species Act by failing to determine whether the 2018 Rule may
affect endangered species or critical habitat. We therefore grant
the petition for review filed by the Gulf Restoration Network
and Sierra Club and remand the 2018 Rule without vacatur for
the EPA to comply with the Endangered Species Act. We deny
all other petitions for review.
I.

Background

A. The Renewable Fuel Program
Enacted in 2005 and amended in 2007, the Renewable
Fuel Program (the “Program” or “RFS Program”), alternatively
called the Renewable Fuel Standard, was designed “[t]o move
the United States toward greater energy independence and
security” and “to increase the production of clean renewable
fuels.” Energy Independence and Security Act of 2007, Pub. L.
No. 110-140, pmbl., 121 Stat. 1492, 1492; see also id. §§ 201–
210 (amending the Program); Energy Policy Act of 2005, Pub.
L. No. 109-58, § 1501, 119 Stat. 594, 1067–76 (enacting the
Program). To accomplish these goals, the Program regulates

Page 3 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

4
suppliers through “applicable volume[s]”—mandatory and
annually increasing quantities of renewable fuels that must be
“introduced into commerce in the United States” each year—
and tasks the EPA Administrator with “ensur[ing]” that those
annual targets are met. 42 U.S.C. § 7545(o)(2)(A)(i). As we
explained in Americans for Clean Energy v. EPA, “[b]y
requiring upstream market participants . . . to introduce
increasing volumes of renewable fuel into the transportation
fuel supply, Congress intended the Renewable Fuel Program to
be a ‘market forcing policy’ that would create ‘demand
pressure to increase consumption’ of renewable fuel.” 864 F.3d
691, 705 (D.C. Cir. 2017) (first quoting Renewable Fuel
Standard Program: Standards for 2014, 2015, and 2016 and
Biomass-Based Diesel Volume for 2017, 80 Fed. Reg. 77,420,
77,423 (Dec. 14, 2015); then quoting Monroe Energy, LLC v.
EPA, 750 F.3d 909, 917 (D.C. Cir. 2014)).
The Program specifies annual fuel-volume requirements
for four overlapping categories of fuel. The first and broadest
category, “renewable fuel,” includes any “fuel that is produced
from renewable biomass and that is used to replace or reduce
the quantity of fossil fuel present in” either “a transportation
fuel,” 42 U.S.C. § 7545(o)(1)(J), or “home heating oil or jet
fuel,” id. § 7545(o)(1)(A); see also Regulation of Fuels and
Fuel Additives: Changes to Renewable Fuel Standard Program,
75 Fed. Reg. 14,670, 14,687 (Mar. 26, 2010) (including “home
heating oil” and “jet fuel” within the definition of “renewable
fuel”). Next are “advanced biofuel[s],” a subset of the
renewable-fuel category defined as any “renewable fuel, other
than ethanol derived from corn starch, that has lifecycle
greenhouse gas emissions . . . at least 50 percent less than” “the
average lifecycle greenhouse gas emissions . . . for gasoline or
diesel” as of 2005. 42 U.S.C. § 7545(o)(1)(B)(i), (C). Lastly,
of the fuels falling under the advanced-biofuel umbrella, the
Program singles out two in particular: “cellulosic biofuel,” a

Page 4 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

5
fuel derived from the fibrous parts of plants, see id.
§ 7545(o)(1)(E), and “biomass-based diesel,” a renewable
substitute for conventional diesel, see id. §§ 7545(o)(1)(D),
13220(f). Because the definitions of these four fuel categories
are “nested,” so, too, are their applicable volumes. Ams. for
Clean Energy, 864 F.3d at 731. As depicted below, the
Program will double- or even triple-count the more specialized
fuels, such that one gallon of advanced biofuel simultaneously
counts as one gallon of renewable fuel, and one gallon of either
cellulosic biofuel or biomass-based diesel also counts as one
gallon of both advanced biofuel and renewable fuel.

The Program lists calendar years and corresponding
applicable volumes for each type of fuel. These tables run
through 2022 for renewable fuel, advanced biofuel, and
cellulosic biofuel; for 2018, the statute mandates applicable
volumes of 26, 11, and 7 billion gallons, respectively. See 42
U.S.C. § 7545(o)(2)(B)(i)(I)–(III). In contrast, the Program

Page 5 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

6
provides applicable volumes for biomass-based diesel through
only 2012. See id. § 7545(o)(2)(B)(i)(IV). For all later years,
the statute sets a floor of 1 billion gallons, see id.
§ 7545(o)(B)(i)(IV), (v), and directs the Administrator to
establish, “no later than 14 months” before the relevant year,
an applicable volume “based on a review of the implementation
of the program during” previous years and “an analysis of” six
other broad factors such as the fuel’s effect on “the
environment,” “energy security,” and “cost to consumers,” id.
§ 7545(o)(B)(ii).
Although the statutory tables initially appear to admit no
exception, their applicable volumes in fact provide only
starting points. Under certain circumstances, the Program
grants the Administrator authority to exercise so-called waivers
to reduce applicable volumes below statutory levels. Three
waivers are relevant to this case.
The first waiver is mandatory. The Program requires that
if in any year “the projected volume of cellulosic biofuel
production is less than the minimum applicable volume” set by
statute, then “the Administrator shall reduce the applicable
volume of cellulosic biofuel . . . to the projected volume
available during that calendar year.” Id. § 7545(o)(7)(D)(i). Put
simply, regardless of the applicable volume Congress
established in the Program, the EPA may require by regulation
no more cellulosic biofuel than the market is projected to
provide in any given year.
The second waiver flows from the first. For any year in
which the EPA reduces the applicable volume of cellulosic
biofuel based on a projected shortfall, “the Administrator may
also reduce the applicable volume of renewable fuel and
advanced biofuels . . . by the same or a lesser volume.” Id.
Unlike its mandatory cousin, this “cellulosic waiver” is

Page 6 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

7
discretionary: if cellulosic biofuel is projected to underperform
statutory levels, the Administrator may reduce renewable fuel
and advanced biofuel volumes by the entire cellulosic deficit,
by some percentage of the shortfall, or by nothing at all. See
id.; see also Regulation of Fuels and Fuel Additives: 2013
Renewable Fuel Standards, 78 Fed. Reg. 49,794, 49,810
(Aug. 15, 2013) (interpreting the cellulosic waiver provision
“as authorizing [the] EPA to reduce both total renewable fuel
and advanced biofuel, by the same amounts, if [the] EPA
reduces the volume of cellulosic biofuel”). Because cellulosic
biofuel is nested within advanced biofuel, if the Administrator
exercises anything less than a full cellulosic waiver, other
advanced biofuels will need to make up for the difference.
The last waiver, the so-called general waiver, is also
discretionary. It permits the Administrator to “reduc[e] the
national quantity of renewable fuel required” by the Program
“based on a determination” that any of three circumstances
exist: first, “that implementation of the requirement would
severely harm the economy . . . of a State, a region, or the
United States,” 42 U.S.C. § 7545(o)(7)(A)(i); second, “that
implementation of the requirement would severely harm
the . . . environment of a State, a region, or the United States,”
id.; or third, “that there is an inadequate domestic supply,” id.
§ 7545(o)(7)(A)(ii). The Administrator may exercise the
general waiver in response to a petition by a state or regulated
party or “on his own motion.” Id. § 7545(o)(7)(A).
After exercising any waivers and finalizing an applicable
volume for each type of fuel, the EPA must by November 30
of each year calculate and promulgate “renewable fuel
obligation[s] that” will “ensure[] that the [Program’s]
requirements . . . are met” in the upcoming year. Id.
§ 7545(o)(3)(B)(i). In broad strokes, this task requires the EPA
to identify the entities responsible for collectively achieving

Page 7 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

8
applicable volumes, quantify each entity’s individual
obligation, and ensure those entities’ successful compliance.
To begin with, there is the threshold question of who,
exactly, must satisfy renewable fuel obligations—that is, who
are the “obligated parties”? Although the statute states that
“[t]he renewable fuel obligation determined for a calendar
year . . . shall . . . be applicable to refineries, blenders, and
importers, as appropriate,” id. § 7545(o)(3)(B)(ii)(I), the EPA
has since the Program’s inception declined to include
blenders—defined as “part[ies] that simply blend[] renewable
fuel into gasoline or diesel fuel,” 40 C.F.R. § 80.1406(a)(1)—
within the definition of “obligated party,” see Regulation of
Fuels and Fuel Additives: Renewable Fuel Standard Program,
72 Fed. Reg. 23,900, 23,924 (May 1, 2007) (designating
obligated parties); Regulation of Fuels and Fuel Additives:
Changes to Renewable Fuel Standard Program, 75 Fed. Reg. at
14,721–22 (same). Instead, the EPA defines an obligated party
as “any refiner that produces gasoline or diesel fuel within the
48 contiguous states or Hawaii, or any importer that imports
gasoline or diesel fuel into the 48 contiguous states or Hawaii
during a compliance period.” 40 C.F.R. § 80.1406(a)(1). The
Program does, however, permit “small refiner[ies]” to receive
exemptions from renewable fuel obligations if they
demonstrate that compliance would inflict “disproportionate
economic hardship.” 42 U.S.C. § 7545(o)(9)(B).
Next, each year the EPA must transform its aggregate,
fuel-sector-wide applicable volumes into individual
compliance obligations that sum to the requisite whole. To do
this, the Program instructs the EPA to translate the applicable
volumes into “percentage[s] of transportation fuel sold or
introduced into commerce in the United States.” Id.
§ 7545(o)(3)(B)(ii)(II). By dividing the applicable volumes for
each fuel type by an estimate of the total gasoline and diesel

Page 8 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

9
volume that will be used in the coming year (subject to some
adjustments), the EPA generates “percentage standards” which
then “inform each obligated party of how much renewable fuel
it must introduce into U.S. commerce based on the volumes of
fossil-based gasoline or diesel it imports or produces.” Ams. for
Clean Energy, 864 F.3d at 699; see also 40 C.F.R. § 80.1405(c)
(setting out the percentage-standard formula). In other words,
the EPA estimates what percentage of the overall fuel supply
each renewable-fuel type should constitute and then requires
each obligated party to replicate those percentages on an
individual basis.
Although the nuances of the percentage standard are
mostly beyond the scope of this case, one feature requires
mention. When calculating percentage standards for any given
year, the EPA accounts for any small refineries that have
received exemptions by requiring non-exempt obligated parties
to produce proportionally more. See Regulation of Fuels and
Fuel Additives: 2011 Renewable Fuel Standards, 75 Fed. Reg.
76,790, 76,805 (Dec. 9, 2010) (explaining that small-refinery
exemptions “result in a proportionally higher percentage
standard for remaining obligated parties”). The problem is that
while the EPA must promulgate annual percentage standards
by November 30 each year, refineries may petition for an
exemption “at any time,” 42 U.S.C. § 7545(o)(9)(B)(i), and the
EPA has no mechanism to adjust renewable fuel obligations to
account for exemptions granted after each year’s percentage
standards are finalized. As a result, because the EPA cannot
ensure that non-exempt obligated parties compensate for the
renewable-fuel shortfall created by belated exemptions, those
gallons of renewable fuel simply go unproduced.
Finally, after the obligated parties have been identified and
their percentage standards have been set, there remains the
matter of compliance. The Program does not require each

Page 9 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

10
obligated party to produce precisely the right mix of fuel itself.
See id. § 7545(o)(5) (directing the EPA to establish a “[c]redit
program”). Instead, for every gallon of renewable fuel entering
the U.S. market, producers and importers may generate a set of
“Renewable Identification Numbers” (RINs). See 40 C.F.R.
§§ 80.1426, 80.1429(b) (describing how RINs are “generated”
and then “separated” from their fuel); Ams. for Clean Energy,
864 F.3d at 699 (same). Each year, obligated parties must
generate or purchase enough RINs to meet their renewable fuel
obligations, which the obligated parties then satisfy by
“retir[ing]” RINs at an annual compliance demonstration. 40
C.F.R. § 80.1427. To prevent fuel that ultimately leaves the
U.S. market from satisfying obligated parties’ renewable fuel
obligations, the EPA also requires exporters to retire any RINs
(or an equivalent number of RINs) that were generated by
exported fuel. See 40 C.F.R. § 80.1430 (listing requirements
for renewable-fuel exporters). An obligated party lacking
enough RINs may, under certain circumstances, carry forward
a deficit, while an obligated party possessing excess RINs may
save those RINs for the following year. See 42 U.S.C.
§ 7545(o)(5)(B), (D) (addressing the transfer of RINs and the
ability to carry forward a RIN deficit); 40 C.F.R. § 80.1427(b)
(addressing “[d]eficit carryovers”); id. § 80.1428(c)
(addressing “RIN expiration”).
B. The 2018 Rule
To fulfill its annual rulemaking obligation under 42 U.S.C.
section 7545(o)(3)(B)(i), the EPA proposed a rule in July 2017
to set renewable fuel applicable volumes and percentage
standards for 2018 and a biomass-based diesel applicable
volume for 2019. Renewable Fuel Standard Program:
Standards for 2018 and Biomass-Based Diesel Volume for
2019 (“Proposed Rule”), 82 Fed. Reg. 34,206 (proposed
July 21, 2017). The Proposed Rule explained that “[r]eal-world
challenges, such as the slower-than-expected development of

Page 10 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

11
the cellulosic biofuel industry, . . . have made the volume
targets established by Congress for 2018 beyond reach for all
fuel categories other than [biomass-based diesel].” Id. at
34,207. The EPA thus proposed reducing the cellulosic biofuel
applicable volume to match the projected volume of cellulosic
biofuel available in 2018 and exercising its discretionary
cellulosic waiver authority to reduce the applicable volumes for
advanced biofuel and total renewable fuel a corresponding
amount. Id. at 34,208–10. It determined that the market for
biomass-based diesel, however, outproduced the minimum
requirements of the Program and therefore proposed
maintaining for 2019 its applicable volume for biomass-based
diesel set for 2018. Id. at 34,210–11.
The Proposed Rule further solicited comment on three
other issues. First, although the EPA initially concluded that it
should not exercise its general waiver authority to reduce
applicable volumes further, it solicited comment on whether it
should exercise that authority due to either severe economic
harm or inadequate domestic supply. Id. at 34,213. Second, it
solicited comment on how it should account for small refinery
exemptions when translating the 2018 applicable volumes into
percentage standards. Id. at 34,241–42. And third, it solicited
comment on the current RIN trading market. Id. at 34,211. It
clarified, however, that it was “not soliciting comment on any
aspect of the current RFS regulatory program other than those
specifically related to RIN trading . . . and the proposed annual
standards for 2018 and biomass-based diesel applicable
volume for 2019.” Id.
During the comment period, the EPA published
supplemental information regarding its proposal and requested
further comment on aspects of the Proposed Rule. See
Renewable Fuel Standard Program: Standards for 2018 and
Biomass-Based Diesel Volume for 2019; Availability of

Page 11 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

12
Supplemental Information and Request for Further Comment
(“Supplemental Information”), 82 Fed. Reg. 46,174 (Oct. 4,
2017). In particular, in response to this court’s intervening
decision in Americans for Clean Energy, 864 F.3d 691, the
EPA solicited comment on the meaning of the phrases
“inadequate domestic supply” and “severe economic harm” in
the general waiver provision, 42 U.S.C. section 7545(o)(7)(A).
See Supplemental Information, 82 Fed. Reg. at 46,177–79.
Over 235,000 comments later, the EPA promulgated its
final 2018 Rule in December 2017. See Renewable Fuel
Standard Program: Standards for 2018 and Biomass-Based
Diesel Volume for 2019 (“2018 Rule”), 82 Fed. Reg. 58,486,
58,487 (Dec. 12, 2017). The 2018 Rule tracked the Proposed
Rule with only slight modifications. The EPA reduced the
applicable volume for cellulosic biofuel to match the agency’s
updated projection of the amount of cellulosic biofuel that
would be produced in 2018. Id. at 58,487. It also exercised its
full cellulosic waiver authority to reduce the applicable
volumes for advanced biofuel and renewable fuel by an equal
amount. Id. And as anticipated in the Proposed Rule, the EPA
declined to exercise its general waiver authority to reduce
applicable volumes further due to inadequate domestic supply
or severe economic harm. Id. The EPA adopted the following
final applicable volumes and percentage standards:
2018 RULE: APPLICABLE VOLUMES & PERCENTAGE
STANDARDS

Cellulosic Biofuel
Biomass-Based Diesel
Advanced Biofuel
Total Renewable Fuel

Applicable Volume
(billions of gallons)
00.288
02.1 (2019)
04.29
19.29

Percentage
Standard
00.159%
01.74%
02.37%
10.67%

Page 12 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

13
Id. at 58,487, 58,491. The EPA further explained that it
calculated the percentage standards without prospectively
adjusting for potential small refinery exemptions and that it did
not intend to adjust retroactively the fuel percentage standards
to account for exemptions it subsequently granted. Id. at
58,523. The EPA also declined to address as “beyond the scope
of this rulemaking” comments asking it to reconsider its RIN
policy for renewable fuel exports and its definition of obligated
parties. Assessment and Standards Div., Office of Transp. and
Air Quality, EPA, EPA-420-R-17-007, Renewable Fuel
Standard Program – Standards for 2018 and Biomass-Based
Diesel Volume for 2019: Response to Comments 223
(December 2017) (“Response to Comments”), Joint Appendix
(J.A.) 1446.
C. Procedural History
After the EPA promulgated its final rule, four groups of
interested parties petitioned for review in this court. American
Fuel & Petrochemical Manufacturers, a national trade
association of U.S. refineries and petrochemical
manufacturers, and Valero Energy Corporation, a Texas-based
energy company that refines transportation fuels, produces
biofuels, and sells them in the United States (together, the
“Obligated Parties”), both filed petitions for review
challenging the 2018 Rule as setting applicable volumes and
percentage standards too high. On the other hand, the National
Biodiesel Board, a biodiesel industry trade association,
petitioned for review of the 2018 Rule on the ground that the
Rule set applicable volumes and percentage standards too low.
Independently, the Sierra Club and Gulf Restoration Network,
two nonprofit environmental groups (together, the
“Environmental Petitioners”), filed a joint petition for review
of the 2018 Rule, claiming that the EPA violated the
Endangered Species Act, 16 U.S.C. §§ 1531–1544, by failing
to consult with the U.S. Fish and Wildlife Service and the

Page 13 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

14
National Marine Fisheries Service regarding whether the 2018
Rule would adversely affect threatened or endangered species.
Several other parties intervened, including the Small Retailers
Coalition, a national trade association of small gasoline and
diesel retailers, which intervened on behalf of the Obligated
Parties and now argues that the EPA violated the Regulatory
Flexibility Act, 5 U.S.C. §§ 601–612, by failing to assess the
2018 Rule’s potential effects on small fuel retailers.
While the petitions before us were pending, another panel
of this court resolved several petitions challenging the EPA’s
final rule setting applicable volumes and percentage standards
for 2017 and the applicable volume for biomass-based diesel
for 2018. See Alon Ref. Krotz Springs, Inc. v. EPA, No. 161052, slip op. at 6–7 (D.C. Cir. Aug. 30, 2019) (deciding
related case Coffeyville Res. Ref. & Mktg., LLC v. EPA, No. 171044 (D.C. Cir. filed Feb. 9, 2017)).
II. Jurisdiction and Standards of Review
We have jurisdiction of a timely petition for review of the
EPA’s regulations implementing the Program. 42 U.S.C.
§ 7607(b)(1). We may reverse the EPA’s actions under the
Program if we find them to be “arbitrary, capricious, [or] an
abuse of discretion.” Id. § 7607(d)(9)(A). We will sustain the
EPA’s actions, however, so long as the agency “consider[ed]
all of the relevant factors and demonstrate[d] a reasonable
connection between the facts on the record and the resulting
policy choice.” Sierra Club v. Costle, 657 F.2d 298, 323 (D.C.
Cir. 1981). In conducting our review, we “give an ‘extreme
degree of deference’ to the EPA’s evaluation of ‘scientific data
within its technical expertise,’ especially where, as here, we
review the ‘EPA’s administration of the complicated
provisions of the Clean Air Act.’” Miss. Comm’n on Envtl.
Quality v. EPA, 790 F.3d 138, 150 (D.C. Cir. 2015) (per
curiam) (citation omitted) (first and second quoting City of

Page 14 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

15
Waukesha v. EPA, 320 F.3d 228, 247 (D.C. Cir. 2003) (per
curiam); then quoting Catawba Cty. v. EPA, 571 F.3d 20, 41
(D.C. Cir. 2009) (per curiam)).
We also may reverse an EPA action under the Program if
we determine that it is “otherwise not in accordance with law”
or “in excess of statutory jurisdiction, authority, or limitations,
or short of statutory right.” 42 U.S.C. § 7607(d)(9)(A), (C). The
court reviews the EPA’s interpretation of the Clean Air Act
under the familiar two-step framework formulated in Chevron,
U.S.A., Inc. v. Natural Resources Defense Council, Inc., 467
U.S. 837 (1984). Under Chevron, the court defers to the EPA’s
interpretation if the statutory text is ambiguous and the EPA’s
interpretation is reasonable. See id. at 842–45.
We proceed to apply these standards of review to each of
the claims raised in these consolidated cases. In Part III we
address arguments regarding the 2018 Rule’s applicable
volumes, including claims that the EPA erred both in
exercising its full cellulosic waiver authority and in declining
to exercise its general waiver authority. Next, in Part IV we
discuss challenges to the ways in which the EPA translates
applicable volumes into compliance obligations, specifically
its treatment of RINs generated by renewable fuel exports, its
definition of “obligated parties,” and its method for accounting
for small refinery exemptions when calculating percentage
standards. In Part V we deal with the claim that the EPA
violated the Regulatory Flexibility Act in promulgating the
2018 Rule. And finally, in Part VI we consider whether the
EPA violated the Endangered Species Act by failing to engage
in interagency consultation before issuing the 2018 Rule.
III. Applicable Volumes
We begin with the 2018 Rule’s applicable volumes. To
arrive at those requirements, the EPA proceeded through a

Page 15 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

16
series of interlocking steps. It began by projecting 288 million
gallons of cellulosic biofuel production in 2018—6.71 billion
gallons short of the Program’s 7-billion-gallon statutory
target—and exercised its mandatory waiver accordingly. See
2018 Rule, 82 Fed. Reg. at 58,492, 58,495–504. Next, after
estimating “reasonably attainable” volumes of other advanced
biofuels and considering “the costs and benefits associated
with” achieving those volumes, the EPA decided to exercise its
full cellulosic waiver authority to reduce advanced biofuel and
renewable fuel applicable volumes to 4.29 and 19.29 billion
gallons, respectively. Id. at 58,513. And finally, the EPA
considered but rejected using its general waiver authority,
concluding that neither “severe economic harm” nor
“inadequate domestic supply” warranted further reductions in
applicable volumes. Id. at 58,516–18.
Petitioners find fault in each of these steps. First, the
Obligated Parties argue that the EPA miscalculated its
projection of cellulosic biofuel production. Second, the
National Biodiesel Board contends that the EPA impermissibly
considered financial costs when deciding to set applicable
volumes of advanced biofuels below reasonably attainable
levels. And third, the Obligated Parties argue that, for various
reasons, the EPA unreasonably interpreted and refused to
exercise its general waiver authority. None of these challenges
has merit.
A. Liquid Cellulosic Biofuel Projection
In the 2018 Rule, the EPA projected that 288 million
gallons of cellulosic biofuel would be produced in 2018: the
sum of 274 million gallons of liquefied and compressed natural
gas and 14 million additional gallons of liquid cellulosic
biofuel. See 2018 Rule, 82 Fed. Reg. at 58,503 tbl.III.D.3-1.
Only this latter liquid estimate is at issue in this case.

Page 16 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

17
To arrive at its liquid cellulosic projection, the EPA
“use[d] the same general approach as . . . in previous years.”
Id. at 58,498. It began by sorting potential producers according
to whether they had previously “achieved consistent
commercial scale production” of liquid cellulosic biofuel. Id.
Then it defined two ranges “of likely production volumes for
2018,” one “for each group of companies.” Id. It set the low
end of each range at last year’s “actual RIN generation” (for
consistent producers) or zero (for new producers) and
estimated the high end of each range (for both groups) by
considering “a variety of factors,” including each facility’s
“expected start-up date,” “ramp-up period,” and “capacity.” Id.
at 58,499. And finally, the EPA selected what it calls a
“percentile value”—in simplified terms, a number somewhere
between the endpoints of each range—to extract “from the
established range[s] a single projected production volume for
each group of companies.” Id. at 58,498–99. The lower the
percentile value, the lower the resulting projection.
The Obligated Parties complain that by relying on this
percentile method, which has produced overestimations in the
past, the 2018 Rule “failed to correct chronic errors” in the
EPA’s liquid cellulosic biofuel projections. Obligated Parties
Br. 41. But the record reveals just the opposite. Recognizing
that its “estimates for liquid cellulosic biofuel exceeded actual
production of liquid cellulosic biofuel” in previous years, the
EPA adjusted its percentile values downward in the 2018 Rule
to “the percentile values that would have resulted in accurate
production projections” in 2016 and 2017. 2018 Rule, 82 Fed.
Reg. at 58,499–500. The result was the 10th percentile for new
producers and the 12th percentile for consistent producers,
down from the 25th and 50th percentiles, respectively, that the
EPA had used in 2016 and 2017. See id. at 58,500–01. The
2018 Rule, then, hardly presents “a situation in which [the]
EPA has arbitrarily refused to reconsider a projection

Page 17 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

18
methodology that has proven unsuccessful in the past.” Ams.
for Clean Energy, 864 F.3d at 728.
Given that the Obligated Parties offer no other grounds to
doubt the EPA’s liquid cellulosic biofuel projection
methodology, we conclude that the EPA’s estimate, as
required, “took a ‘neutral aim at accuracy’ and was otherwise
reasonable and reasonably explained.” Id. at 729 (quoting Am.
Petroleum Inst. v. EPA, 706 F.3d 474, 476 (D.C. Cir. 2013)).
B. Cellulosic Waiver
Having projected that only 288 million gallons of
cellulosic biofuel would be produced in 2018, the EPA did as
the Program requires and “reduce[d] the applicable volume of
cellulosic biofuel” from 7 billion gallons “to [that] projected
volume.” 42 U.S.C. § 7545(o)(7)(D)(i); see also 2018 Rule, 82
Fed. Reg. at 58,492 (explaining that the EPA was “setting the
cellulosic biofuel volume requirement at a level lower than the
statutory applicable volume”). The EPA then confronted the
question of whether to exercise its discretionary cellulosic
waiver. Put another way, given the absence of 6.71 billion
gallons of cellulosic biofuel that Congress had predicted would
help satisfy the Program’s overall 11-billion-gallon advanced
biofuel requirement, the EPA needed to decide whether to
“reduce the applicable volume” of the latter fuel type “by the
same or a lesser volume” as it had reduced the former. 42
U.S.C. § 7545(o)(7)(D)(i). The EPA analyzed this question in
two stages.
It began by considering what volumes of advanced
biofuels would be “reasonably attainable in 2018,” excluding
volumes whose attainment would result in the “diversion of
advanced feedstocks from other uses or diversion of advanced
biofuels from foreign sources.” 2018 Rule, 82 Fed. Reg. at
58,505. Based on an extensive analysis of various advanced

Page 18 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

19
biofuels (primarily imported sugarcane ethanol and advanced
biodiesel and renewable diesel), the EPA projected that in
addition to 288 million gallons of cellulosic biofuel, about 4.11
billion gallons of non-cellulosic advanced biofuels were
reasonably attainable. See id. at 58,513. Although less than the
statute’s 11-billion-gallon target, the EPA’s combined
4.4-billion projection, in a sense, exceeded statutory
expectations: while the Program implicitly requires 4 billion
gallons of non-cellulosic advanced biofuel (11 billion minus
7 billion), the EPA estimated that up to 4.11 billion gallons
could, in fact, be made available (110 million gallons above the
4-billion-gallon floor).
Next, the EPA had to decide whether to require those 110
million gallons of non-cellulosic advanced biofuels “to
partially backfill for”—i.e., compensate for—“missing
cellulosic volumes.” Id. at 58,505. Acknowledging that it had
mandated such backfilling in previous years, the EPA
nonetheless explained that, “as a result of a stronger policy
focus on the economic impacts of the RFS program,” it had
adopted in the 2018 Rule a “new approach to balancing
relevant considerations” that “plac[ed] a greater emphasis on
cost considerations.” Id. at 58,504, 58,513. The EPA
“present[ed] illustrative cost projections for . . . the two
advanced biofuels . . . most likely to provide the marginal
increase in volumes,” “sugarcane ethanol and soybean
biodiesel,” and estimated per-gallon marginal cost increases
ranging from $0.61 to $1.56 for the former (compared to
gasoline) and $0.95 to $1.30 for the latter (compared to diesel).
Id. at 58,513. “In light of these comparative costs,” the EPA
concluded, “it is reasonable to forgo the marginal benefit that
might be achieved by establishing the advanced biofuel
standard to require an additional 110 million gallons.” Id. In
the end, then, the EPA decided to exercise its full cellulosic
waiver authority to reduce the advanced biofuel applicable

Page 19 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

20
volume—and, by extension, the renewable fuel applicable
volume—by 6.71 billion gallons. See id. (explaining that the
EPA interprets “the cellulosic waiver provision . . . to provide
equal reductions in advanced biofuel and total renewable
fuel”).
The National Biodiesel Board argues that by taking cost
considerations into account, the EPA erred in exercising its full
cellulosic waiver. We disagree.
The Board first argues that the EPA “waive[d] the
advanced-biofuel volume solely to save obligated parties
money,” NBB Br. 23, and that in so doing, the 2018 Rule
“strayed too far” from the Program’s “market forcing” purpose,
id. at 21 (quoting Ams. for Clean Energy, 864 F.3d at 710).
Neither proposition is correct. To begin with, the EPA hardly
“[s]et[] the advanced-biofuel volume based entirely on costs.”
Id. To the contrary, in calculating the reasonably attainable
volume of advanced biofuels, the EPA analyzed many factors,
all of which justified a 6.6-billion-gallon reduction—and only
then did it rely on cost considerations to support an additional
110-million-gallon decrease. And the EPA’s decision to
consider costs fell well within its discretion. As this court
observed in Americans for Clean Energy, because “the text of
the cellulosic waiver provision does not direct [the] EPA to
‘consider particular factors,’” the “EPA enjoys broad
discretion” “to consider ‘a range of factors’ in determining
whether to exercise its cellulosic waiver authority.” 864 F.3d
at 734 (quoting Monroe Energy, 750 F.3d at 915–16). The
Board offers no persuasive reason to conclude that those
factors must exclude costs.
The Board next contends that the EPA failed to justify its
decision to abandon its former practice of requiring noncellulosic advanced biofuels to backfill for cellulosic deficits

Page 20 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

21
up to reasonably attainable levels. Under normal
circumstances, the 2018 Rule’s explanation would have been
perfectly sufficient: the EPA both “display[ed] awareness that
it [was] changing position” and offered “good reasons for the
new policy.” FCC v. Fox Television Stations, Inc., 556 U.S.
502, 515 (2009). The Board, however, argues that this is not
the typical case. Because the EPA’s prior practice of requiring
all reasonably attainable levels to be produced “engendered
serious reliance interests,” says the Board, the 2018 Rule was
required to “provide ‘a more detailed justification’” than usual.
NBB Br. 24 (quoting Fox Television Stations, 556 U.S. at
515)). According to the Board, the EPA failed to satisfy this
heightened requirement.
Again, we disagree. First, it is far from obvious that
renewable fuel producers possess the sort of reliance interests
that merit special consideration. Neither the statute nor the EPA
ever suggested that the Program’s statutory applicable volumes
would be enforced without modification. To the contrary, as
the EPA argues, annual volumes are “always dependent on a
variety of considerations,” including the “EPA’s projection of
the volume of cellulosic biofuel,” its “calculation of reasonably
attainable volumes,” and its decision regarding whether to
“exercise[] its other waiver authorities.” EPA Br. 28. And
second, even where “serious reliance interests” do exist, what
is required is not better reasons but rather more tailored
reasons. “[I]t is not that further justification is demanded by the
mere fact of policy change; but that a reasoned explanation is
needed for disregarding facts and circumstances that underlay
or were engendered by the prior policy.” Fox Television
Stations, 556 U.S. at 515–16. The EPA did just that in its 2018
Rule, which explains that the EPA declined to require
backfilling because, in its view, any “marginal benefit”
generated by the additional 110 million gallons of advanced
biofuel would be outweighed by their steep substitution costs.

Page 21 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

22
2018 Rule, 82 Fed. Reg. at 58,513. No further explanation was
required.
Finally, the Board suggests that the non-delegation
doctrine prohibits any interpretation of the EPA’s cellulosic
waiver authority broad enough to permit the EPA to consider
costs. This argument we easily reject. To satisfy the
constitutional requirement that “[a]ll legislative Powers . . .
shall be vested in . . . Congress,” U.S. Const. art. I, § 1, all that
is required “when Congress confers decisionmaking authority
upon agencies” is that it “lay down by legislative act an
intelligible principle to which the person or body authorized to
[act] is directed to conform,” Whitman v. Am. Trucking Ass’ns,
531 U.S. 457, 472 (2001) (alteration in original) (quoting J.W.
Hampton, Jr., & Co. v. United States, 276 U.S. 394, 409
(1928)). “Or in a related formulation, the Court has stated that
a delegation is permissible if Congress has made clear to the
delegee ‘the general policy’ he must pursue and the
‘boundaries of [his] authority.’” Gundy v. United States, 139 S.
Ct. 2116, 2129 (2019) (alteration in original) (quoting Am.
Power & Light Co. v. SEC, 329 U.S. 90, 105 (1946)). Congress
provided more than enough direction in the Program’s
cellulosic waiver provision, which constrains both when and to
what extent the EPA may reduce statutory applicable volumes:
only after projecting a cellulosic biofuel deficit and only by an
amount less than or equal to that projected shortfall. See 42
U.S.C. § 7545(o)(7)(D)(i) (stating that “[f]or any calendar year
in which the Administrator makes . . . a reduction” in the
applicable volume for cellulosic biofuel based on a projected
shortfall, “the Administrator may also reduce the applicable
volume of renewable fuel and advanced biofuels requirement
established under paragraph (2)(B) by the same or a lesser
volume”).

Page 22 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

23
C. General Waiver
After reducing applicable volumes of cellulosic biofuel,
advanced biofuel, and renewable fuel by the amount of the
cellulosic shortfall, the EPA then considered whether “severe[]
harm [to] the economy or environment” or “an inadequate
domestic supply” existed such that further reductions were
justified. 42 U.S.C. § 7545(o)(7)(A). Answering those
inquiries in the negative, the EPA declined to exercise its
general waiver. The Obligated Parties now raise various
challenges to that decision, and we consider each in turn.
1.

Sequencing the Cellulosic and General Waivers

Before addressing the particulars of the EPA’s general
waiver determination, the Obligated Parties make an
antecedent argument: that the EPA began its analysis at the
wrong baseline. They ground their contention in the Program’s
general waiver provision, which states that the EPA “may
waive the requirements of paragraph (2)”—that is, the statutory
applicable volumes—“by reducing the national quantity of
renewable fuel required under paragraph (2).” 42 U.S.C.
§ 7545(o)(7)(A). According to the Obligated Parties, this
language requires the “EPA to consider whether domestic
supply would be inadequate to meet statutorily-specified
volumes . . . and whether meeting those volume requirements
would trigger severe economic harm.” Obligated Parties Br.
22. In other words, the Obligated Parties argue that instead of
considering whether to “further reduc[e]” applicable volumes
after exercising its cellulosic waiver, 2018 Rule, 82 Fed. Reg.
at 58,516, the EPA should have conducted its general waiver
analysis as if the cellulosic waiver had never happened.
The Obligated Parties ask too much. As an initial matter,
the statute is at least ambiguous when it comes to sequencing
the cellulosic and general waivers. Both provisions grant the

Page 23 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

24
EPA authority to “waive” or “reduce” the applicable volumes
established by “paragraph (2),” but neither provision indicates
what the EPA should do if, as here, it has already decided to
reduce those volumes. 42 U.S.C. § 7545(o)(7)(A) (the EPA
may use the general waiver to “waive the requirements of
paragraph (2) . . . by reducing the national quantity of
renewable fuel required under paragraph (2)”); id.
§ 7545(o)(7)(D) (the EPA may use the cellulosic waiver to
“reduce the applicable volume of renewable fuel and advanced
biofuels requirement established under paragraph (2)(B)”).
Consequently, because “Congress has not directly
addressed the precise question at issue,” we need determine
only “whether the agency’s answer is based on a permissible
construction of the statute.” Chevron, 467 U.S. at 843. And
indeed it is. Not only is it reasonable to interpret one waiver
authority as reducing paragraph (2)’s volumes for purposes of
the other waiver authority, but, as the EPA points out, “[t]here
is no logical reason why [the agency] should base its waiver
decision” on hypothetical volumes “that will not actually be
implemented . . . because they have been reduced.” EPA Br.
37. We have no basis, therefore, for overriding the EPA’s
reasonable interpretation of the Program’s text with a
requirement—cumbersome at best and absurd at worst—that
the EPA conduct counterfactual analyses of scenarios it has
already rejected.
2.

Severe Economic Harm

We turn, then, to the EPA’s examination of whether the
2018 Rule’s applicable volumes as reduced by the cellulosic
waiver “would severely harm the economy . . . of a State, a
region, or the United States.” 42 U.S.C. § 7545(o)(7)(A)(i).
The EPA concluded no, and the Obligated Parties now raise
two objections: one interpretive, the other analytical.

Page 24 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

25
The Obligated Parties first take issue with the EPA’s
interpretation of the requisite causal link between applicable
volumes, on the one hand, and severe harm to the economy, on
the other. The EPA interprets the general waiver provision “as
requiring a demonstration that implementation of the RFS
Program itself would cause severe economic harm (as opposed
to allowing a waiver if severe economic harm were
demonstrated for any reason, or if the RFS merely contributed
to severe harm).” Memorandum from David Korotney, Office
of Transp. and Air Quality, EPA, to Docket EPA-HQ-OAR2017-0091, Assessment of Waivers for Severe Economic Harm
or BBD Prices for 2018, at 15 (Nov. 30, 2017) (“Assessment
of Waivers”), J.A. 1051. The Obligated Parties argue that by
“requir[ing] proof that a single market factor—RFS volume
requirements—is the sole cause of the harm,” the EPA has
ensured that its test will almost never be met. Obligated Parties
Br. 25.
The EPA has set a high bar, to be sure, but we disagree
with the Obligated Parties’ assertion that the bar is so high as
to be unreasonable. At bottom, this dispute comes down to an
interpretation of the phrase “would severely harm the
economy.” 42 U.S.C. § 7545(o)(7)(A)(i). The degree of
causation required by that text is an open question, and
although “agencies must operate within the bounds of
reasonable interpretation” of even ambiguous statutory
phrases, Util. Air Regulatory Grp. v. EPA, 573 U.S. 302, 321
(2014) (internal quotation marks omitted), courts, by the same
token, “may not substitute [their] own construction of a
statutory provision for a reasonable interpretation made by the
administrator of an agency,” Chevron, 467 U.S. at 844. The
EPA argues that in the Program, Congress intentionally “set a
high threshold” for an economic-harm determination by
“requiring . . . direct causation and a high degree of
confidence.” EPA Br. 41. And indeed, this court has previously

Page 25 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

26
observed that “Congress intended the . . . Program to be . . .
market forcing.” Ams. for Clean Energy, 864 F.3d at 705
(internal quotation marks omitted). Accordingly, we cannot
now fault the EPA for declining to reduce applicable volumes
below statutory levels absent some clearly and causally
demonstrable harm. That EPA’s interpretation is stringent
hardly makes it unreasonable.
As to the Obligated Parties’ analytical objection, they
question whether the EPA provided adequate reasons for its
determination that “further reductions” of applicable volumes
“on the basis of severe economic harm” were not “warranted.”
2018 Rule, 82 Fed. Reg. at 58,518. To reach this conclusion,
the EPA first acknowledged various comments regarding the
2018 Rule’s financial “impacts on specific companies” but
explained that “statements generally claiming financial
difficulties, potential for closure, and the high cost of RIN
purchases alone” failed to support a determination “that severe
economic harm to a State, a region, or the United States [was]
occurring.” Assessment of Waivers 5, J.A. 1041. Then,
observing “that the 2018 volumes generated through the
maximum reduction permitted under the cellulosic waiver
authority are nearly the same as the volume requirements for
2017,” the EPA explained that it would, in effect, use 2017 as
a test case by considering both “[w]hether severe economic
harm ha[d] occurred . . . in 2017, and . . . whether the economic
conditions in 2018 might be expected to be substantially
different than those in 2017.” 2018 Rule, 82 Fed. Reg. at
58,518. Based on its assessment of “market overcompliance,
retail fuel prices, fuel supply, crop prices, and refinery
closures” in recent years along with “crop-based feedstock
futures prices” and “projected gasoline demand” for 2018, the
EPA concluded that the 2017 requirements had not “caus[ed]
severe economic harm to a State, a region, or the United States”
and that “market conditions in 2018” were unlikely “to cause

Page 26 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

27
compliance with the applicable standards to have a higher
potential for severe economic harm than in 2017.” Assessment
of Waivers 14–15, J.A. 1050–51.
With this analysis, the EPA sufficiently “examine[d] the
relevant data and articulate[d] a satisfactory explanation for its
action.” Motor Vehicle Mfrs. Ass’n v. State Farm Mut. Auto.
Ins. Co., 463 U.S. 29, 43 (1983). Although the EPA declined
to conduct a state-by-state or region-by-region analysis, “an
agency need not—indeed cannot—base its every action upon
empirical data; depending upon the nature of the problem, an
agency may be ‘entitled to conduct . . . a general analysis based
on informed conjecture.’” Chamber of Commerce v. SEC, 412
F.3d 133, 142 (D.C. Cir. 2005) (alteration in original) (quoting
Melcher v. FCC, 134 F.3d 1143, 1158 (D.C. Cir. 1998)). Here,
based on “the limited time available” to conduct its analysis,
“the lack of clear evidence of severe economic harm provided
in comments,” and its ability to “grant waivers . . . during the
compliance year should sufficient evidence become available,”
the EPA reasonably elected to begin with “a high-level
investigation of a number of broad economic indicators” to see
if they “provide[d] evidence of possible severe economic harm
that would justify further EPA investigation.” Assessment of
Waivers 7, J.A. 1043. The EPA then reasonably concluded that
they did not. See id.
The Obligated Parties nonetheless argue that the EPA
erred by “ignor[ing] actual data regarding state and regional
economic jeopardy.” Obligated Parties Br. 29 (emphasis
omitted). For this claim, they cite two facts: first, that “the
largest refiner on the East Coast” declared bankruptcy after the
2018 Rule went into effect, portending, in the Obligated
Parties’ view, additional “refinery shutdowns,” Obligated
Parties Reply Br. 12, 15; and second, that RIN costs are

Page 27 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

28
“escalating” and, in the Obligated Parties’ estimation, not
easily passed on to consumers, Obligated Parties Br. 29.
But the EPA did, in fact, address this purported evidence
of economic harm. As to threatened refinery closures, the EPA
noted that the commenting refineries lacked “any concrete
evidence that their financial difficulties are caused primarily or
even significantly by the RFS program.” Assessment of
Waivers 5, J.A. 1041. And as to compliance costs, the EPA
explained that the refineries had failed to show “why they
cannot recoup the cost of RINs through higher prices of their
products.” 2018 Rule, 82 Fed. Reg. at 58,517. Although the
Obligated Parties may disagree with the EPA’s analysis, they
have fallen far short of showing that the EPA either “entirely
failed to consider an important aspect of the problem” or
“offered an explanation for its decision that runs counter to the
evidence before the agency, or is so implausible that it could
not be ascribed to a difference in view or the product of agency
expertise.” Motor Vehicle Mfrs. Ass’n, 463 U.S. at 43. Mindful
that we may not “substitute [our] judgment for that of the
agency,” id., we conclude that the EPA did not act arbitrarily
and capriciously in declining to exercise the economic-harm
prong of its general waiver authority.
3.

Inadequate Domestic Supply

The Obligated Parties also take issue with the EPA’s
failure to exercise the general waiver “based on a
determination . . . that there is an inadequate domestic supply.”
42 U.S.C. § 7545(o)(7)(A)(ii). The dispute turns on the
meaning of the phrase “domestic supply”: the Obligated Parties
argue that it includes only fuel produced domestically, while
the EPA, at least until the 2018 Rule, had interpreted the term
to include any fuel available domestically, including imports.
See Supplemental Information, 82 Fed. Reg. at 46,177 (noting
that the EPA had previously considered “biofuel imports as

Page 28 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

29
part of the domestic supply”). But recently the EPA’s
enthusiasm for its imports-inclusive interpretation has turned
tepid. In its October 2017 Supplemental Information, the EPA
sought comments on whether to adopt a production-only
interpretation under which the agency would continue to
“consider the availability of imports . . . in determining
whether to exercise its discretion to use the waiver authority,”
but only after “ma[king] the threshold finding that there was an
inadequate domestic supply” of fuel produced in the United
States and, even then, only “as one factor among others.” Id. at
46,178.
After dipping its toe into the water, however, the EPA
waded no further. Instead, the final 2018 Rule analyzed each
category of fuel under both a production-only and an importsinclusive interpretation of “domestic supply.” Concluding that
“a waiver is not warranted” “[u]nder either approach,” the EPA
adopted neither definition—in effect, deciding not to decide.
2018 Rule, 82 Fed. Reg. at 58,516. Its analysis proceeded as
follows.
The EPA began by discussing the supply of “nonadvanced” renewable fuel—primarily corn ethanol—that could
fill the 15-billion-gallon gap between the Program’s
requirement of 11 billion gallons of advanced biofuel (4.29
after the cellulosic waiver) and 26 billion gallons of total
renewable fuel (19.29 after the cellulosic waiver). 2018 Rule,
82 Fed. Reg. at 58,516–17. Explaining that “the total domestic
production capacity of corn ethanol in the [United States] is
about 16 billion gallons” and that “total production . . . in 2016
exceeded 15 billion gallons,” the EPA concluded the market
could supply sufficient “conventional renewable fuel” with or
without imports. Id. at 58,517.

Page 29 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

30
Turning next to cellulosic biofuel, the EPA explained that
286 million gallons of its 288-million-gallon projection was
“expected to come from domestic sources” and that pre-2018
“carryover cellulosic biofuel RINs” were available to facilitate
“additional compliance flexibility.” Id. “Given the importance
that Congress placed on the growth of cellulosic biofuel
volumes” and the 2018 Rule’s “projection that compliance with
a 288 million gallon requirement is feasible,” the EPA decided
it “would not exercise its discretion to lower the 288 million
gallon projected cellulosic biofuel volume by 2 million gallons
even if [it] were to interpret the term ‘domestic supply’ to
exclude imported volumes.” Id.
That left only non-cellulosic advanced biofuel. Having
already determined that 4.11 billion gallons (4.4 billion minus
288 million) was “reasonably attainable,” the EPA dismissed
any concern that there would be an “inadequate domestic
supply” of advanced biofuel under an imports-inclusive
interpretation. See id. at 58,516. But, as the EPA
acknowledged, a production-only interpretation presented a
closer question. The EPA observed that “a significant portion
of the advanced biofuel available in previous years has been
from imported biofuels,” and it noted comments “suggest[ing]
that, without imported volumes, the domestic industry could
not ramp up production quickly enough to compensate for the
exclusion of imports from our analysis.” Id. at 58,517. The
2018 Rule, however, also highlighted comments to the
contrary. “Some commenters pointed to total domestic
production capacity and feedstock availability,” the EPA
explained, “to argue that domestic producers are capable of
compensating for volumes that would not be provided through
imports.” Id. Faced with this “uncertainty,” the EPA concluded
that based on “the distinct possibility that the domestic industry
could compensate for exclusion of imports” and “the
availability of imported volumes and carryover RINs,” it

Page 30 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

31
“would not choose to exercise its authority to grant a waiver on
the basis of inadequate domestic supply for 2018 even if it
interpreted the term ‘domestic supply’ to exclude imports.” Id.
This belt-and-suspenders approach, though perhaps not
maximally efficient, relieved the EPA of any obligation to
choose conclusively one interpretation of “domestic supply”
over the other. To be sure, “an agency rule would be arbitrary
and capricious if the agency . . . entirely failed to consider an
important aspect of the problem.” Motor Vehicle Mfrs. Ass’n,
463 U.S. at 43. But by explaining that it would decline to
exercise its general waiver under either a production-only or
imports-inclusive interpretation, the EPA made that choice
itself unimportant. And because the EPA sufficiently
“acknowledge[d] factual uncertainties and identif[ied] the
considerations it found persuasive” with respect to each of its
alternative analyses, we find no fault in the substance of the
2018 Rule’s “predictive judgments” about the adequacy of
domestic supply. Rural Cellular Ass’n v. FCC, 588 F.3d 1095,
1105 (D.C. Cir. 2009).
Nor are we persuaded by the Obligated Parties’ contention
that the imports-inclusive option would have “impermissibly
twisted the [Program’s] statutory language.” Obligated Parties
Br. 32. Implied by the Obligated Parties’ interpretive argument
is a bold assertion: that the EPA could have acted arbitrarily
and capriciously by merely contemplating, without adopting,
an erroneous interpretation of the statutory text. But even
assuming that premise, we conclude that the EPA permissibly
considered what would have been a reasonable interpretation
of an ambiguous statutory phrase. Indeed, this court has
previously offered “import capacity” as an example of the sorts
of “supply-side factors” that the “‘inadequate domestic supply’
provision authorizes [the] EPA to consider” when “examining
whether the supply of renewable fuel is adequate.” Ams. for

Page 31 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

32
Clean Energy, 864 F.3d at 710. We can hardly blame the EPA
for permitting itself to consider whether this court spoke
accurately. See Supplemental Notice, at 46,178 & n.19
(explaining the EPA’s view that “the court’s statements,” while
“dicta,” “may indicate the scope of permissible, but not
required, interpretations”).
In conclusion, even though the EPA declined to interpret
“inadequate domestic supply,” its refusal to exercise the
domestic-supply prong of its general waiver authority was
nonetheless “the product of reasoned decisionmaking.” Motor
Vehicle Mfrs. Ass’n, 463 U.S. at 52. We reject the Obligated
Parties’ contrary arguments.
4.

Ethanol Projection

Before moving away from the EPA’s general waiver
analysis, we must address one final point: the Obligated
Parties’ argument that the EPA failed to produce a wellreasoned estimate of attainable ethanol production, thus
making “its final volume determinations . . . arbitrary and
capricious.” Obligated Parties Br. 41; see also Oral Arg. Tr. 8–
9 (conceding that any errors in the EPA’s ethanol projection
could affect only the general waiver, as the EPA exercised in
full its cellulosic waiver).
The Obligated Parties misapprehend the EPA’s ultimate
task. The Program imposes no free-floating obligation on the
EPA to estimate “the reasonably attainable supply of ethanol.”
Obligated Parties Br. 37. Nor does it permit, much less require,
the EPA to craft applicable volumes of any fuel from scratch.
Instead, the statute establishes applicable volumes—in 2018,
26 billion gallons of renewable fuel, no more than 15 gallons
of it “non-advanced,” see 42 U.S.C. § 7545(o)(2)(B)(i)—and
permits the EPA to “waive [those] requirements” only if the
Administrator determines that the statutory mandates “would

Page 32 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

33
severely harm the economy or environment” or “that there is
an inadequate domestic supply,” id. § 7545(o)(7)(A). As we
have explained before, “[n]othing in the text of . . . the
[Program] plainly requires [the] EPA to support its decision”
against exercising the general waiver “with specific numerical
projections.” Am. Petroleum Inst., 706 F.3d at 481. “Certainly
[the] EPA must provide a reasoned explanation for its actions,
but rationality does not always imply a high degree of
quantitative specificity.” Id.
The 2018 Rule’s explanation is more than satisfactory.
Citing the Renewable Fuels Association’s “2017 Ethanol
Industry Outlook,” the EPA explained that the U.S. market had
the capacity to produce “about 16 billion gallons” of corn
ethanol and had in fact produced some 15.25 billion gallons in
2016. 2018 Rule, 82 Fed. Reg. at 58,517 & n.135. The EPA
further supplied a lengthy memorandum analyzing “various
conditions and constraints in the marketplace . . . for the two
most prominent biofuels, ethanol and biodiesel.”
Memorandum from David Korotney, Office of Transp. and Air
Quality, EPA, to Docket EPA-HQ-OAR-2017-0091, Market
Impacts of Biofuels 1 (Nov. 27, 2017), J.A. 1180. “[B]ased
both on levels achieved in the past and” predictions regarding
“how the market might respond to the applicable standards,”
the EPA offered “a range of possible outcomes with varying
levels of [ethanol blends], imported sugarcane ethanol,
advanced biodiesel and renewable diesel, and conventional
biodiesel and renewable diesel,” all of which would satisfy the
(post-cellulosic waiver) “total renewable fuel and advanced
biofuel volume requirements of 19.29 and 4.29 billion gallons,
respectively.” Id. at 11, J.A. 1190. This analysis provided more
than enough support for the EPA’s determination that neither
inadequate supply nor economic harm warranted use of the
general waiver.

Page 33 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

34
D. 2019 Biomass-Based Diesel Applicable Volume
In addition to establishing renewable fuel obligations for
cellulosic biofuel, advanced biofuel, and renewable fuel for
calendar year 2018, the 2018 Rule also finalized the biomassbased diesel applicable volume for 2019—a year for which the
Program lists no statutory applicable volume. See 2018 Rule,
82 Fed. Reg. at 58,518–22. Following the same “approach [it
used] in setting the final [biomass-based diesel] volume
requirement for 2018,” the EPA decided to maintain the
biomass-based diesel requirement at 2.1 billion gallons, the
same as in 2018. Id. at 58,522. Central to the EPA’s analysis
was its assessment that because “RIN generation data has
consistently demonstrated that the advanced biofuel volume
requirement . . . [is] capable of incentivizing the supply of
[biomass-based diesel] above and beyond the [biomass-based
diesel] volume requirement,” “the 2019 advanced volume
requirement”—not the biomass-based diesel requirement—
would drive “the level of [biomass-based diesel] production
and imports that occur in 2019.” Id. at 58,521–22. In other
words, the EPA determined that while its biomass-based diesel
requirement might set a floor on production, it would hardly
impose a ceiling. The EPA therefore concluded that a
2.1-billion-gallon requirement would “strike[] the appropriate
balance between” “maintaining support for the [biomass-based
diesel] industry” and “providing a market environment where
the development of other advanced biofuels is incentivized.”
Id.
The National Biodiesel Board argues that by considering
“the future, then-not-set 2019 advanced-biofuel volume,” the
EPA impermissibly “bas[ed] the 2019 [biomass-based diesel]
volume on a factor” absent from the statute’s enumerated list.
NBB Br. 28; see also 42 U.S.C. § 7545(o)(2)(B)(ii), (v)
(requiring that applicable volumes should be established
“based on a review of the implementation of the program

Page 34 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

35
during” previous years and on “an analysis of” six other
factors). We need not, however, linger long on this argument,
as it has been resolved by this court’s decision in Alon Refining.
See slip op. at 65. Therefore, we deny the Board’s petition.
IV. Other Facets of the Program
The Obligated Parties and the National Biodiesel Board
also challenge three of the EPA’s regulations implementing the
Program. The Obligated Parties contend that the EPA, as part
of the 2018 rulemaking process, should have reconsidered both
its RIN policy for renewable fuel exports and its definition of
“obligated party.” The National Biodiesel Board, in turn,
argues that the EPA should have accounted for retroactively
granted small refinery exemptions in calculating percentage
standards. As explained below, the Obligated Parties’
challenges are untimely and the National Biodiesel Board’s
challenge was not preserved.
A. The EPA’s RIN Policy for Renewable Fuel Exports
Under the EPA’s current regulations, obligated parties
cannot use RINs generated from renewable fuel that is later
exported from the United States to satisfy their renewable fuel
obligations under the Program. See 40 C.F.R. § 80.1430.
Instead, exporters must use those RINs to offset their own
Exporter Renewable Volume Obligation. Id. During the 2018
rulemaking process, several parties submitted comments
asking the EPA to remove the Exporter Renewable Volume
Obligation. Rather than address the substance of these
comments, the EPA stated: “These comments are all beyond
the scope of this rulemaking as EPA did not propose any
changes to the overall structure of the RFS program or
otherwise seek comment on these issues.” Response to
Comments 223, J.A. 1446. The Obligated Parties now argue
that the EPA acted arbitrarily and capriciously in refusing to

Page 35 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

36
engage with comments regarding renewable fuel exports for
two reasons: first, because those comments were within the
scope of the EPA’s Proposed Rule and Supplemental
Information and second, because the EPA’s obligation to make
a reasoned decision required it to reevaluate its RIN policy for
renewable fuel exports as part of the 2018 rulemaking.
The EPA correctly dismissed comments regarding its RIN
policy for renewable fuel exports as outside the scope of the
2018 Rule. In the Proposed Rule, the EPA delineated those
issues for which it was—and was not—soliciting comment:
“EPA is not soliciting comment on any aspect of the current
RFS regulatory program other than those specifically related to
RIN trading . . . and the proposed annual standards for 2018
and biomass-based diesel applicable volume for 2019.”
Proposed Rule, 82 Fed. Reg. at 34,211. The Obligated Parties
do not dispute that the EPA’s RIN policy for renewable fuel
exports falls outside these enumerated subjects for comment.
Instead, the Obligated Parties point to five other statements in
the Proposed Rule and Supplemental Information that they
argue brought the EPA’s RIN policy for renewable fuel exports
within the scope of the rulemaking: (1) the EPA’s
acknowledgment that “[r]eal-world challenges” have rendered
unattainable congressional goals for the production of most
categories of renewable fuel, id. at 34,207; (2) the EPA’s
observation that the variable volume of annual renewable fuel
imports and exports “affect[s] the price of renewable fuel,”
Supplemental Information, 82 Fed. Reg. at 46,176; (3) the
EPA’s concern that increasing reliance on renewable fuel
imports may jeopardize energy independence and security,
Proposed Rule, 82 Fed. Reg. at 34,212; (4) the EPA’s
affirmance of the importance of maintaining the liquidity of the
RIN market by maintaining an “adequate RIN bank,” id. at
34,213; and (5) the EPA’s requests for comments “on all
aspects of this proposal” and “any aspect of this rulemaking,”

Page 36 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

37
id. at 34,242. It is not clear that these statements, on their face,
open the EPA’s RIN policy for renewable fuel exports for
comment. Whatever the potential meaning of these statements
in isolation, the Proposed Rule’s express limitation of the
subjects on which the EPA was soliciting comment
unambiguously communicates its decision not to solicit
comment on its RIN policy for renewable fuel exports.
Accordingly, we find no error in the EPA’s treatment of
comments requesting that it reconsider its RIN policy for
renewable fuel exports as outside the scope of the 2018
rulemaking.
Because comments regarding the EPA’s RIN policy for
exported renewable fuel were outside the scope of the 2018
rulemaking, we lack jurisdiction to consider the Obligated
Parties’ instant challenge to the policy. Generally, “[a] petition
for review of action of [the EPA] in promulgating . . . any
control or prohibition under [the Program] . . . shall be filed
within sixty days from the date notice of such promulgation,
approval, or action appears in the Federal Register.” 42 U.S.C.
§ 7607(b)(1). Section 7607(b)(1)’s sixty-day filing deadline is
jurisdictional. See Sierra Club v. EPA, 895 F.3d 1, 16 (D.C.
Cir. 2018). Here, the EPA promulgated its current version of
its regulation governing renewable fuel exports in 2014. See
RFS Renewable Identification Number (RIN) Quality
Assurance Program, 79 Fed. Reg. 42,078, 42,115 (July 18,
2014). The Obligated Parties filed their first petition in this case
more than three years later—well outside the statutory sixtyday filing period. Although a party may file an otherwise
untimely petition challenging a regulation if the promulgating
agency subsequently expressly or constructively “reopens” the
issue, Nat. Res. Def. Council v. EPA, 571 F.3d 1245, 1265
(D.C. Cir. 2009) (per curiam), our conclusion that comments
regarding the EPA’s RIN policy for renewable fuel exports
were outside the scope of the 2018 rulemaking forecloses the

Page 37 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

38
claim that the EPA reopened the issue. We therefore lack
jurisdiction to consider the Obligated Parties’ challenge to the
EPA’s current rule preventing refineries and importers of
renewable fuel from using RINs from renewable fuel later
exported to discharge their renewable fuel obligations.
In an apparent attempt avoid the sixty-day filing period,
the Obligated Parties argue that the EPA acted arbitrarily and
capriciously by failing even to reconsider its RIN policy for
renewable fuel exports. According to the Obligated Parties,
altering that policy is a significant alternative that the EPA
should have considered when settling on the 2018 Rule’s
applicable volumes and percentage standards. Although an
agency must consider comments “relevant to the agency’s
decision and which, if adopted, would require a change in an
agency’s proposed rule,” it “does not have to ‘make progress
on every front before it can make progress on any front.’” Nat’l
Mining Ass’n v. MSHA, 116 F.3d 520, 549 (D.C. Cir. 1997)
(per curiam) (first quoting Home Box Office, Inc. v. FCC, 567
F.2d 9, 35 n.58 (D.C. Cir. 1977) (per curiam); then quoting
Pers. Watercraft Indus. Ass’n v. Dep’t of Commerce, 48 F.3d
540, 544 (D.C. Cir. 1995)). Here, the Obligated Parties have
not explained how a change in the EPA’s RIN policy for
renewable fuel exports would have required the agency also to
change its proposed applicable volumes and percentage
standards. Therefore, the EPA could, without acting arbitrarily
and capriciously, take the discrete action of establishing annual
applicable volumes and percentage standards under the
Program while declining to reconsider its RIN policy for
renewable fuel exports.
B. The EPA’s Definition of “Obligated Party”
The Clean Air Act gives the EPA some leeway in
determining which parties in the transportation fuel industry
must comply with the Program’s percentage standards. The Act

Page 38 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

39
provides that renewable fuel obligations “shall . . . be
applicable to refineries, blenders, and importers, as
appropriate.” 42 U.S.C. § 7545(o)(3)(B)(ii)(I) (emphasis
added). Exercising its discretion under the statute, the EPA has
long declined to obligate blenders. See 40 C.F.R.
§ 80.1406(a)(1). Refineries and importers have repeatedly
objected to the EPA’s decision not to require blenders to help
shoulder the Program’s regulatory burden, including in
comments to the 2018 Rule. The EPA, however, dismissed
those comments as outside the scope of the rulemaking.
There is no doubt that the EPA is correct that comments
regarding the agency’s “obligated party” definition fell outside
the scope of the 2018 rulemaking. In the Proposed Rule, the
EPA expressly declared that it was not reopening the issue:
“EPA is not re-opening for public comment in this rulemaking
the current definition of ‘obligated party.’” Proposed Rule, 82
Fed. Reg. at 34,211. Because the EPA did not reopen the issue,
the Obligated Parties’ challenge to the EPA’s rule is untimely
by over seven years, see Regulation of Fuels and Fuel
Additives: Modifications to Renewable Fuel Standard
Program, 75 Fed. Reg. 26,026, 26,037 (May 10, 2010), and we
therefore lack jurisdiction to review the limited reach of the
EPA’s regulations obligating only refineries and importers of
transportation fuel, see Sierra Club, 895 F.3d at 16.
The Obligated Parties, however, again attempt to side-step
the sixty-day filing requirement by arguing that the EPA acted
contrary to the Clean Air Act as well as arbitrarily and
capriciously by declining to reconsider its definition of
“obligated party” in promulgating the annual applicable
volumes and percentage standards in the 2018 Rule. We need
not consider this argument because this court’s recent decision
in Alon Refining resolves the issue. See slip op. at 53.

Page 39 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

40
C. The EPA’s Method of Accounting for Small Refinery
Exemptions
After establishing the applicable volumes for a particular
year, the EPA translates those volumes into percentage
standards by dividing the applicable renewable fuel volumes
by the total volume of transportation fuel expected to be sold
in the United States in that year. See 42 U.S.C.
§ 7545(o)(3)(B)(ii)(II); 40 C.F.R. § 80.1405(c). Thus, if every
obligated party incorporates the required percentage of
renewable fuel into the gasoline and diesel it sells, the
transportation fuel industry as a whole will achieve the
established applicable volumes. As noted above, however, the
Program requires the EPA to exempt from compliance small
refineries experiencing disproportionate economic hardship in
complying with their renewable fuel obligations. 42 U.S.C.
§ 7545(o)(9). By permitting some obligated parties to
incorporate less renewable fuel into the gasoline and diesel
they sell, small refinery exemptions can impede attainment of
overall applicable volumes. To avoid such a shortfall, the EPA
raises the percentage standard for non-exempt parties in a given
year by subtracting from its calculations the transportation fuel
contributions of small refineries that were granted exemptions
before the EPA established the percentage standard for that
year. See 40 C.F.R. § 80.1405(c).
This solution, however, is only partial: the EPA does not
currently account for small refinery exemptions granted after it
promulgates percentage standards for that year—so-called
retroactive exemptions. To address any deficiency in its current
approach, the EPA solicited comment on how it should account
for small refinery exemptions in its calculation of the 2018
percentage standards. Proposed Rule, 82 Fed. Reg. at 34,241–
42. The EPA ultimately maintained its previous policy of
adjusting fuel percentages for exemptions granted before the
percentage standards are promulgated but not for exemptions

Page 40 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

41
granted after. 2018 Rule, 82 Fed. Reg. at 58,523.
The National Biodiesel Board challenges the EPA’s
decision to retain its policy of disregarding retroactive small
refinery exemptions as failing to “ensure[]” that obligated
parties’ renewable fuel contributions achieve total applicable
volumes pursuant to 42 U.S.C. section 7545(o)(3)(B)(i). The
Board argues that the EPA should have adopted a policy
whereby it (1) adjusts the final percentage standards ex ante to
account “for small-refinery exemptions [the EPA] is
reasonably likely to grant after promulgating the standards”
and (2) corrects any deficiencies resulting from exemptions
actually granted ex post by “increasing later years’ standards.”
NBB Br. 18.
The Board, however, did not make its current challenge
during the 2018 rulemaking. Under the Clean Air Act, “[o]nly
an objection to a rule or procedure which was raised with
reasonable specificity during the period for public comment . . .
may be raised during judicial review.” 42 U.S.C.
§ 7607(d)(7)(B). “The court enforces this provision ‘strictly’ to
ensure that [the] EPA has an opportunity to respond to every
challenge” and so that “the court enjoys the benefit of the
agency’s expertise and possibly avoids addressing some of the
challenges unnecessarily.” Motor & Equip. Mfrs. Ass’n v.
Nichols, 142 F.3d 449, 462 (D.C. Cir. 1998) (citation omitted)
(quoting Nat. Res. Def. Council v. Thomas, 805 F.2d 410, 427
(D.C. Cir. 1986)). “[A]lthough we allow commenters ‘some
leeway in developing their argument before this court,’ the
comment must have provided ‘adequate notification of the
general substance of the complaint.’” Nat. Res. Def. Council,
571 F.3d at 1259 (quoting S. Coast Air Quality Mgmt. Dist. v.
EPA, 472 F.3d 882, 891 (D.C. Cir. 2006)).
The Board identifies two sets of comments it claims

Page 41 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

42
preserved its current challenge, but both failed to give
“adequate notification of the general substance” of the Board’s
current proposal. Id. In one set of comments, the American
Petroleum Institute suggested that the EPA cease granting
retroactive exemptions altogether. In a similar vein, the other
set of comments by BP Products of North America asked the
EPA to cease granting retroactive exemptions or, in the
alternative, to adjust applicable volumes after the standards are
promulgated to account for any retroactive exemptions. The
Board’s offered solutions are significantly different from these
proposals—the Board does not ask the EPA to cease granting
retroactive exemptions or to adjust the applicable volumes for
the same year in which the retroactive exemptions are later
granted. Rather, the Board suggests that the EPA should
project the number of retroactive exemptions it expects to grant
when calculating percentage standards or should adjust the
following year’s applicable volumes to account for any
shortfall resulting from the grant of retroactive exemptions.
The comments submitted to the EPA therefore did not raise the
Board’s current proposals with “reasonable specificity,” 42
U.S.C. § 7607(d)(7)(B), leaving the EPA no opportunity to
respond to the Board’s challenge and burdening this court with
potentially unnecessary challenges, see Motor & Equip. Mfrs.
Ass’n, 142 F.3d at 462.
At oral argument, the Board acknowledged that neither of
its proposals “specifically was in front of the Agency” but
claimed that they are merely “alternative proposals” and that
the Board “d[oes] not have a specific proposal” that the EPA
must adopt. Oral Arg. Tr. 64, 66. Instead, the Board argued that
“the Court should tell EPA that its duty to ensure requires it to
do something, and then send [the 2018 Rule] back to the
Agency for the Agency to decide what that something is.” Oral
Arg. Tr. 65–66. Regardless whether we can vacate the 2018
Rule due to the EPA’s failure to do an unspecified

Page 42 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

43
“something,” the Board did not make this argument in its briefs
and has therefore forfeited the issue. See Elec. Privacy Info.
Ctr. v. Presidential Advisory Comm’n on Election Integrity,
878 F.3d 371, 379 n.6 (D.C. Cir. 2017).
As a fallback, the Board argues that the EPA’s policy
regarding small refinery exemptions is a “vital assumption”
underlying the 2018 Rule and therefore no comment was
necessary to preserve its current challenge. Under the “key
assumption” doctrine, an agency has the “‘duty to examine key
assumptions as part of its affirmative burden of promulgating
and explaining a non-arbitrary, non-capricious rule’ and
therefore . . . ‘must justify that assumption even if no one
objects to it during the comment period.’” Okla. Dep’t of Envtl.
Quality v. EPA, 740 F.3d 185, 192 (D.C. Cir. 2014) (alteration
in original) (quoting Appalachian Power Co. v. EPA, 135 F.3d
791, 818 (D.C. Cir. 1998) (per curiam)). But the key
assumption doctrine applies to aspects of a rule that are
foundational to its existence, such as assumptions regarding the
agency’s statutory authority, see Nat. Res. Def. Council v. EPA,
755 F.3d 1010, 1023 (D.C. Cir. 2014) (“[T]hat EPA had
statutory authority . . . to exempt some hazardous-wastederived fuels from regulation was a ‘key assumption’
underlying EPA’s exercise of its discretion . . . .” (internal
quotation mark omitted)), or those pertaining to the agency’s
analytical methodology, see Small Refiner Lead Phase-Down
Task Force v. EPA, 705 F.2d 506, 535 (D.C. Cir. 1983)
(“[A]ggregate analysis is a vital assumption underlying the
[EPA’s] model. Thus, EPA must justify that assumption even
if no one objects to it during the comment period . . . .”). How
the EPA accounts for exemptions granted to a subset of a subset
of a subset of obligated parties (small fuel refineries
experiencing disproportionate economic hardship) is hardly an
assumption undergirding the entire 2018 Rule. In any event, the
EPA examined its policy regarding retroactive exemptions,

Page 43 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

44
solicited comment on the issue, and reasonably rejected the
proposals it received. See Proposed Rule, 82 Fed. Reg. at
34,241–42; 2018 Rule, 82 Fed. Reg. at 58,523. Thus, to the
extent the EPA’s method of accounting for retroactive
exemptions in its percentage standard calculations is a “key
assumption,” the EPA has carried its “affirmative burden . . .
[to] justify that assumption.” Okla. Dep’t of Envtl. Quality, 740
F.3d at 192 (quoting Appalachian Power Co., 135 F.3d at 818).
V. Regulatory Flexibility Act
The Regulatory Flexibility Act requires an agency to
perform a regulatory flexibility analysis when conducting a
rulemaking. 5 U.S.C. §§ 603(a), 604(a). As part of that
analysis, the agency must assess any potential effects its
proposed rule may have on small entities and must consider
alternatives that would “minimize any significant economic
impact” on small entities to which the rule will apply. Id.
§ 603(b)(3), (c); accord id. § 604(a)(4), (6). Intervenor Small
Retailers Coalition argues that the court should vacate the 2018
Rule because the EPA failed to perform a regulatory flexibility
analysis assessing the potential impact of the 2018 Rule on
small fuel retailers. Although the Regulatory Flexibility Act
argument was articulated in a joint brief filed by the Obligated
Parties and the Coalition, the parties agree that only the
Coalition raises the argument.
We decline to exercise our discretion to hear this argument
brought only by an intervenor and not by any of the petitioners.
By failing to file a timely petition for review, the Coalition
forfeited any guarantee to judicial review of its claim. See E.
Ky. Power Coop., Inc. v. FERC, 489 F.3d 1299, 1305 (D.C.
Cir. 2007). Generally, “[i]ntervenors may only argue issues
that have been raised by the principal parties.” Nat’l Ass’n of
Regulatory Util. Comm’rs v. ICC, 41 F.3d 721, 729 (D.C. Cir.
1994). “[O]nly in ‘extraordinary cases’ will we depart from our

Page 44 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

45
general rule.” Id. at 730 (quoting Lamprecht v. FCC, 958 F.2d
382, 389 (D.C. Cir. 1992)). For example, we will consider an
intervenor-only argument that raises “‘an essential’ predicate”
to the issues raised by the petitioners—that is, if the argument
has been “fully litigated in the agency proceedings and [is]
potentially determinative of the outcome of judicial review.”
Synovus Fin. Corp. v. Bd. of Governors, 952 F.2d 426, 433–34
(D.C. Cir. 1991). But we are reticent to consider an intervenoronly argument if the intervenor “had every incentive to petition
for review of the administrative decision and its failure to do
so was without excuse.” Id. at 434.
The Coalition’s challenge does not constitute an
extraordinary case. Instead of demonstrating that its argument
presents an “essential predicate” to the issues the petitioners
raise or is otherwise of unusual importance, the Coalition
emphasizes (1) that the EPA did not object to its motion to
intervene, (2) that the Regulatory Flexibility Act argument
raises a pure question of law, and (3) that the Coalition has a
history of challenging the EPA’s definition of obligated parties.
The Coalition points to no case, and we are aware of none, in
which we have relied on similar facts to justify considering an
intervenor-only argument.
On the other hand, we believe this case is indistinguishable
from Time Warner Entertainment Co. v. FCC, 56 F.3d 151
(D.C. Cir. 1995). In Time Warner, we declined to consider an
argument under the Regulatory Flexibility Act made only by
the intervenor, the Small Cable Business Association. Id. at
202–03. In doing so, we observed that the Association had
“participated in the agency proceedings and had the
opportunity to file an independent petition for review of the
Commission’s alleged rejection of the Association’s . . .
[Regulatory Flexibility Act] claim[].” Id. at 202. Just so here.
The Coalition submitted comments on the Proposed Rule

Page 45 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

46
asking the EPA to conduct a regulatory flexibility analysis, and
the EPA’s alleged failure to conduct the requested analysis
gave the Coalition every incentive to file its own petition for
review of the final 2018 Rule. The Coalition has offered no
excuse for its failure to do so. We therefore decline to exercise
our discretion to consider the Coalition’s arguments under the
Regulatory Flexibility Act.
VI. Endangered Species Act
Finally, the Environmental Petitioners argue that the EPA
failed to comply with its obligations under the Endangered
Species Act (ESA), 16 U.S.C. §§ 1531–1544. The ESA
requires agencies to determine whether certain proposed
actions may affect endangered and threatened species, known
as “listed species,” and their critical habitat. Generally, unless
an agency determines that an action will not affect these species
and habitat, the agency must consult with the U.S. Fish and
Wildlife Service and the National Marine Fisheries Service (the
“Services”). The Environmental Petitioners contend that the
EPA disregarded these obligations by failing to determine
whether the 2018 Rule may affect listed species and critical
habitat. This challenge clears several threshold hurdles: we
have jurisdiction, the Environmental Petitioners have standing,
and the Environmental Petitioners preserved their challenge.
On the merits, we agree with the Environmental Petitioners that
the EPA did not comply with the ESA.
A. Jurisdiction
We have jurisdiction over challenges to “final action[s]”
taken by the EPA under the Clean Air Act. 42 U.S.C.
§ 7607(b)(1); see supra Part II. The term “final action” in the
Clean Air Act is synonymous with “final agency action” in the
Administrative Procedure Act. See Indep. Equip. Dealers
Ass’n v. EPA, 372 F.3d 420, 428 (D.C. Cir. 2004). This means

Page 46 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

47
that the Clean Air Act empowers us to hear challenges to
“discrete agency actions,” but we may not consider more
sweeping “programmatic” attacks. See Norton v. S. Utah
Wilderness All., 542 U.S. 55, 62–65 (2004); Lujan v. Nat’l
Wildlife Fed’n, 497 U.S. 871, 891 (1990). The EPA argues that
the Environmental Petitioners’ claim is outside our jurisdiction
because it is a broad attack seeking “wholesale improvement
of” the RFS Program. EPA Br. 85 (quoting Lujan, 497 U.S. at
891).
We do not understand the claim so broadly. Although the
Environmental Petitioners criticize the RFS Program and
complain that the EPA has never consulted on the Program
during the past decade, their actual challenge is to the 2018
Rule. According to their petition, they “seek review” of “the
EPA’s failure to comply with the requirements” of the ESA “in
promulgating the Final Rule,” and they charge the EPA “in this
instance” with failing to consult with the Services “to ensure
that the Final Rule” would not harm listed species. Envtl. Pet’rs
Pet. ¶ 2, No. 18-1040 (D.C. Cir. Feb. 9, 2018). Because the
promulgation of the 2018 Rule is a discrete agency action, this
challenge is squarely within our jurisdiction under the Clean
Air Act.
B. Standing
The EPA also argues that we may not consider the
challenge because the Environmental Petitioners lack standing.
“The Constitution limits our ‘judicial Power’ to ‘Cases’ and
‘Controversies,’ and there is no justiciable case or controversy
unless the plaintiff has standing.” West v. Lynch, 845 F.3d
1228, 1230 (D.C. Cir. 2017) (quoting U.S. Const. art. III, § 2).
An association like each of the Environmental Petitioners has
standing “only if (1) at least one of its members would have
standing to sue in his own right; (2) the interest it seeks to
protect is germane to its purpose; and (3) neither the claim

Page 47 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

48
asserted nor the relief requested requires the member to
participate in the lawsuit.” Ctr. for Biological Diversity v. EPA,
861 F.3d 174, 182 (D.C. Cir. 2017) (quoting Am. Trucking
Ass’ns v. Fed. Motor Carrier Safety Admin., 724 F.3d 243, 247
(D.C. Cir. 2013)).
The parties do not dispute that one of the Environmental
Petitioners—the Sierra Club—satisfies the latter two elements
of associational standing. Nor could they. As an organization
dedicated to protecting and enjoying the environment,
Addendum to Envtl. Pet’rs Br. (“Add.”) 275, 289, the Sierra
Club “has an obvious interest in challenging the EPA’s failure
to engage in consultation,” a process that ensures that agency
action “does not go forward without full consideration of its
effects on listed species,” Ctr. for Biological Diversity, 861
F.3d at 182 (internal quotation marks omitted). Also, the claim
asserted (that the EPA violated its obligations under the ESA)
and the relief requested (an order requiring the EPA to comply
with its obligations) do not require any member of the Sierra
Club to participate in this suit. See id.
The only disputed element of associational standing is the
first: whether at least one of the Sierra Club’s members would
have standing to sue in his or her own right. Generally, a
plaintiff must meet three requirements to have standing. The
plaintiff must have suffered (1) a concrete and particularized
injury that (2) was caused by the challenged conduct and (3) is
likely to be redressed by a favorable judicial decision. See
Hollingsworth v. Perry, 570 U.S. 693, 704 (2013) (citing
Lujan v. Defs. of Wildlife, 504 U.S. 555, 560–61 (1992)); Ctr.
for Biological Diversity, 861 F.3d at 181–82.
This case involves a twist on the usual standing inquiry
because the claim—that the EPA failed to meet its obligations
under the ESA—describes an “archetypal procedural injury.”

Page 48 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

49
Ctr. for Biological Diversity, 861 F.3d at 182 (quoting
WildEarth Guardians v. Jewell, 738 F.3d 298, 305 (D.C. Cir.
2013)). In cases involving a procedural injury, our “primary
focus” is “whether a plaintiff who has suffered personal and
particularized injury has sued a defendant who has caused that
injury,” and our analyses of the injury and of causation tend to
involve similar concepts. Fla. Audubon Soc’y v. Bentsen, 94
F.3d 658, 664 (D.C. Cir. 1996) (en banc) (citing Lujan, 504
U.S. at 572 n.7); see Ctr. for Biological Diversity, 861 F.3d at
182–83. As to injury, the Sierra Club must show that the failure
to comply with the ESA “affects its members’ concrete . . .
interests,” Ctr. for Biological Diversity, 861 F.3d at 183; in
other words, that the failure “demonstrably increased some
specific risk of environmental harm[s]” that “imperil” the
members’ “particularized interests” in a species or habitat with
which the members share a “geographic nexus,” Fla. Audubon
Soc’y, 94 F.3d at 666–68; see Ctr. for Biological Diversity, 861
F.3d at 183–84. As to causation, the Sierra Club must show two
links: “one connecting the omitted procedural step to some
substantive government decision that may have been wrongly
decided because of the lack of that procedural requirement”
and “one connecting that substantive decision to the plaintiff’s
particularized injury.” Ctr. for Biological Diversity, 861 F.3d
at 184 (alterations and internal quotation marks omitted). The
Sierra Club need not show that harm to a member “has in fact
resulted from the EPA’s procedural failures,” but the Club must
“demonstrate that there is a ‘substantial probability’ that local
conditions will be adversely affected” by the final decision
infected with procedural failures and “thus harm a [Club]
member.” Id. (quoting Am. Petroleum Inst. v. EPA, 216 F.3d
50, 63 (D.C. Cir. 2000) (per curiam)).
The Sierra Club has established injury and causation
through at least two of its members, C. Elaine Giessel and
William Fontenot. We begin by describing their interests, then

Page 49 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

50
we explain how the 2018 Rule affects those interests.
Giessel has aesthetic and recreational interests in
observing the whooping crane. Watching birds, including
whooping cranes, is one of her family’s favorite activities. Add.
286. For many years, she has supported the conservation of
critical habitat for the whooping crane. In 1997, she helped
create an organization that supports a Texas wildlife refuge;
she now visits the refuge annually to see the whooping cranes.
Id. at 283–84. She also belongs to an organization that supports
the Quivira National Wildlife Reserve in Kansas, and several
times per year she visits that refuge and another in Kansas, the
Cheyenne Bottoms State Waterfowl Management Area. She
intends to continue visiting these areas “for the foreseeable
future,” and her “enjoyment would be greatly diminished by
the loss of the Whooping cranes.” Id. at 285. These interests
are “undeniably . . . cognizable interest[s] for purpose of
standing.” Ctr. for Biological Diversity, 861 F.3d at 183
(quoting Lujan, 504 U.S. at 562–63).
Fontenot has similarly cognizable educational and
conservation interests in observing and studying the sturgeon
that live in the Gulf of Mexico and the Mississippi River Basin.
He has visited their habitat in the Gulf and intends to do so
again in the future. Add. 298. As the Conservation Chairman
for a Sierra Club Chapter, he has “been active in efforts to
protect the Gulf Sturgeon and its habitat,” including
commenting on the 2011 draft plan for the Bogue Chitto
Refuge at the mouth of the Mississippi River. Id. at 299. He has
studied sturgeon, such as those in the Pearl River in the
Mississippi River Basin, and he wishes to continue studying
the species because it helps him understand, protect, and
educate others about the Gulf and the Mississippi River. Id. at
296–99.

Page 50 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

51
The interests of Giessel and Fontenot are harmed by the
EPA’s alleged failure to comply with its ESA obligations in
promulgating the 2018 Rule. The EPA’s own 2018 Triennial
Report concluded that the Program’s annual standards likely
cause the conversion of uncultivated land into agricultural land
for growing crops that can be used to make biofuels. Since the
Program was enacted, acreage planted with corn and soybeans
has increased, and the evidence suggests that some of this
increase “is a consequence of increased biofuel production
mandates.” Id. at 123–25. In the same vein, a declaration by Dr.
Tyler Lark, an associate researcher at the University of
Wisconsin-Madison’s Center for Sustainability and the Global
Environment, explains that many studies have found that the
RFS Program has heightened demand for ethanol, thus
increasing the production of corn, soybeans, and similar crops
and incentivizing the conversion of uncultivated land to
agricultural land for growing these crops. See id. at 3–7 (Lark
Decl. ¶¶ 4–8). Land conversion is particularly marked in areas
surrounding ethanol refineries. See id. at 7–8 (Lark Decl. ¶¶ 9–
10).
According to the EPA’s Triennial Report and Dr. Lark,
this increase in crop production and land conversion harms the
habitats of numerous animals and fish, see id. at 212–20; id. at
9–18 (Lark Decl. ¶¶ 12–23), including—critically—the
particular habitats of the whooping cranes and Gulf sturgeon in
which Giessel and Fontenot have interests. Dr. Lark explains
that the Program’s annual standards may negatively affect the
whooping crane “through the loss and fragmentation of
habitat.” Id. at 13 (Lark Decl. ¶ 17). Most relevant to Giessel,
“[t]here is substantial conversion of land to biofuel feedstock
crops near the species’ designated critical habitat in Kansas.”
Id. In support, Dr. Lark cites a map showing that potential land
conversion occurred from 2008 to 2016 near and within the
very areas that Giessel visits to observe whooping cranes: the

Page 51 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

52
Quivira National Wildlife Reserve and Cheyenne Bottoms
State Waterfowl Management Area. Id. The Triennial Report
echoes this refrain, stating that the whooping crane’s critical
habitat in Kansas is “at risk of impairment” due to recent land
conversion, crop production, and ethanol refinery locations. Id.
at 64.
Gulf sturgeon are also at risk. The increase in crop
production and land conversion caused by the Program’s
annual standards “negatively impact[s] water quality.” Id. at
125–26. In particular, the standards contribute to oxygen
deficiencies (known as hypoxia) in the northern Gulf of
Mexico. Id. Indeed, “[t]he link between the Renewable Fuel
Standard, increased cropping intensification, and hypoxia in
the Gulf of Mexico” is “well established.” Id. at 20 (Lark Decl.
¶ 27) (citing studies). This may harm sturgeon, which are
“vulnerable” to hypoxia and have migration and feeding ranges
and critical habitat in the Gulf and at the mouth of the
Mississippi River. Id. at 21 (Lark Decl. ¶¶ 28–29); accord. id.
at 65; see also Endangered and Threatened Wildlife and Plants;
Designation of Critical Habitat for the Gulf Sturgeon, 68 Fed.
Reg. 13,370, 13,390, 13,408 (Mar. 19, 2003) (defining the Gulf
sturgeon’s critical habitat to include the Pearl River and the
Bogue Chitto River in the Mississippi River Basin). These are
precisely the waterways where Fontenot observes and studies
sturgeon. See Add. 296–99.
In these ways, the 2018 Rule created a demonstratable risk
to the particularized interests of two Sierra Club members in
the whooping crane in Kansas and the sturgeon in the Gulf and
the Mississippi River Basin. That risk is an injury to those
members. We reached the same conclusion in Center for
Biological Diversity v. EPA, 861 F.3d 174 (D.C. Cir. 2017).
There, an environmental association likewise charged the EPA
with failing to meet its ESA obligations before approving a

Page 52 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

53
pesticide that was toxic to insects. Id. at 180. We held that two
members of the association suffered cognizable injuries
because the EPA’s alleged failure created a “demonstrable
risk” to (1) a beetle that one member sought to observe in a
particular habitat several times a year, and (2) a butterfly that
lived in a county frequently visited by another member, who
intended to return to the county “to look for” the butterfly. Id.
at 183–84. Here, the 2018 Rule poses a similar risk to species
that share a “geographical nexus” with the Sierra Club
members. Id. (quoting Fla. Audubon Soc’y, 94 F.3d at 667).
The members have suffered cognizable injuries.
As to causation, the EPA’s alleged failure to comply with
its ESA obligations is plainly connected to the setting of
standards in the 2018 Rule, and those standards might have
come out differently if the EPA had complied. See id. at 184.
Also, there is a “substantial probability” that the EPA’s
ultimate decision adversely affected local conditions in Kansas,
the Gulf, and the Mississippi River Basin, harming cranes and
sturgeon to the detriment of Giessel and Fontenot. Id. (internal
quotation marks omitted). This establishes causation. Again,
Center for Biological Diversity is instructive. In that case, we
held that causation existed due to the substantial probability
that approving the pesticide threatened the members’ interests,
particularly given the pesticide’s toxicity to insects and the
“geographical overlap” between the beetle habitat and the areas
of likely pesticide use. Id. at 184–85. The EPA action here
similarly affects the local conditions that matter to Giessel and
Fontenot. The Sierra Club has established that at least one of
its members has suffered an injury caused by the EPA.
The EPA dismisses all this as “generalized concerns with
RFS statutory provisions and past RFS action,” which “do not
provide ‘evidence’ that the 2018 Rule causes the same alleged
injuries.” EPA Br. 91. We disagree. The EPA’s argument relies

Page 53 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

54
on the wrong standard. The Environmental Petitioners need not
show that the 2018 Rule “in fact” causes the same injuries; they
must show only a “substantial probability” of injury. Ctr. for
Biological Diversity, 861 F.3d at 183–84 (internal quotation
marks omitted). The EPA’s Triennial Report and the Lark
declaration provide evidence of just that. They describe the
effects of the annual standards promulgated over the past
decade, and the 2018 Rule is simply the next iteration of those
standards. Thus, the report and declaration certainly serve as
evidence of the likely effects of the 2018 Rule.
The EPA also argues that this case is more like Florida
Audubon Society than Center for Biological Diversity. Not so.
In Florida Audubon Society, an environmental association
challenged a new federal tax credit that allegedly harmed
wildlife habitats by incentivizing ethanol production. 94 F.3d
at 662. We held that no member had standing because there
was only a “general risk” of harm throughout the United States,
without a “geographic nexus” connecting a member to areas
harmed by the tax credit. Id. at 667–68. Also, the chain of
causation showing that the tax credit would harm habitats was
too “protracted” and “speculative,” for the chain depended on
“predictive assumptions” about uncertain incentives and
“presume[d] certain ‘independent action[s] of some third
party.’” Id. at 670 (quoting Simon v. Eastern Ky. Welfare
Rights Org., 426 U.S. 26, 42 (1976)). By contrast, here the
members of the Sierra Club share a geographic nexus with
areas likely affected by the 2018 Rule, and the chain of
causation does not depend on predictive assumptions about a
novel agency action. We have a decade’s worth of information,
including the EPA’s own Triennial Report, on the effects of the
Program’s annual standards. And unlike in Florida Audubon
Society, those standards do not simply establish uncertain tax
incentives that might lead third parties to take actions that harm
habitats, but rather directly regulate biofuel producers who are

Page 54 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

55
“before this court.” Id. at 670. It requires “no great speculative
leap” to conclude that the EPA caused an injury to the members
of the Sierra Club. Ctr. for Biological Diversity, 861 F.3d at
183 n.7.
This injury is also redressable. In this context, the
requirement of redressability is “relaxed.” Id. at 185 (quoting
WildEarth Guardians, 738 F.3d at 306). The Sierra Club need
not show that the EPA “would alter” the 2018 Rule if ordered
to comply with its ESA obligations, but rather that “the EPA
could reach a different conclusion.” Id. (quoting Nat’l Parks
Conservation Ass’n v. Manson, 414 F.3d 1, 5 (D.C. Cir. 2005)).
The Sierra Club has made this showing. There “remains at least
the possibility” that the EPA could set different standards by,
for example, invoking the general waiver for severe
environmental harm. Id.; see 42 U.S.C. § 7545(o)(7)(A)(i).
Having established that at least one of its members would
have standing to sue, the Sierra Club has associational
standing. We do not address whether the other Environmental
Petitioner, the Gulf Restoration Network, has standing. When
multiple associations bring suit, only one must have standing.
See Ctr. for Biological Diversity, 861 F.3d at 182.
C. Preservation
The EPA next argues that we may not consider the
Environmental Petitioners’ challenge because it was not
preserved. As we explained in Part IV.C, the Clean Air Act
directs that “[o]nly an objection to a rule . . . raised with
reasonable specificity during the period for public comment . . .
may be raised during judicial review.” 42 U.S.C.
§ 7607(d)(7)(B). An objection is reasonably specific if it
provides “adequate notification of the general substance of the
complaint.” Nat. Res. Def. Council, 571 F.3d at 1259 (quoting
S. Coast Air Quality Mgmt. Dist., 472 F.3d at 891).

Page 55 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

56
The Environmental Petitioners preserved their claim in a
letter sent to the EPA on July 14, 2017. At that time, the
upcoming fuel standards were those that were to be
promulgated in the 2018 Rule. The letter criticizes the Program
generally, but it also objects that the EPA did not consult on
the Program’s annual standards. The letter states on its first
page that the EPA has violated the ESA “[b]y failing to initiate
and complete consultation with the [Services] in . . . setting
annual volumetric standards for renewable fuels” and in
“failing to exercise[] its waiver authority.” J.A. 1450. The letter
elaborates that the “annual standards” have harmed various
species, and in setting the standards, the EPA “ha[s] not
complied” with its obligations under the ESA. J.A. 1458–69.
The letter specifically identifies these annual standards through
2017.
The EPA argues that the letter is not sufficiently specific
because it does not refer to the forthcoming 2018 standards or
urge the EPA to consult on the 2018 Rule in particular. Given
these omissions, we too might doubt that the letter preserved
an objection to the 2018 Rule were it not for some additional
facts: the EPA placed the letter in the administrative record for
the 2018 Rule, and the letter appears on the EPA’s rulemaking
docket as a comment on the 2018 Rule. See EPA Docket, EPAHQ-OAR-2017-0091-5030, J.A. 1450; Oral Arg. Tr. 106. In
our view, these facts lend substantial support to the argument
that the letter can be reasonably read to target the 2018 Rule
and provided “adequate notification of the general substance”
of the challenge. Nat. Res. Def. Council, 571 F.3d at 1259
(quoting S. Coast Air Quality Mgmt. Dist., 472 F.3d at 891).
After all, the EPA’s own actions reflect as much.
We note that the letter is dated July 14, 2017, making it
possible that the EPA received the letter before and not “during
the period for public comment” that opened on July 21. 42

Page 56 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

57
U.S.C. § 7607(d)(7)(B) (emphasis added); see Proposed Rule,
82 Fed. Reg. at 34,206. But the EPA does not make that
argument. See EPA Br. 86 (arguing that the letter was
insufficiently specific, not that it was submitted outside the
comment period); cf. id. at 86–87 & n.39 (arguing that other
documents failed to preserve the challenge because they were
submitted after the comment period). Perhaps the EPA does not
urge this point because the letter was sent before the comment
period but received during the period, which its placement on
the rulemaking docket for the 2018 Rule suggests. In any event,
we need not resolve this issue. Section 7607(d)(7)(B) does not
impose jurisdictional requirements, so we are not obligated to
address issues that go undisputed by the parties. See EPA v.
EME Homer City Generation, LP, 572 U.S. 489, 511–12
(2014); CTS Corp. v. EPA, 759 F.3d 52, 60 n.2 (D.C. Cir.
2014). On this record and the arguments before us, we hold that
the Environmental Petitioners preserved their ESA claim.
D. Merits
Because this claim survives the EPA’s threshold
objections, we turn to its merits. The Environmental Petitioners
argue that the EPA did not comply with its obligations under
the ESA in promulgating the 2018 Rule. The ESA requires
each federal agency to “insure that any action authorized,
funded, or carried out by such agency . . . is not likely to
jeopardize the continued existence of any [listed] species or
result in the destruction or adverse modification” of designated
critical habitat by adhering to the consultation process. 16
U.S.C. § 1536(a)(2); see Ctr. for Biological Diversity, 861 F.3d
at 177–78; see also 50 C.F.R. § 402.02 (defining “listed
species” as those “determined to be endangered or threatened”
under 5 U.S.C. § 1533). As the first step in this process, the
agency must make an “effects determination,” i.e., the agency
must assess whether a proposed action “may affect” listed
species or critical habitat. 50 C.F.R. § 402.14(a). If so, the

Page 57 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

58
agency must engage in formal consultation with the Services.
Id. But if the agency makes a “no effect” determination by
finding that its proposed action “will not affect any listed
species or critical habitat,” then “it is not required to consult”
with the Services. Ctr. for Biological Diversity v. U.S. Dep’t of
Interior, 563 F.3d 466, 475 (D.C. Cir. 2009) (emphasis added);
see also 50 C.F.R. §§ 402.13(a), 402.14(b) (the consultation
process terminates and no further action is necessary if the
agency determines, with the written concurrence of the relevant
Service, that the action “is not likely to adversely affect” any
listed species or critical habitat).
The EPA claims that it was not obligated to make an
effects determination or consult with the Services on the 2018
Rule because the Clean Air Act required the agency to establish
certain fuel volumes, which eliminated any discretion it might
otherwise have had to act differently based on information
gathered through consulting with the Services. It is true that the
EPA’s duty to consult with the Services “covers only
discretionary agency actions and does not attach to actions . . .
that an agency is required by statute to undertake.” Nat’l Ass’n
of Home Builders v. Defs. of Wildlife, 551 U.S. 644, 669
(2007). But the EPA’s argument fails because the agency had
discretion to reduce fuel volumes in at least two ways. First, the
EPA could have invoked its authority to issue a general waiver
allowing it to reduce statutory volumes that “would severely
harm the . . . environment of a State, a region, or the United
States.” 42 U.S.C. § 7545(o)(7)(A)(i). Second, the EPA
retained discretion to establish volumes for biomass-based
diesel. When setting such volumes, the EPA must consider six
factors, one of which allows the EPA to modify volumes based
on environmental considerations, such as concerns about
wetland conversion, wildlife habitat, and water quality. See id.
§ 7545(o)(2)(B)(ii)(I).

Page 58 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

59
The EPA next argues that it made a “no effect”
determination, thus eliminating any obligation to consult with
the Services. According to the EPA, it “expressly determined
that its actions do not affect” listed species, EPA Br. 99, by
stating in response to comments that “any harm to threatened
or endangered species or their critical habitat that may be
associated with crop cultivation in 2018 could not be attributed
with reasonable certainty to EPA’s action” in promulgating the
2018 Rule, id. (quoting J.A. 1249); see also J.A. 1253 (EPA
similarly stating that “whatever impacts or threats to listed and
endangered species or their critical habitats that may be caused
by corn or soy cultivation in 2018 cannot with reasonable
certainty be attributed to” the 2018 Rule).
These statements are not a “no effect” determination. The
inability to “attribute[]” environmental harms “with reasonable
certainty” to the 2018 Rule, EPA Br. 99 (quoting J.A. 1249), is
not the same as a finding that the 2018 Rule “will not affect”
or “is not likely to adversely affect” listed species or critical
habitat. Moreover, the EPA made this purported “no effect”
determination in response to comments urging the EPA to
reduce volumes through a finding of “severe environmental
harm” under 42 U.S.C. § 7545(o)(7)(A)(i). See J.A. 1248–49.
Concluding that the 2018 Rule may not cause harms that meet
that high threshold does not necessarily mean the 2018 Rule
will have no effect on listed species or critical habitat. Finally,
the EPA’s brief omits an important part of the purported “no
effect” determination, which reads: “[W]e believe that even
with additional research and analysis, . . . any harm to
threatened or endangered species or their critical habitat that
may be associated with crop cultivation in 2018 could not be
attributed with reasonable certainty to EPA’s action . . . .” J.A.
1249 (emphasis added). In other words, the EPA concluded
that it is impossible to know whether the 2018 Rule will affect
listed species or critical habitat. That is not the same as

Page 59 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

60
determining that the 2018 Rule “will not” affect them.
By failing to make an effects determination, the EPA did
not comply with its obligations under the ESA. See 16 U.S.C.
§ 1536(a)(2); 50 C.F.R. §§ 402.13(a), 402.14(a). We therefore
grant the Environmental Petitioners’ petition for review and
remand the 2018 Rule to the EPA to make an appropriate
effects determination. See Ctr. for Biological Diversity, 861
F.3d at 188–89; Am. Bird Conservancy, Inc. v. FCC, 516 F.3d
1027, 1034–35 (D.C. Cir. 2008).
The Environmental Petitioners ask us to go a step further
and make the effects determination ourselves. In their view, the
evidence conclusively establishes that the 2018 Rule “may
affect” listed species or critical habitat. Envtl. Pet’rs Br. 28–29.
This would trigger formal consultation, 50 C.F.R. § 402.14(a),
and so the Environmental Petitioners ask us to order the EPA
to consult with the Services, Envtl. Pet’rs Br. 30. On this
record, we decline to make this effects determination on the
EPA’s behalf, preferring instead to allow the EPA to develop
the record and decide the issue in the first instance on remand.
See Ctr. for Biological Diversity, 861 F.3d at 189 n.13.
Finally, the Environmental Petitioners do not ask us to
vacate the 2018 Rule. Envtl. Pet’rs Br. 31 (seeking remand
“without vacatur”). Accordingly, and consistent with our
practice in similar cases, our remand is without vacatur. See,
e.g., Ctr. for Biological Diversity, 861 F.3d at 188–89; North
Carolina v. EPA, 550 F.3d 1176, 1178 (D.C. Cir. 2008) (per
curiam).
VII. Conclusion
For the foregoing reasons, we deny the petitions for review
filed by American Fuel & Petrochemical Manufacturers,
Valero Energy Corporation, and the National Biodiesel Board.

Page 60 of 61

USCA Case #17-1258

Document #1805279

Filed: 09/06/2019

61
We grant the Environmental Petitioners’ petition for review
and remand the 2018 Rule without vacatur for further
proceedings consistent with this opinion.
So ordered.

Page 61 of 61

EXHIBIT 3

USCA Case #17-1044

Document #1804336

Filed: 08/30/2019

Page 1 of 2

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 16-1052

September Term, 2018
FILED ON: AUGUST 30, 2019

ALON REFINING KROTZ SPRINGS, INC.,
PETITIONER
v.
ENVIRONMENTAL PROTECTION AGENCY,
RESPONDENT
MONROE ENERGY, LLC, ET AL.,
INTERVENORS
Consolidated with 16-1055, 17-1255, 17-1259, 18-1021, 18-1024, 18-1025, 18-1029
On Petitions for Review of Agency Action of the
United States Environmental Protection Agency

No. 17-1044
COFFEYVILLE RESOURCES REFINING & MARKETING, LLC AND WYNNEWOOD REFINING COMPANY,
LLC
PETITIONERS
v.
ENVIRONMENTAL PROTECTION AGENCY,
RESPONDENT
ALON REFINING KROTZ SPRINGS, INC., ET AL.,
INTERVENORS
Consolidated with 17-1045, 17-1047, 17-1049, 17-1051, 17-1052
On Petitions for Review of Agency Action of the
United States Environmental Protection Agency

USCA Case #17-1044

Document #1804336

Filed: 08/30/2019

Page 2 of 2

Before: PILLARD and KATSAS, Circuit Judges, and WILLIAMS, Senior Circuit Judge
JUDGMENT
These causes came on to be heard on the petitions for review of agency actions of the United
States Environmental Protection Agency and were argued by counsel. On consideration thereof, it is
ORDERED and ADJUDGED that the petitions for review be denied, in accordance with the
opinion of the court filed herein this date.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Daniel J. Reidy
Deputy Clerk

Date: August 30, 2019
Opinion Per Curiam
Opinion concurring in part and concurring in the judgment filed by Senior Circuit Judge Williams.

EXHIBIT 4

USCA Case #17-1258

Document #1805277

Filed: 09/06/2019

Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 17-1258

September Term, 2019
FILED ON: SEPTEMBER 6, 2019

AMERICAN FUEL & PETROCHEMICAL MANUFACTURERS,
PETITIONER
v.
ENVIRONMENTAL PROTECTION AGENCY,
RESPONDENT
SMALL RETAILERS COALITION, ET AL.,
INTERVENORS
Consolidated with 18-1027, 18-1040, 18-1041
On Petitions for Review of an Action of the
United States Environmental Protection Agency
Before: HENDERSON, TATEL, and GRIFFITH, Circuit Judges
JUDGMENT
These cause came on to be heard on the petitions for review of an action of the United States
Environmental Protection Agency and were argued by counsel. On consideration thereof and, in
accordance with the opinion of the court filed herein this date, it is
ORDERED and ADJUDGED that the petitions for review filed by American Fuel &
Petrochemical Manufacturers, Valero Energy Corporation, and the National Biodiesel Board be
denied. The Environmental Petitioners’ petition for review be granted and the 2018 Rule be remanded
without vacatur for further proceedings.
Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Daniel J. Reidy
Deputy Clerk

Date: September 6, 2019
Opinion Per Curiam

EXHIBIT 5

USCA Case #16-1052

Document #1813137

Filed: 10/29/2019

Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 16-1052

September Term, 2019
EPA-73FR57248
EPA-73FR71940
EPA-75FR14670
EPA-80FR77420
EPA-70FR77325
EPA-73FR71560
EPA-82FR56779
EPA-72FR23900
Filed On: October 29, 2019 [1813137]

Alon Refining Krotz Springs, Inc.,
Petitioner
v.
Environmental Protection Agency,
Respondent
-----------------------------Monroe Energy, LLC, et al.,
Intervenors
-----------------------------Consolidated with 16-1055, 17-1255,
17-1259, 18-1021, 18-1024, 18-1025,
18-1029
MANDATE
In accordance with the judgment of August 30, 2019, and pursuant to Federal Rule
of Appellate Procedure 41, this constitutes the formal mandate of this court.
FOR THE COURT:
Mark J. Langer, Clerk
BY:

Link to the judgment filed August 30, 2019

/s/
Ken R. Meadows
Deputy Clerk

EXHIBIT 6

USCA Case #17-1044

Document #1813142

Filed: 10/29/2019

Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 17-1044

September Term, 2019
EPA-81FR89746
Filed On: October 29, 2019 [1813142]

Coffeyville Resources Refining &
Marketing, LLC and Wynnewood Refining
Company, LLC,
Petitioners
v.
Environmental Protection Agency,
Respondent
-----------------------------Alon Refining Krotz Springs, Inc., et al.,
Intervenors
-----------------------------Consolidated with 17-1045, 17-1047,
17-1049, 17-1051, 17-1052
MANDATE
In accordance with the judgment of August 30, 2019, and pursuant to Federal
Rule of Appellate Procedure 41, this constitutes the formal mandate of this court.

FOR THE COURT:
Mark J. Langer, Clerk
BY:

Link to the judgment filed August 30, 2019

/s/
Ken R. Meadows
Deputy Clerk

EXHIBIT 7

USCA Case #17-1258

Document #1813145

Filed: 10/29/2019

Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 17-1258

September Term, 2019
EPA-82FR58486
Filed On: October 29, 2019 [1813145]

American Fuel & Petrochemical
Manufacturers,
Petitioner
v.
Environmental Protection Agency,
Respondent
-----------------------------Small Retailers Coalition, et al.,
Intervenors
-----------------------------Consolidated with 18-1027, 18-1040,
18-1041
MANDATE
In accordance with the judgment of September 6, 2019, and pursuant to Federal
Rule of Appellate Procedure 41, this constitutes the formal mandate of this court.

FOR THE COURT:
Mark J. Langer, Clerk
BY:

Link to the judgment filed September 6, 2019

/s/
Ken R. Meadows
Deputy Clerk

